<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 21, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:20 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin and Allard.

                             THE JUDICIARY

STATEMENT OF HON. JULIA S. GIBBONS, JUDGE, U.S. COURT 
            OF APPEALS, SIXTH CIRCUIT; CHAIR, BUDGET 
            COMMITTEE, JUDICIAL CONFERENCE OF THE 
            UNITED STATES

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good afternoon. I'd like to note that this 
is the first hearing on the judiciary's budget before this 
subcommittee since 2002.
    This afternoon, we will be hearing from two distinguished 
witnesses, Judge Julia Gibbons and Director James Duff. I'm 
pleased to welcome Judge Gibbons, Chair of the Judicial 
Conference's Budget Committee, as well as Mr. Duff, Director of 
the Administrative Office of the Courts.
    And I welcome my colleague, Senator Allard, who has joined 
me today, and others who may arrive.
    For the past 3 fiscal years, the judiciary has achieved 
approximately a 5-percent budget increase, which has helped put 
the courts back on track after suffering significant cuts in 
fiscal year 2004. I'm pleased this subcommittee was able to 
increase funding for the judiciary in critically needed areas 
during this fiscal year despite operating under a continuing 
resolution.
    With these fiscal year 2007 funds, the judiciary will be 
able to make progress in dealing with the increased caseload in 
areas like the Southwest border, prevent termination of 2,500 
employees, ensure payments for constitutionally guaranteed 
criminal defense services, prevent discontinuation of civil 
jury trials prior to the end of the fiscal year, and address 
the courts' security needs, a top priority of mine.

                        FISCAL YEAR 2008 BUDGET

    For fiscal year 2008, there's a request for a 7.6-percent 
increase overall for the judiciary above last year's level. In 
addition, there's a request for an increase in the noncapital 
panel attorney rate, which would permit hourly rates to go from 
$94 to $113. The subcommittee will need to consider that 
carefully. I'm aware that in recent years the Judicial 
Conference undertook cost-containment measures, and, as a 
result, you were able to reduce some costs. I know your 
testimony discusses this, as well as additional cost-saving 
efforts underway.
    Regarding court security, I understand you've had some 
problems with the ability of the Federal Protective Service to 
adequately safeguard the exterior perimeter of all courthouses. 
I want to hear more about that.

            NATIONAL ACADEMY OF PUBLIC ADMINISTRATION REPORT

    Recently, the National Academy of Public Administration 
(NAPA) conducted a study of the judiciary's budget processes 
and how the judiciary prepares for the future. NAPA had some 
recommendations, which I will also be anxious to hear your 
response to.
    I look forward to discussing these and other issues. I note 
the subcommittee is in receipt of written testimony submitted 
by the Court of Appeals for the Federal Circuit, Court of 
International Trade, Federal Judicial Center, and the U.S. 
Sentencing Commission, which will be submitted for the entire 
record.
    I turn now to my colleague Senator Allard, if he would like 
to make an opening statement.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, thank you. I've enjoyed 
working with you in previous years, and I look forward to 
working with you this year.
    I share your concern with--well, first of all, I want to 
thank you for holding this hearing, and thank the witnesses for 
coming and sharing their expertise with us. I appreciate the 
opportunity to discuss the Federal judiciary's fiscal year 2008 
budget request and justification. And, as we consider the 
allocation of appropriated Federal dollars, it's important that 
we identify the needs and challenges facing our Federal 
judicial system.

                  GENERAL SERVICES ADMINISTRATION RENT

    One issue that I've worked on for a considerable amount of 
time, and what I've supported, is legislation to address major 
problems affecting the Federal judiciary, specifically 
excessive rental charges by the General Services Administration 
(GSA) for courthouses and other space occupied by the courts 
across the country. I'm hearing from my judges in Colorado on 
that issue on a frequent basis. We must work together to 
prohibit the GSA from excessively overcharging to maintain and 
operate Federal court buildings and related costs.
    Along with the chairman, I have some interest, also, in 
security issues. I have a question in that regard.
    Thank you for being here. I look forward to the testimony.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Allard.
    Judge Gibbons, the floor is yours.

                   OPENING STATEMENT OF JUDGE GIBBONS

    Judge Gibbons. Chairman Durbin, Senator Allard, as 
indicated, I'm Judge Julia Gibbons. I'm here to testify as 
chair of the Budget Committee of the Judicial Conference of the 
United States. Appearing with me today is Jim Duff, the new 
Director of the Administrative Office of the Courts. Jim brings 
much experience and knowledge of the judiciary to his position.
    Mr. Chairman, you have been a great friend to the Federal 
judiciary through your work on the Judiciary Committee and the 
Appropriations Committee. I know that you were personally 
involved in efforts to provide $12 million in fiscal year 2006 
supplemental funding to the United States Marshals Service for 
judicial security, part of which went for installation and 
monitoring of security systems in judges' homes. I speak for 
all judges when I say we greatly appreciate Congress' continued 
concern with the safety of judges and their families.

                        FISCAL YEAR 2007 FUNDING

    On behalf of the third branch, I want to thank you, Mr. 
Chairman, Senator Brownback, and also Chairman Byrd, for making 
the judiciary a funding priority in the just completed fiscal 
year 2007 appropriations cycle. Although we were very concerned 
about the prospect of a hard freeze for the courts in 2007, 
Congress responded to those concerns and provided funding for 
the judiciary sufficient to maintain current onboard staffing 
levels in the courts, as well as to address some of our 
immigration and law enforcement workload needs. We are aware 
that many executive branch programs and agencies were funded at 
or below fiscal year 2006 levels, and we are very appreciative 
for the funding level we received. I assure you that we will 
use the resources you have given us wisely.

                        FISCAL YEAR 2008 REQUEST

    The goal of our fiscal year 2008 request is to sustain the 
staffing gains you helped us achieve in 2007. After a decade of 
steady workload growth that was not matched with similar growth 
in staffing resources, the courts' workload has finally begun 
to stabilize. With the funding you provided for 2007, clerks 
and probation offices will be able to hire more than 200 staff 
to address critical workload needs and partially close the gap 
between workload and staffing.
    We recently updated our 2008 budget request in order to 
more accurately reflect our funding needs in light of changed 
requirements due to financing assumptions and delayed enactment 
of our 2007 appropriations. Based on these changes, we have 
reduced the judiciary's 2008 appropriation requirements by $80 
million.
    Our revised 2008 appropriations requirements reflect an 
increase of $452 million over the 2007 enacted level. Of this 
amount, $390 million, or 86 percent, of the increase is for 
standard pay and nonpay inflationary adjustments and four 
adjustments to base, reflecting increases in our space, 
information technology, defender services, and court security 
programs. The remaining $62 million of our request is for 
program enhancements for courthouse security, information 
technology improvements, and for an enhancement in our defender 
services program to increase the hourly rate paid to private 
panel attorneys representing indigent defendants in Federal 
criminal cases. This need for an increase in the amount we pay 
panel attorneys is discussed in detail in my written testimony, 
and you referred to it earlier Mr. Chairman. I look forward to 
answering any questions you may have about it.
    In constructing the 2008 budget request, the judiciary made 
every effort to contain costs. In 2004, the Judicial Conference 
adopted a comprehensive strategy to reduce the rate of growth 
in the judiciary's appropriation requirements without hurting 
the administration of justice, and this strategy has produced 
results. Our rent validation initiative alone identified space 
rent overcharges by GSA that resulted in over $50 million in 
rent credits and cost avoidances. We are able to redirect these 
savings to other judiciary priorities, thus reducing our 
request for appropriated funds. Pursuing cost-containment 
initiatives throughout the judiciary is a top priority of the 
Judicial Conference.

                  FEDERAL PROTECTIVE SERVICE SECURITY

    Finally, I turn to an issue of increasing concern to the 
judiciary; that is, the expense and quality of service provided 
the courts by the Federal Protective Service (FPS). FPS 
provides, on a reimbursable basis, exterior perimeter security 
for Federal agencies. We have received reports from several 
courts that perimeter security equipment provided by the FPS 
has not been maintained or repaired, thus compromising security 
in those courthouses. Last month Director Duff heard from a 
major metropolitan court which detailed inoperative FPS-
provided exterior cameras and the absence of cameras at key 
locations, resulting in dead zones with no camera surveillance. 
Another district reported that, after pellets were fired at the 
courthouse at night, the court learned there was no 
surveillance footage to review, because FPS cameras were not 
recording any exterior views.
    In many instances, the United States Marshals Service has 
assumed responsibility for repairing or replacing FPS-provided 
perimeter cameras. We appreciate the Marshals Service's 
proactive approach, but, unfortunately, it means that we are 
paying both the Marshals Service and FPS for identical 
services.
    The situation with FPS has become sufficiently serious that 
last week the Judicial Conference endorsed a recommendation to 
support the efforts of the Marshals Service to assume security 
functions currently performed by FPS. We look forward to 
working with the subcommittee on this important issue.

                          PREPARED STATEMENTS

    As I conclude my remarks, I ask that my entire statement, 
plus the statement of the Administrative Office and the other 
judicial entities to which you referred earlier, Mr. Chairman, 
be placed in the record. And, of course, I'll be happy to 
answer questions at the appropriate time.
    Senator Durbin. Without objection, the statements will be 
placed in the record.
    [The statements follow:]

              Prepared Statement of Hon. Julia S. Gibbons

                              INTRODUCTION

    Chairman Durbin, Senator Brownback, and members of the 
subcommittee, I am Judge Julia Gibbons of the Sixth Circuit Court of 
Appeals. Our court sits in Cincinnati, Ohio, and my resident chambers 
are in Memphis, Tennessee. As the chair of the Judicial Conference 
Committee on the Budget, I come before you to testify on the 
Judiciary's appropriations requirements for fiscal year 2008, speaking 
on behalf of the 33,000 employees of the Judiciary judges, court staff, 
and chambers staff. I feel privileged to represent the Third Branch. In 
doing so, I will also apprise you of some of the challenges facing the 
Federal courts.
    This is my third appearance before an appropriations subcommittee 
on behalf of the Federal Judiciary and, of course, my first appearance 
before this newly created Financial Services and General Government 
panel. We look forward to a productive relationship with the 
subcommittee and its staff as we begin the fiscal year 2008 budget 
cycle.
    Mr. Chairman, you have been a great friend to the Federal Judiciary 
through your work on the Judiciary Committee and the Appropriations 
Committee. I know you were personally involved in efforts to provide 
$12 million in supplemental funding to the United States Marshals 
Service, part of which was for the installation and monitoring of 
security systems in judges' homes. I speak for all judges when I say we 
greatly appreciate Congress's continued concern with the safety of 
judges and their families.

              ADMINISTRATIVE OFFICE DIRECTOR JAMES C. DUFF

    Appearing with me today is James C. Duff, the new director of the 
Administrative Office of the United States Courts. He succeeds Leonidas 
Ralph Mecham who retired last year after a record 21 years leading the 
Administrative Office. Director Duff was appointed by the Chief Justice 
in April 2006 and took office in July 2006. Jim brings much experience 
and knowledge of the Judiciary to his position.

                        FISCAL YEAR 2007 FUNDING

    Mr. Chairman and Senator Brownback, on behalf of the entire 
Judicial Branch I want to thank you and your colleagues, especially 
Chairman Byrd, for making the Judiciary a funding priority in the just 
completed fiscal year 2007 appropriations cycle. The fiscal year 2007 
process was certainly atypical in concluding with a joint resolution 
providing full year funding for the nine unfinished appropriations 
bills. Although we were very concerned about the prospect of a hard 
freeze for the courts in fiscal year 2007, Congress responded to those 
concerns and provided funding for the Judiciary sufficient to maintain 
current on-board staffing levels in the courts as well as to address 
some of our immigration-related workload needs. We are aware that 
hundreds of Executive Branch programs were funded at or below fiscal 
year 2006 levels, and we are very appreciative for the funding level we 
received. I assure you that we will use these resources wisely.
    While I will discuss the fiscal year 2008 budget request for the 
Judiciary later in my testimony, I would like to mention that, like 
some Federal agencies, we had to make certain assumptions about our 
fiscal year 2007 funding levels when we were finalizing our 2008 budget 
request several months ago. We assumed that Congress would provide the 
midpoint of the House-passed and Senate-reported appropriations bills 
from the 109th Congress, less 1 percent for a possible across-the-board 
rescission. The final enacted fiscal year 2007 appropriations level is 
$44 million below the fiscal year 2007 funding assumption we used to 
construct the fiscal year 2008 request. In order to provide you with 
our latest budget estimates, we recently updated the Judiciary's fiscal 
year 2008 request based on fiscal year 2007 enacted appropriations, 
other financing adjustments, and changes in requirements that have 
occurred since our 2008 budget was submitted. Our preliminary analysis 
indicates that the Judiciary's fiscal year 2008 appropriations 
requirements have declined by $80 million from the original request 
level. A chart identifying, by account, the revised appropriations 
request for fiscal year 2008 is provided at Appendix A. We will provide 
a complete budget re-estimate package to the subcommittee in May.

                       STATEMENTS FOR THE RECORD

    Mr. Chairman, in addition to my statement and Director Duff's, I 
ask that the entire statements of the Federal Judicial Center, the 
Sentencing Commission, the Court of Appeals for the Federal Circuit, 
and the Court of International Trade be included in the hearing record.

                     ROLE OF THE FEDERAL JUDICIARY

    Before I detail the specifics of our 2008 budget request, I will 
review various factors that shape the Federal Judiciary's budget. First 
and foremost is the role of the courts in our system of democratic 
government. Among our three independent, co-equal branches of 
government, the Judiciary is the place where the people go to resolve 
their disputes peacefully and according to the rule of law. We are 
protectors of individual rights. Through trying those accused of crimes 
and sentencing those who are convicted, we also uphold societal values 
as expressed in the laws you pass. It may seem obvious, but it is worth 
noting that every item in our budget request relates to performing the 
functions entrusted to us under the Constitution. We have no optional 
programs; everything ultimately contributes to maintaining court 
operations and preserving the judicial system that is such a critical 
part of our democracy.

                        COST CONTAINMENT EFFORTS

    The Judiciary is cognizant of the budget challenges facing our 
Nation and I want to assure the subcommittee that the Federal Judiciary 
is doing its part to contain costs. We are well aware that, with the 
conflicts in Iraq and Afghanistan and the investments being made to 
improve security here at home, non-security domestic spending has been 
flat for several years. And, looking forward, we know that the 
projected increase in mandatory entitlement spending in the coming 
years as baby boomers begin to retire will only add to Federal budget 
pressures. The Judiciary recognizes that the administration and 
Congress are rightfully concerned about overall Federal spending and 
budget deficits and that you face tough choices.
    The Judicial Conference has always sought ways to reduce costs and 
enhance productivity. In fact, the Budget Committee which I currently 
chair has, since 1993, had an Economy Subcommittee whose sole purpose 
is to make funding recommendations to the full Budget Committee based 
on its independent analysis of the efficiency and effectiveness of 
Judiciary programs. The Economy Subcommittee is in effect the Third 
Branch's counterpart to the Office of Management and Budget. In fiscal 
year 2004 we retooled and enhanced our efforts to control costs. In 
that year, the Judiciary received a significant reduction to its budget 
request, primarily due to across-the-board cuts applied during final 
conference on our appropriations bill. This funding shortfall resulted 
in staff reductions of 1,350 employees, equal to 6 percent of the 
courts' on-board workforce. Of that number, 328 employees were fired, 
358 employees accepted buyouts or early retirements, and 664 employees 
left through normal attrition and were not replaced.
    The 2004 situation made clear that the Judicial Conference had to 
take steps to contain costs in a way that would protect the judicial 
process and ensure that budget cuts would not harm the administration 
of justice. In March 2004, the late Chief Justice William H. Rehnquist 
charged the Judicial Conference's Executive Committee with leading a 
review of the policies, practices, operating procedures, and customs 
that have the greatest impact on the Judiciary's costs, and with 
developing an integrated strategy for controlling costs. After a 
rigorous 6-month review by the Judicial Conference's various program 
committees, the Executive Committee prepared, and the Judicial 
Conference endorsed, a cost-containment strategy. The strategy focused 
on the primary cost drivers of the Judiciary's budget, which included 
an examination of the number of staff working in the courts, the amount 
they are paid, and the rent we pay to the General Services 
Administration for courthouses and leased office space. To be frank, 
cost containment is not the most popular initiative in all quarters of 
the Judiciary. But the courts realize it is necessary, and we have had 
great cooperation Judiciary-wide as we have moved forward on cost 
containment initiatives. Pursuing the implementation of cost 
containment initiatives will continue to be a top priority of the 
Judicial Conference.
Rent Validation Project
    The amount of rent we pay to GSA has been a matter of concern to 
the Judiciary for more than 15 years. Our GSA rent bill consumes about 
20 percent of the courts' operating budget, and we project the rent 
bill will exceed $1 billion in fiscal year 2008. Our relationship with 
GSA, though strained in recent years, has become more productive as 
Director Duff will discuss in more detail in his testimony. In 
addition, we remain vigilant in our efforts to control our rent costs, 
and at present GSA and the Judiciary are working cooperatively to this 
end.
    The Judiciary's rent validation project has achieved significant 
savings. This initiative originated in our New York courts where staff 
spent months scrutinizing GSA rent bills and found rent overcharges. 
The cumulative effect of this discovery was savings and cost avoidance 
over 3 fiscal years totaling $30 million. The Administrative Office 
expanded this effort nationwide by training all circuit executive 
offices to research and detect errors in GSA rent billings. Although it 
is quite time consuming, detailed reviews of GSA rent billings are now 
a standard business practice throughout the courts. Through the rent 
validation effort we recently identified additional overcharges 
totaling $22.5 million in savings and cost avoidance over 3 years. GSA 
has been very responsive to correcting billing errors that we bring to 
their attention. By identifying and correcting space rent overcharges 
we are able to re-direct these savings to other Judiciary requirements, 
thereby reducing our request for appropriated funds.
Rent Caps
    To contain costs further, the Judiciary is establishing budget caps 
in selected program areas in the form of maximum percentage increases 
for annual program growth. For our space and facilities program, the 
Judicial Conference approved in September 2006 a cap of 4.9 percent on 
the average annual rate of growth for GSA rent requirements for fiscal 
years 2009 through 2016. By comparison, the increase in GSA rent in our 
fiscal year 2005 budget request was 6.6 percent. This cap will produce 
a GSA rent cost avoidance by limiting the annual amount of funding 
available for space rental costs, and courts will have to further 
prioritize space needs and deny some requests for additional space.
Other Cost Containment Initiatives
    The Judiciary has adopted and is pursuing a number of measures to 
contain costs and improve efficiency throughout the Federal courts. 
These initiatives include redefining work requirements for probation 
officers, imposing tighter restrictions on appointing new magistrate 
judges, consolidating computer servers, and modifying courthouse space 
design standards. I would encourage members of the subcommittee to read 
a compendium of these initiatives in our report entitled Innovation in 
Lean Times: How Federal Court Operations Are Changing to Meet Demands. 
This report was prepared by the Administrative Office in July 2006 and 
distributed to the House and Senate Appropriations Subcommittees in the 
109th Congress. I have asked Administrative Office staff to provide the 
report to the current appropriations subcommittees as well.

               THE JUDICIARY'S ROLE IN HOMELAND SECURITY

    The role of the Judiciary in the Nation's homeland security is 
often overlooked. Actions taken by the Department of Homeland Security 
and the Department of Justice have a direct and immediate impact on the 
Federal courts. Whether it is costly high-profile terrorist cases or 
soaring increases in immigration cases and related appeals, much of the 
workload ends up on Federal court dockets, and sufficient resources are 
required in order to respond to it. In recent years, Congress and the 
administration have significantly increased spending for homeland 
security through the annual and supplemental appropriations processes. 
Non-defense homeland security spending has more than tripled since 
2001. In sharp contrast, appropriations for the courts' operating 
budget have increased only 33 percent and on-board court staffing 
levels have declined by 5 percent. Increased spending on homeland 
security is expected to continue, as evidenced by the President's 
Fiscal Year 2008 Budget, which includes a 9.5 percent increase in 
government-wide non-defense homeland security spending. The President's 
budget includes an unprecedented $13 billion to strengthen border 
security and immigration enforcement, a component of our workload in 
which we have seen dramatic growth in recent years. In fact, 
immigration-related cases now account for 25 percent of the district 
courts' criminal caseload, up from 18 percent in 2001, and surpass all 
other offense categories except drug cases. This President's request 
includes funding for 3,000 new border patrol agents to achieve the goal 
of doubling the force by the end of 2008 (18,000+ agents) from the 2001 
level (9,100 agents). The Judiciary cannot absorb the additional 
workload generated by homeland security initiatives within current 
resource levels.

                      THE JUDICIARY'S WORKLOAD \1\

    I turn to a discussion of the workload facing the courts. As 
indicated in the caseload table in our fiscal year 2008 budget request, 
2007 caseload projections, which are utilized to compute fiscal year 
2008 staffing estimates, increase slightly in probation and pretrial 
services, and decline slightly in appellate, civil, and criminal 
filings. There is a steep decline in projected bankruptcy filings. 
While our caseload has begun to stabilize after a decade of steady 
growth, it nonetheless remains at near-historic levels in most 
categories. I will discuss some recent trends and caseload drivers and 
try to offer some context for these workload figures.
---------------------------------------------------------------------------
    \1\ Unless otherwise stated, caseload figures reflect the 12-month 
period ending in June of the year cited (i.e., 2006 workload reflects 
the 12-month period from June 30, 2005 to June 30, 2006.
---------------------------------------------------------------------------
Probation and Pretrial Services
    Workload in our probation and pretrial services programs continues 
to grow. The number of people under the supervision of Federal 
probation officers hit a record 113,697 in 2006 and is expected to 
increase in 2007 to 114,600. In addition to the increased workload, the 
work of probation officers has become significantly more difficult. In 
1985, fewer than half of the offenders under supervision had served 
time in prison. By 2006, the percentage had climbed to nearly 80 
percent. As these figures indicate, probation officers no longer deal 
primarily with individuals sentenced to probation in lieu of prison. 
Offenders coming out of prison have greater financial, employment, and 
family problems than when they committed their crimes. In addition, 
offenders under supervision have more severe criminal histories than in 
the past. Between 1995 and 2005, there was a 78 percent increase in the 
number of offenders sentenced with more severe criminal backgrounds. 
Offenders re-entering the community after serving time in prison 
require close supervision by a probation officer to ensure they secure 
appropriate housing and employment. Successful re-entry improves the 
likelihood that offenders will pay fines and restitution and become 
taxpaying citizens.
    Recent legislation will also increase our probation workload. The 
Adam Walsh Child Protection and Safety Act of 2006 is expected to 
increase significantly the number of sex offenders coming into the 
Federal probation and pretrial system for supervision. Monitoring the 
behavior of sex offenders is very challenging and requires intense 
supervision on the part of probation and pretrial services officers to 
protect the community.
Appellate Filings
    Appellate filings hit an all-time high of 68,313 in 2006 and are 
expected to decline to 67,000 filings in 2007. The recent growth in the 
appellate docket has been due to more Board of Immigration Appeals 
(BIA) decisions from the Department of Justice (DOJ) being challenged 
in the appellate courts, particularly in the Second and Ninth Circuits. 
In fiscal year 2006, 33 percent (11,911) of all BIA decisions were 
appealed to the Federal courts, up from 6 percent (1,757) in fiscal 
year 2001. These BIA appeals often turn on a credibility determination 
by a DOJ immigration judge thus requiring close judicial review of a 
factual record by the appellate courts.
    Along with the increase in BIA appeals, the courts have seen 
significant increases in criminal appeals resulting from the Supreme 
Court rulings in United States v. Booker and United States v. Fanfan in 
which the Court held judge-found sentencing factors unconstitutional in 
a mandatory sentencing scheme and made Federal sentencing guidelines 
advisory. Criminal appeals are currently 29 percent higher than they 
were prior to the decisions in those cases. The Supreme Court will 
decide two cases this term related to the appellate review of post-
Booker sentences which may also impact the number of criminal appeals.
Civil Filings
    Civil filings in the courts generally follow a more up and down 
filing pattern. In 2005 civil filings reached a record 282,758 filings 
followed by 244,343 filings in 2006 and 241,300 filings projected for 
2007. The record filings in 2005 were largely due to the Homegold/
Carolina Investors fraud case in North Carolina and a spike in personal 
injury liability lawsuits.
Criminal Filings
    Criminal filings for 2007 are projected to total 67,200, down 
slightly from the 2006 level, but still within 5 percent of the all-
time high set in 2004 of 71,098 filings. We understand that criminal 
filings may be depressed due to significant vacancies in Assistant U.S. 
Attorney positions nationwide. As these vacancies are filled, we expect 
criminal filings to increase again.
    Although overall criminal caseload in the Federal courts has begun 
to level off, caseload in the five district courts along the southwest 
border with Mexico has soared since 2001 as a result of border and law 
enforcement initiatives undertaken by the Department of Homeland 
Security and Department of Justice. Those five districts out of a total 
94 judicial districts account for nearly one-third of all criminal 
cases nationwide. Particularly hard hit is the District of New Mexico 
where criminal filings have nearly doubled since 2001 (up 92 percent) 
and the Southern District of Texas where filings are up 40 percent.
Bankruptcy Filings
    The sharp decline in bankruptcy filings projected for 2007 clearly 
reflects the impact of the Bankruptcy Abuse Prevention and Consumer 
Protection Act of 2005 (BAPCPA) that went into effect October 17, 2005. 
The Administrative Office projects bankruptcy filings will decline by 
more than 500,000 filings from 2006 to 2007. Although filings have 
started to rebound, no consensus exists among bankruptcy experts as to 
when, or if, filings will return to pre-BAPCPA levels. Of course, the 
root causes of bankruptcy job loss, business failure, medical bills, 
credit problems, and divorce were not affected by the legislation and 
are expected to continue to be the primary drivers of filings. The 
number of filings alone, however, should not be viewed as the sole 
indicator of overall workload. BAPCPA created new docketing, noticing, 
and hearing requirements that make addressing the petitions more 
complex and time-consuming. Preliminary information from 10 courts now 
being studied suggests that the actual per-case work required by the 
bankruptcy courts has increased significantly under the new law, at 
least partially offsetting the impact on the bankruptcy courts of lower 
filings.
            caseload and staffing: a historical perspective
    It is useful to examine Judiciary workload and staffing from a 
historical perspective. The chart below details Judiciary staffing and 
aggregate caseload for fiscal year 1984 through fiscal year 2006. 
Aggregate caseload is a composite of criminal, bankruptcy, appellate, 
and civil case filings as well as our probation and pretrial services 
programs. This chart illustrates several things. First, it shows the 
steady growth in the courts' caseload over the last 20 years. The chart 
also shows the cyclical nature of the courts' caseload when viewed in 
the aggregate: caseload peaks, declines slightly, then tends to peak 
again. Lastly, it shows that staffing resources have lagged well behind 
the increase in caseload for the last decade.
    From fiscal year 1984 to fiscal year 2006, the courts' aggregate 
caseload increased by 195 percent while total court staffing which 
includes judges, chambers staff, and staff in our clerks and probation 
and pretrial services offices increased by only 92 percent. Staffing 
levels generally kept pace with caseload growth through the mid-1990's. 
But over the last decade caseload began to outpace court staffing 
levels and, to date, the courts have not had the resources needed to 
catch up. And the gap has widened in recent years. Between fiscal years 
2001 and 2006 the courts' aggregate caseload increased by 23 percent 
while staffing resources increased by only 1 percent.
    What has been the impact of this resource gap? The Judiciary has 
sought to narrow the gap through the implementation of automation and 
technology initiatives, improved business practices, and cost-
containment efforts, but we have not been able to close it entirely. 
Our statistics indicate that the courts are struggling to meet workload 
demands. Pending cases carried over from 1 year to the next indicate a 
lack of judge and court staff resources. From fiscal year 1996 to 2006, 
the number of criminal cases pending per filing increased 55 percent, 
appeals cases pending per filing increased 13 percent, bankruptcy cases 
pending per filing increased 13 percent, and civil cases pending per 
filing increased 4 percent. If courts do not have the judges and staff 
needed to address workload adequately, civil cases are delayed as the 
district courts must focus on the criminal docket to meet provisions of 
the Speedy Trial Act, clerks offices must reduce office hours for the 
public in order to focus on case management activities, and probation 
officers have to reduce supervision for some offenders in order to 
focus on the more dangerous supervision cases. These are just a few 
examples.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Judiciary uses regularly updated staffing formulas for 
determining the number of staff required in clerks and probation and 
pretrial services offices. Each formula incorporates multiple workload 
factors, but case filings are a primary determinant of the courts' 
staffing needs. Based on these staffing formulas, to be fully staffed 
we would need an additional 2,000 people in fiscal year 2008 above 
current on-board levels to address the courts' workload needs. Of 
course I am not suggesting that Congress provide the Judiciary with 
funding for such a dramatic increase in staff. But I am making the 
point that the courts are currently understaffed. With the resources 
Congress provided the Judiciary in fiscal year 2007, the courts are in 
a position to fill more than 200 new positions to address our most 
critical workload needs, particularly for immigration-related workload 
in the district and appellate courts. Because fiscal year 2007 funds 
were not made available to the courts until halfway into the fiscal 
year, all of these new staff may not be on-board until 2008. For this 
reason, and as a cost containment measure, our revised budget estimates 
for fiscal year 2008 no longer include funding for new positions in 
clerks and probation/pretrial offices. It is therefore critical that 
the courts be funded at a current services level in fiscal year 2008 in 
order to sustain the staffing gains funded in fiscal year 2007. The 
fact that the courts' caseload has stabilized after a decade of steady 
growth affords us the opportunity to begin closing the gap between our 
staffing levels and our workload. The funding provided in 2007 will 
enable the courts to begin to do so.

                       FEDERAL PROTECTIVE SERVICE

    An issue of increasing concern to the Judiciary is the expense and 
quality of security provided the courts by the Federal Protective 
Service (FPS). FPS provides, on a reimbursable basis, exterior 
perimeter security for Federal agencies. FPS security charges are of 
two types: the mandatory ``basic'' security charge which is a fee 
assessed to each tenant agency based solely on the space occupied; and 
a ``building-specific'' security charge that is assessed against each 
tenant agency to pay for the acquisition, maintenance and repair of 
security equipment provided by FPS. Examples of building-specific 
security include the posting of FPS contract security guards at a 
facility and perimeter cameras that view the exterior areas of federal 
buildings. Both the basic and building specific charges are paid to FPS 
out of our Court Security appropriation. The Judiciary does not have 
control over the increases charged by FPS for the mandatory basic 
security charge. According to an FPS estimate, the Judiciary will incur 
a $4 million increase for basic security charges in fiscal year 2008 
because FPS is increasing the rate by approximately 46 percent, from 39 
cents to 57 cents per square foot.
    We have received reports from several courts that perimeter 
security equipment provided by FPS has not been maintained or repaired, 
thus compromising security in those courthouses. A district judge, who 
is the chair of the court security committee at a major metropolitan 
courthouse, wrote Director Duff last month detailing his concerns 
regarding perimeter security deficiencies at his courthouse. He wrote 
of inoperative FPS-provided exterior cameras and the absence of cameras 
at key locations resulting in ``dead zones'' with no camera 
surveillance. Another district court reported that after pellets were 
fired at the courthouse one night, the court learned there was no 
surveillance footage to review because FPS cameras were not recording 
any exterior views.
    These and similar situations nationwide during fiscal year 2006 
resulted in a number of courthouses with serious security 
vulnerabilities. In order to help ensure that the courts have adequate 
security, the United States Marshals Service (USMS) assumed 
responsibility for repairing or replacing FPS-provided perimeter 
cameras at a number of courthouses where it was apparent that FPS was 
not able to do so. This resulted in the Judiciary's paying for the same 
services twice: once to FPS in the building-specific security charge 
and also to the USMS in the funding we transfer to it for systems and 
equipment for interior and perimeter courthouse security.
    FPS continues to be unable to provide the Judiciary with adequate 
cost-effective services, working equipment, detailed billings records, 
and timely cost projections. FPS has chronic financial management and 
billing problems evidenced by the $60 million funding shortfall it 
reported in November 2006 and which recent reports indicate has since 
grown to $80 million. In response to these shortcomings, the USMS has 
initiated a nationwide survey to assess the status of perimeter 
security at court facilities. The Judiciary greatly appreciates its 
proactive efforts in this area. Because of on-going FPS performance 
issues, the Judicial Conference last week endorsed a recommendation to 
support the efforts of the USMS, through legislative means if 
necessary, to assume security functions currently performed by FPS at 
court facilities (where the Judiciary is the primary tenant) and to 
receive the associated funding. The USMS has the expertise and provides 
excellent service with low administrative expenses. It takes 
responsibility for its work. FPS on the other hand has chronic funding 
problems that hamper its ability to maintain its security equipment 
adequately.
    Ensuring the safety of judges, court employees, attorneys, jurors, 
defendants, litigants, and the public in court facilities is of 
paramount importance to the Judiciary. For this reason, we support 
expansion of the USMS's current mission to include the perimeter 
security of court facilities nationwide. We look forward to working 
with the subcommittee on this very important issue.

                    FISCAL YEAR 2008 BUDGET REQUEST

    As I mentioned earlier in my testimony, we constructed our fiscal 
year 2008 budget request based on actions in the 109th Congress on 
fiscal year 2007 appropriations bills. Specifically, we assumed for 
each Judiciary account that Congress would provide the midpoint of the 
House-passed and Senate-reported appropriations bills from the 109th 
Congress, less 1 percent for a possible across-the-board rescission. 
The final enacted fiscal year 2007 appropriations level is $44 million 
below the fiscal year 2007 funding assumption we used to construct the 
fiscal year 2008 request. Over the last several weeks, Administrative 
Office staff have been working with the various Judicial Branch 
entities to update fiscal year 2008 funding requirements for each 
account based on enacted fiscal year 2007 appropriations as well as 
other financing adjustments and changes in requirements that have 
occurred since our 2008 budget was finalized. Our preliminary analysis 
indicates that the Judiciary's fiscal year 2008 appropriations 
requirements have declined by $80 million from the request level of 
$6.51 billion, resulting in a revised appropriation requirement of 
$6.43 billion. A summary table detailing the original and revised 
fiscal year 2008 appropriations request for each Judiciary account is 
included at Appendix A. The appropriations increase the Judiciary is 
seeking for fiscal year 2008, which I will describe briefly, is 
reflective of these revised requirements. As I mentioned earlier, we 
will provide a complete budget re-estimate package to the subcommittee 
in May.
    As a result of our recent update of requirements, the Judiciary is 
requesting a 7.6 percent overall increase above fiscal year 2007 
enacted appropriations. The courts' Salaries and Expenses account 
requires a 6.7 percent increase for fiscal year 2008. We believe this 
level of funding represents the minimum amount required to meet our 
constitutional and statutory responsibilities. While this may appear 
high in relation to the overall budget request submitted by the 
administration, I would note that the Judiciary does not have the 
flexibility to eliminate or cut programs to achieve budget savings as 
the Executive Branch does. The Judiciary's funding requirements 
essentially reflect basic operating costs which are predominantly for 
personnel and space requirements. Eighty-six percent ($390 million) of 
the $452 million increase being requested for fiscal year 2008 funds 
the following base adjustments, which represent items for which little 
to no flexibility exists:
  --Standard pay and benefit increases for judges and staff. This does 
        not pay for any new judges or staff but rather covers the 
        annual pay adjustment and benefit increases (e.g. COLAs, health 
        benefits, etc.) for currently funded Judiciary employees. The 
        amount budgeted for the cost-of-living adjustment is 3.0 
        percent for 2008.
  --An increase in the number of on-board active and senior Article III 
        judges and the annualization of new magistrate judge positions.
  --The projected loss in non-appropriated sources of funding. In 
        addition to appropriations, the Judiciary collects fees that 
        can be used to offset appropriation needs. Fee collections not 
        utilized during the year may be carried over to the next fiscal 
        year to offset appropriations requirements. We will keep the 
        subcommittee apprised of changes to fee or carryforward 
        projections as we move through fiscal year 2007.
  --Space rental increases, including inflationary adjustments and new 
        space delivery, court security costs associated with new space, 
        and an increase for Federal Protective Service charges for 
        court facilities.
  --Adjustments required to support, maintain, and continue the 
        development of the Judiciary's information technology program, 
        which has allowed the courts to ``do more with less'' absorbing 
        workload increases while downsizing staff. Mandatory increases 
        in contributions to the Judiciary trust funds that finance 
        benefit payments to retired bankruptcy, magistrate, and Court 
        of Federal Claims judges, and spouses and dependent children of 
        deceased judicial officers. Inflationary increases for non-
        salary operating costs such as supplies, travel, and contracts.
  --Costs associated with Criminal Justice Act (CJA) representations. 
        The Sixth Amendment to the Constitution guarantees that all 
        criminal defendants have the right to the effective assistance 
        of counsel. The CJA provides that the Federal courts shall 
        appoint counsel for those persons who are financially unable to 
        pay for their defense. The number of CJA representations is 
        expected to increase by 8,200 in fiscal year 2008, as the 
        number of defendants for whom appointed counsel is required 
        increases.
    After funding these adjustments to base, the remaining $62 million 
requested is for program enhancements. Of this amount:
  --$22 million to increase the non-capital panel attorney rate from 
        $96 to $113 per hour. I will discuss this requested increase in 
        more detail in a moment. $11 million would provide for critical 
        security-related requirements.
  --$10 million will provide for investments in new information 
        technology projects and upgrades, and courtroom technology 
        improvements.
  --$11 million will provide for unfunded fiscal year 2007 recurring 
        court operating expenses that were not funded in fiscal year 
        2007 but are necessary requirements in fiscal year 2008.
  --Of the remaining $8 million, $1 million would provide for two 
        additional magistrate judges and associated staff; $1 million 
        will pay for the Supreme Court's exterior landscape renovation 
        project; $2 million is needed for staffing increases for the 
        Supreme Court (+7 FTE), Federal Circuit (+6 FTE), and the 
        Federal Judicial Center (+7 FTE). The remaining $4 million is 
        for smaller requirements in other Judiciary accounts.
              increase in non-capital panel attorney rate
    We believe that one program enhancement in our budget request 
deserves strong consideration in order to ensure effective 
representation for criminal defendants who cannot afford to retain 
their own counsel. We are requesting $22 million to increase the non-
capital panel attorney rate to $113 per hour effective January 2008. A 
panel attorney is a private attorney who serves on a panel of attorneys 
maintained by the district or appellate court and is assigned by the 
court to represent financially-eligible defendants in Federal court. 
These attorneys are currently compensated at an hourly rate of $92 for 
non-capital cases and up to $163 for capital cases. The hourly non-
capital rate will increase to $94 per hour effective April 1, 2007 as a 
result of the $2 per hour cost-of-living adjustment you provided in 
fiscal year 2007. We are very grateful for this modest rate adjustment. 
The Judiciary requests annual cost-of-living adjustments for panel 
attorneys similar to the annual adjustments provided to federal 
employees for two reasons. First, cost-of-living adjustments allow the 
compensation paid to panel attorneys to keep pace with inflation to 
maintain purchasing power and, in turn, enable the courts to attract 
and retain qualified attorneys to serve on their CJA panels. Second, 
regular annual adjustments eliminate the need to request large ``catch-
up'' increases in order to account for several years with no rate 
adjustments. The subcommittee recognized the importance of annual cost-
of-living adjustments by providing one to panel attorneys in fiscal 
year 2007. I would note that the previous subcommittee provided a cost-
of-living adjustment in fiscal year 2006.
    Our request to increase the non-capital hourly rate to $113 amounts 
to a partial catch-up increase. The non-capital rate was increased to 
$90 in May 2002 but no adjustments were made to that rate until January 
2006, when it was raised to $92, and which will increase to $94 in a 
few weeks, on April 1, as I just mentioned. In comparison, since May 
2002, the Department of Justice has been paying $200 per hour to retain 
private attorneys with at least 5 years of experience to represent 
current or former federal employees in civil, congressional, or 
criminal proceedings. The Judiciary requested a panel attorney rate of 
$113 per hour in fiscal years 2002, 2003, and 2004. In report language 
accompanying the fiscal year 2004 appropriations bill, the subcommittee 
with jurisdiction over our funding at the time said the Judiciary was 
not presenting a strong case for the $113 rate and suggested we survey 
the courts and gather data to make a more compelling case. Thus, we did 
not request the $113 rate in fiscal years 2005 and 2006 while the 
Administrative Office conducted surveys of judges and panel attorneys 
and analyzed the responses.
    In a 2004 survey of Federal judges, over half of them indicated 
that their courts were currently experiencing difficulty identifying 
enough qualified and experienced panel attorneys to accept appointments 
in non-capital cases. In the first statistically valid, nationwide 
survey of individual CJA panel attorneys conducted in March 2005, a 
significant percentage (38 percent) of the over 600 attorneys surveyed 
reported that since the hourly compensation rate had increased to $90 
per hour in May 2002, they had nevertheless declined to accept a non-
capital CJA appointment. Strikingly, after covering overhead costs for 
the predominantly solo and small-firm lawyers who take CJA cases, their 
net pre-tax income for non-capital CJA representations amounted to only 
about $26 per compensated hour. A large proportion (70 percent) of the 
CJA attorneys surveyed in March 2005 reported that an increase to the 
$90 hourly rate is needed for them to accept more non-capital cases.\2\
---------------------------------------------------------------------------
    \2\ Although rates have been raised to $92 per hour since the 
survey was taken, this $2 per hour increase would not have materially 
affected the survey responses.
---------------------------------------------------------------------------
    The requested increase to $113 per hour reflects the minimum amount 
the Judicial Conference believes is needed to attract qualified panel 
attorneys to provide the legal representation guaranteed by the Sixth 
Amendment. Indeed, $113 is the level that the Judiciary was seeking in 
2002 when Congress increased the rate to $90. Recognizing fiscal 
realities, the $113 rate request is well below the $133 rate authorized 
by the CJA. I urge you to give this rate increase strong consideration.

               CONTRIBUTIONS OF THE ADMINISTRATIVE OFFICE

    Year in and year out, the Administrative Office (AO) of the United 
States Courts serves and provides critical support to the courts. The 
more the courts have to do, and the fewer resources with which they 
have to do it, the more challenging the job of the AO becomes. With 
only a fraction (1.6 percent) of the resources that the courts have, 
the AO does a superb job of supporting our needs.
    The AO has key responsibilities for Judicial administration, policy 
implementation, program management, and oversight. It performs 
important administrative functions, but also provides a broad range of 
legal, financial, program management, and information technology 
services to the courts. None of these responsibilities has gone away 
and new ones are continually added, yet the AO staffing level has been 
essentially frozen for 10 years.
    The AO played a central role in assisting the courts to implement 
the bankruptcy reform legislation, as well as in helping those courts 
affected by Hurricanes Katrina and Rita and the myriad of space, 
travel, technology, and personnel issues that had to be addressed.
    In my role as Chair of the Judicial Conference Committee on the 
Budget, I have the opportunity to work with many staff throughout the 
AO. They are dedicated, hard working, and care deeply about their role 
in supporting this country's system of justice.
    The fiscal year 2008 budget request for the Administrative Office 
is $78.5 million, representing an increase of $6.2 million. All of the 
requested increase is necessary to support adjustments to base, mainly 
standard pay and general inflationary increases, as well as funding to 
replace the anticipated lower level of fee revenue and carryover 
amounts with appropriated funds in fiscal year 2008.
    I urge the subcommittee to fund fully the Administrative Office's 
budget request. The increase in funding will ensure that the 
Administrative Office continues to provide program leadership and 
administrative support to the courts, and lead the efforts for them to 
operate more efficiently. Director Duff discusses the AO's role and 
budget request in more detail in his testimony.

              CONTRIBUTIONS OF THE FEDERAL JUDICIAL CENTER

    I also urge the subcommittee to approve full funding for the 
Federal Judicial Center's request of $24.5 million for fiscal year 
2008.
    The Center's director, Judge Barbara Rothstein, has laid out in 
greater detail the Center's needs in her written statement. I simply 
add that the Center plays a vital role in providing research and 
education to the courts. The Judicial Conference and its committees 
request and regularly rely on research projects by the Center. These 
provide solid empirical information on which judges, the Judiciary, and 
Congress and the public, depend on in reaching important decisions 
relating to litigation and court operations. Likewise, the Center's 
educational programs for judges and court staff are vital in preparing 
new judges and court employees to do their jobs and in keeping them 
current so that they can better deal with changes in the law, and in 
tools like technology that courts rely on to do their work efficiently.
    The Center has made good use of its limited budget. It has made 
effective use of emerging technologies to deliver information and 
education to more people more quickly. The relatively small investment 
you make in the Center each year (less than one-half of one percent of 
the Judiciary's budget) pays big dividends in terms of the effective, 
efficient fulfillment of the courts' mission.

                               CONCLUSION

    Mr. Chairman, I hope that my testimony today provides you with a 
better appreciation of the challenges facing the Federal courts. I 
realize that fiscal year 2008 is going to be another tight budget year 
as increased mandatory and security-related spending will result in 
further constrained domestic discretionary spending. The budget request 
before you recognizes the fiscal constraints you are facing. Through 
our cost-containment efforts we have significantly reduced the 
Judiciary's appropriations requirements without adversely impacting the 
administration of justice. I know that you agree that a strong, 
independent Judiciary is critical to our Nation. I urge you to fund 
this request fully in order to enable us to maintain the high standards 
of the United States Judiciary. A funding shortfall for the Federal 
courts could result in a significant loss of existing staff, dramatic 
cutbacks in the levels of services provided, and a diminution in the 
administration of justice.
    Thank you for your continued support of the Federal Judiciary. I 
would be happy to answer any questions the subcommittee may have.

                                                      APPENDIX A.--JUDICIARY APPROPRIATION FUNDING
                                                                 [Dollars in thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                      Fiscal Year 2007                                           Fiscal Year 2008
                                    --------------------------------------------------------------------------------------------------------------------
                                                                                                                                              Percent
                                                         Enacted Level                                   Revised Budget  Change: Revised  Change: Fiscal
       Appropriation Account              Assumed         Public Law    Change: Enacted    President's      Estimates     Estimates vs.      Year 2008
                                     Appropriation \1\     110-5 \2\      vs. Assumed     Budget (Feb.     (March 21,       President       Revised vs.
                                      (Oct. 15, 2006)      (Feb. 15,                        5, 2007)          2007)           Budget        Fiscal Year
                                                             2007)                                                                         2007 Enacted
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Supreme Court:
    Salaries and Expenses..........           $62,792          $62,576           ($216)         $66,526         $66,526  ...............            $6.3
    Care of Building and Grounds...            12,829           11,427          (1,402)          12,201          12,201  ...............             6.8
                                    --------------------------------------------------------------------------------------------------------------------
      Total........................            75,621           74,003          (1,618)          78,727          78,727  ...............             6.4
                                    ====================================================================================================================
U. S. Court of Appeals for the                 25,407           25,311             (96)          28,538          28,442            ($96)            12.4
 Federal Circuit...................
U.S. Court of International Trade..            16,037           15,825            (212)          16,727          16,632             (95)             5.1
                                    ====================================================================================================================
Courts of Appeals, District Courts
 and Other Judicial Services:
    Salaries and Expenses:
        Direct.....................         4,527,194        4,476,550         (50,644)       4,854,455       4,774,757         (79,698)             6.7
        Vaccine Injury Trust Fund..             3,971            3,971  ...............           4,099           4,099  ...............             3.2
                                    --------------------------------------------------------------------------------------------------------------------
          Total....................         4,531,165        4,480,521         (50,644)       4,858,554       4,778,856         (79,698)             6.7
                                    ====================================================================================================================
Defender Services..................           747,987          776,283          28,296          859,834         859,834  ...............            10.8
Fees of Jurors and Commissioners...            62,448           60,945          (1,503)          62,350          63,081             731              3.5
Court Security.....................           395,045          378,663         (16,382)         421,789         421,789  ...............            11.4
                                    --------------------------------------------------------------------------------------------------------------------
    Subtotal.......................         5,736,645        5,696,412         (40,233)       6,202,527       6,123,560         (78,967)             7.5
                                    --------------------------------------------------------------------------------------------------------------------
Administrative Office of the U.S.              73,326           72,377            (949)          78,536               7           8,536             08.5
 Courts............................
Federal Judicial Center............            23,211           22,874            (337)          24,835          24,475            (360)             7.0
Judiciary Retirement Funds.........            58,300           58,300  ...............          65,400          65,400  ...............            12.2
U.S. Sentencing Commission.........            15,266           14,601            (665)          16,191          15,477            (714)             6.0
                                    ====================================================================================================================
Direct.............................         6,019,842        5,975,732         (44,110)       6,507,382       6,427,150         (80,232)  ..............
Vaccine Injury Trust Fund..........             3,971            3,971  ...............           4,099           4,099  ...............  ..............
                                    --------------------------------------------------------------------------------------------------------------------
    Total..........................         6,023,813        5,979,703         (44,110)       6,511,481       6,431,249         (80,232)            7.6
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Reflects the assumed fiscal year 2007 appropriation level that was used in developing the fiscal year 2008 President's Budget. It was based on the
  House/Senate midpoint less 1 percent for an assumed across-the-board rescission.
\2\ The bottom line total is consistent with the fiscal year 2007 amount appropriated to the Judiciary in H.J. Res. 20 (Public Law 110-5).

                                 ______
                                 
Prepared Statement of Paul R. Michel, Chief Judge, United States Court 
                   of Appeals for the Federal Circuit

    Mr. Chairman, thank you for allowing me to submit my statement 
supporting the United States Court of Appeals for the Federal Circuit's 
fiscal year 2008 budget request.
    Our request totals $28,442,000, an increase of $3,131,000 (12 
percent) over the fiscal year 2007 appropriation of $25,311,000.
    Fifty-six percent of that increase, $1,761,000, is for 
congressionally- and contractually-mandated adjustments to base (such 
as COLAs and escalation in rent and contracts), as well as one 
adjustment to the base appropriation for lease of judges' workspace.
    This lease increase, a request for $496,000, will allow us to 
provide the work space necessary for four judges (and their staff) now 
eligible to take senior status and an additional three judges who 
become eligible to take senior status in fiscal year 2009. Even now our 
courthouse simply does not have space for the judge who took senior 
status during the past year, much less offer chambers to seven other 
judges eligible to take senior status in this fiscal year and the next.
    The retention of judges through senior status is what has allowed 
this court to remain current. Since this court's inception in 1982, the 
number of active judges on our court has remained the same, even though 
our caseload has nearly doubled and the technology of our patent 
caseload has become increasingly complex. Clearly, the provision of 
adequate work space for judges willing to take senior status (as 
opposed to leaving the court through retirement) is critical to our 
being able to retain these highly valuable contributors to our court's 
output. If adequate work space cannot be provided, it is likely that 
some judges may simply retire, or remain active resulting in a very 
significant loss of judicial capacity.
    Funding for off-site leased space was not provided in our fiscal 
year 2007 appropriation even though requested. Nevertheless the 
Administrative Office of the United States Courts (AO) has authorized 
GSA to seek suitable off-site space and negotiate a lease for senior 
judges, in accordance with Judicial Conference policy. The search is 
on-going. We are told, and know from past experience, that securing a 
lease and preparing chambers will take 6 to 12 months, making it 
necessary for us to have the funding available in fiscal year 2008.
    Forty-four percent, $1,370,000, of the requested increase over the 
fiscal year 2007 approved appropriation is to fund programmatic 
increases for: (1) additional law clerk positions; (2) upgrades to six 
of the court's automated systems; and (3) two-way video and audio 
transmission capability between the court and remote sites around the 
country.
    Additional Law Clerk.--$732,000 of the amount requested covers the 
cost of hiring an additional law clerk for each of the court's active 
judges for 6 months of fiscal year 2008. The increased workload now 
requires funding a fourth law clerk. The court presently has funding 
for only three law clerks for each judge and one secretary. This added 
funding would provide a fourth law clerk or assistant for each active 
judge. Indeed, Article III judges serving in the other 12 circuits of 
the Federal Judiciary have had funding for a fourth law clerk for 
years.
    The Federal Circuit did not previously need parity, but I now ask 
for this funding for new positions because they are necessary in order 
to keep up with the sharp increase in the number of appeals filed. 
After years of steady increases in filings, case filings in fiscal year 
2006 alone increased by 14 percent from fiscal year 2005. In addition, 
we face a sharp rise in the complexity of cases, many involving 
advanced and emerging technologies of great economic importance for 
American businesses.
    Upgrade to Automated Systems.--$388,000 of the amount requested 
under program increases is necessary to provide new and improved 
electronic information technology services to the court, namely (a) 
improved automated case tracking and management; (b) automated e-filing 
of briefs by attorneys; (c) e-voting and commenting by judges; (d) 
automated conflict screening; (e) improved public Web site with posting 
of all briefs and opinions; and (f) off-site continuity of operations 
set-up, configuration and support for a back-up computer system at the 
administrative office site in Missouri.
    The court is developing an improved electronic case tracking 
system, as well as electronic filing, voting, and conflict screening 
systems. All of these systems are recommended or required by the 
Judicial Conference. Their development requires hiring contractors, 
purchasing new equipment, and training court information technology 
staff. These new systems provide better, more accessible, and faster 
services for litigating lawyers, judges and judges' staffs, as well as 
making available to judges and court staff a more efficient method for 
tracking cases. The automated conflict screening system reduces the 
risk of judges inadvertently participating in cases despite a financial 
conflict, and thus assists in assuring compliance with ethics 
requirements. It also is required by Judicial Conference policy. The 
Web site is our primary contact system with attorneys, academics, and 
the interested public.
    Funding is included in this amount for off-site back-up computer 
equipment necessary to support the continuing operations of the court 
if a disaster disables our courthouse in Washington, D.C., which is 
located very near to the White House--a primary target for terrorists.
    Remote Video Conferencing.--The remaining $250,000 of the requested 
amount covers the cost to provide remote video conferencing in one of 
our three courtrooms, in accordance with Judicial Conference and 
administrative office policy on funding such capability. Recently, the 
Judiciary adopted information technology initiatives for reducing the 
reliance on paper, achieving economy in its business processes, and 
providing better service to citizens at locations around the country. 
These initiatives are especially critical to our court because with our 
nationwide jurisdiction, our lawyers and their clients are scattered 
all across the country. The request is based on recommendations from 
the Judicial Conference and the Administrative Office of the United 
States Courts to provide two-way video and audio transmission between 
courtrooms and remote sites. With this beneficial technology attorneys 
can present oral arguments from anywhere in the country and avoid the 
cost in time and money of traveling to Washington, D.C., and staying 
here overnight. In addition, the court and citizens benefit greatly 
from hearing oral arguments which might otherwise not be presented to 
the court.
    I would be pleased, Mr. Chairman, to answer any questions the 
committee may have or to meet with the committee members or staff about 
our budget request.
    Thank you.
                                 ______
                                 
Prepared Statement of Jane A. Restani, Chief Judge, United States Court 
                         of International Trade

    Mr. Chairman, members of the committee: I would like to again thank 
you for providing me the opportunity to submit this statement on behalf 
of the United States Court of International Trade, a court established 
under Article III of the Constitution with exclusive nationwide 
jurisdiction over civil actions pertaining to matters arising out of 
the administration and enforcement of the customs and international 
trade laws of the United States.
    The Court's fiscal year 2008 original budget request of $16,727,000 
represented an overall increase of $690,000 or 4.3 percent over the 
fiscal year 2007 assumed appropriation of $16,037,000. This assumed 
appropriation included an across the board cut of 1 percent. In 
February, the Court received an appropriation of $15,825,000. Based on 
this enacted appropriation, and after a detailed and careful review, 
the Court's fiscal year 2008 budget request has been reduced to 
$16,632,000. This represents an overall increase of 5.1 percent over 
the enacted fiscal year 2007 appropriation. Despite the reduction, we 
anticipate that this request will enable the Court to maintain current 
services and provide for mandatory increases in pay, benefits and other 
inflationary adjustments to base, including increases in costs paid to 
GSA for rent and to the Federal Protective Service for building basic 
and building-specific security surcharges. These security surcharges 
provide for the Court's pro-rata share of installing, operating and 
maintaining systems for the critical and necessary security of the 
Federal Complex in lower Manhattan.
    As it has done in the past, the Court continues to budget and 
expend funds in a conservative and cost effective manner, and will 
continue to do so to manage within the reduced request. Through the use 
of its annual appropriation and the Judiciary Information Technology 
Fund (JITF), the Court continues to promote and implement the 
objectives set forth in its long range plan for providing access to the 
Court through the effective and efficient delivery of information to 
litigants, bar, public, judges and staff. This access is of particular 
importance in realizing the Court's mission to resolve disputes by: 
Providing cost effective, courteous and timely service by those 
affected by the judicial process; providing independent, consistent, 
fair and impartial interpretation and application of the customs and 
international trade laws; and fostering improvements in customs and 
international trade law and practice and improvements in the 
administration of justice.
    The Court continues to make substantial progress in implementing 
its information technology and cyclical maintenance programs. In fiscal 
year 2006, the Court: Purchased a new server for a public access 
terminal that will allow access to the Court's customized version of 
the Federal Judiciary's Case Management/Electronic Case Files (CM/ECF) 
System; purchased an additional server for storing utility files and 
desktop images; purchased a high speed digital networked copier with 
scanning and faxing capabilities; cyclically upgraded laptops and 
purchased desktop computers, monitors and printers for a new judge; 
upgraded vital existing software applications, continued maintenance 
agreements for computer hardware and software applications; implemented 
the on-line system (pay.gov) for the payment of filing fees and the 
electronic application of CM/ECF for filing appeals and opening cases; 
upgraded to a new version of CM/ECF; and provided training in the new 
electronic case opening and filing of appeals applications to 
attorneys, staff and the public. Additionally, in fiscal year 2006, the 
Court continued its cyclical maintenance program by refurbishing 
chambers for a new judge, and offices for a new clerk of court, 
replacing aging furniture/chairs and upgrading public access corridors.
    In fiscal year 2007, the Court has planned to: Purchase new 
courtroom and conference room technology systems, including an upgraded 
video conferencing system; replace the Court's Internet server and the 
server for the Court's library on-line cataloguing and acquisition 
system; replace desktop computer systems, laptops and printers in 
accordance with the Judiciary's cyclical replacement program; upgrade 
and support existing software applications; purchase new software 
applications to ensure the continued operational efficiency of the 
Court; support Court equipment by the purchase of yearly maintenance 
agreements; and upgrade copier machines in chambers and clerks' 
offices. The Court also will expand its developmental and educational 
programs for staff in the areas of job-related skills and technology.
    In fiscal year 2008, the Court remains committed to using its 
carryforward balances in the Judiciary Information Technology Fund to 
continue its information technology initiatives and to support the 
Court's short-term and long-term information technology needs.
    Additionally, the Court will continue its commitment to its 
cyclical replacement and maintenance program for equipment and 
furniture and for the courthouse. This program not only ensures the 
integrity of equipment and furnishings, but maximizes the use and 
functionality of the internal space of the courthouse. Moreover, the 
fiscal year 2008 request includes funds for the support and maintenance 
of the security systems upgraded by the Court in fiscal years 1999 
through 2005, and the Court's COOP. Lastly, the Court will continue its 
efforts to address the educational needs of the bar and Court staff.
    As I have stated in previous years, the Court remains committed to 
maintaining its security systems to ensure the protection of those who 
work in and visit the courthouse. In July, 2005, GSA received Senate 
approval for fiscal year 2006 funding for the design and construction 
of a security pavilion for entry into the building. In fiscal year 
2006, the Court worked closely with GSA in the design and construction 
of this entrance pavilion. To that end, the Court, in fiscal year 2006, 
entered into a Reimburseable Work Authorization with GSA for a non-
prospectus security project for the purchase and installation of 
additional security equipment, including cameras and for the upgrade of 
the Court's security infrastructure. The design phase was completed in 
fiscal year 2006 and construction began in fiscal year 2007. The Court 
will continue in fiscal year 2008 to work in full partnership with GSA 
during the last phases of construction in order to ensure the total 
success of this project. GSA projects a completion date in fiscal year 
2008.
    I would like to again emphasize that the Court remains committed to 
an approach of conservatively managing its financial resources through 
sound fiscal, procurement and personnel practices. As a matter of 
internal operating principles, the Court routinely engages in cost 
containment strategies in keeping with the overall administrative 
policies and practices of the Judicial Conference, particularly 
regarding rent, security costs, equipment costs, technology, 
contractual obligations and personnel. I can assure you that this 
management approach with respect to the Court's financial affairs is 
on-going.
    Lastly, I would like to personally extend my deepest thanks and 
appreciation to Congress for recognizing the needs of the courts by 
providing, in fiscal year 2007, adequate funding to maintain current 
services so that the courts can remain committed to the administration 
of justice for all.
    The Court's ``General Statement and Information'' and 
``Justification of Changes,'' which provide more detailed descriptions 
of each line item adjustment, were submitted previously. If the 
committee requires any additional information, we will be pleased to 
submit it.
                                 ______
                                 
Prepared Statement of Barbara J. Rothstein, Director, Federal Judicial 
                                 Center

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee: My name is Barbara J. 
Rothstein. I have been a U.S. district judge since 1980 and Director of 
the Federal Judicial Center since September 2003. The Center is the 
Federal courts' agency whose statutory mandate is to provide continuing 
education of judges, education of court employees, and research and 
analysis of Federal judicial processes and procedures.
    I appreciate the opportunity to provide you this statement in 
support of our 2008 appropriations request. Because the Center, like 
the other judiciary accounts, is new to the subcommittee. I am taking 
this opportunity to provide a detailed description of our work.
    I must stress at the outset that while the Center continues to 
perform its basic statutory duties, the combination of budget 
shortfalls and the staff reductions which the shortfalls have 
necessitated is colliding with an increase in new requirements. In 
recent years we have been asked by the Judicial Conference to undertake 
several large research projects, most of which have been to enable the 
Conference to respond to proposals and inquiries from Congress. For 
example, in response to a congressional request that the Federal 
judiciary ``document how often courtrooms are actually in use,'' we are 
conducting a national study of how courtrooms are scheduled and 
actually used by Federal district and magistrate judges. In response to 
recent congressional proposals to streamline the processing of habeas 
corpus appeals of State capital convictions, the Center was asked by 
six committees of the Judicial Conference to conduct an extensive 
empirical study of all State prisoner capital habeas corpus petitions 
pending in the Federal courts. We are also in the midst of a multi-year 
study of the impact of the Class Action Fairness Act of 2005 (CAFA) on 
the resources of the Federal courts. The Center was asked to conduct 
this study by the Advisory Committee on Civil Rules as it considers 
whether rules changes may be needed in response to CAFA. In education, 
last year we were asked to provide enhanced training for judges and 
staff on new ethics-related guidance and on immigration cases in the 
circuit courts of appeals. Along with all of these tasks is the need to 
provide continuing education and study in connection with the changes 
brought about by the passage of a new bankruptcy statute.
    Our ability to meet specific requests like these and, at the same 
time, continue our regular education and research programs will be 
jeopardized without at least a small increase in our staff.

                              2008 REQUEST

    Our 2008 request is for $24,475,000, a 7 percent increase: 
$1,066,000 for standard adjustments to base to cover increases in 
compensation and benefits and inflationary increases in operating 
costs, and $535,000 for additional staff (7 FTE) to support the 
services the Center provides to the Judicial Branch.
    The Center's Board, which the Chief Justice chairs, considered our 
proposed request at its November 2006 meeting and approved it for 
submission to Congress. I am confident that you will find it 
responsible and well grounded.
    Our 2008 request seeks what is essentially a ``current services'' 
budget. The Center has been struggling with having received only one 
full current services increase since the early 1990s. Over these years, 
to compensate for appropriations that did not provide full adjustments 
to base, we reduced our staff 20 percent from 158 to 125. Even as our 
staff declined, the courts' need for our services has continued to 
grow. For this reason we are requesting funds to restore 10 (7 FTE) of 
the most critically needed of the 23 positions we have lost since 2003. 
Our budget submission provides greater detail on why these positions 
are needed and the services they will help provide.
    The Center is proud of its work to promote improved judicial 
administration in the courts of the United States, even as its 
resources have declined. To make the most of our limited resources, we 
have made great use of educational technologies that reduce the need 
for travel, and we have carried out rigorous cost controls, internal 
staff and operational adjustments and reallocations, and personnel 
cuts. We have reached the point where such measures are no longer 
viable without impacting the quality of the services we provide. I 
respectfully urge you to find a way to provide the Center with the 
modest 7 percent increase it needs in 2008 to continue to provide the 
educational and analytical services for which judges and their staffs 
look to the Center.

                   ABOUT THE FEDERAL JUDICIAL CENTER

    Below I highlight Center activities in 2006, focusing primarily on 
our education for Federal judges and the staffs of the courts and our 
research on court and case management. Much of this work involves 
coordination, cooperation, and consultation with committees of the 
Judicial Conference of the United States, with the Administrative 
Office, and with the U.S. Sentencing Commission.
    The Center provides orientation programs on substantive legal 
issues, ethics, and trial and case-management techniques to groups of 
newly appointed judges.
    The Center provides timely information and continuing instruction 
to help Federal judges and court staff comply with new legislation, 
Judicial Conference policies, and Supreme Court decisions. We also help 
courts apply effective leadership and management principles and engage 
in strategic planning for their near-term and future needs. Examples in 
this report include expanded ethics training for judges and staff, 
resources and programs on effective case management, an annual review 
of cases decided by the Supreme Court, programs for court units on 
strategic workforce planning, and a courtroom use study, conducted at 
the behest of the Judicial Conference in response to a congressional 
request that the Federal judiciary ``document how often courtrooms are 
actually in use.''

                         EDUCATION AND TRAINING

    More than 2,000 Federal judge participants, 10,000 court staff 
participants, 40 circuit mediators, and 1,100 Federal defenders and 
their staff attended Center educational programs in 2006. Those 
programs included orientation and continuing education programs 
delivered by a variety of methods. Programs for judges, circuit 
mediators, Federal defenders, and court unit executives are 
traditionally in-person presentations, affording interaction on court-
management and case-management issues, as well as on substantive and 
procedural matters. Court staff programs, designed for larger 
audiences, are typically not travel-based and include audio, video, and 
online conferences, as well as local training programs that are taught 
in the court units by Center-trained court staff or individuals with 
training experience using Center curriculum materials. We provided 
additional education through satellite broadcasts, streaming audio and 
video programs, web-based training programs, monographs and manuals, 
and videocassettes and audiocassettes. Advisory committees of court of 
appeals, district, magistrate, and bankruptcy judges, as well as court 
unit executives and staff, help in planning and producing Center 
education programs and publications.
    EDUCATION PROGRAMS AND MATERIALS FOR JUDGES AND FOR LEGAL STAFF

     SEMINARS AND WORKSHOPS FOR JUDGES, JANUARY 1-DECEMBER 31, 2006
------------------------------------------------------------------------
                                                Number of     Number of
                                                 Programs   Participants
------------------------------------------------------------------------
Orientations for newly appointed district                3            31
 judges......................................
Orientations for newly appointed bankruptcy              3            73
 judges......................................
Orientations for newly appointed magistrate              3            54
 judges......................................
Conference for chief district judges.........            1            94
Conference for chief bankruptcy judges.......            1            69
Workshops for district and circuit judges....            2            90
National workshops for district judges.......            3           377
National workshops for bankruptcy judges.....            2           262
National workshops for magistrate judges.....            2           368
National sentencing policy institute.........            1            72
Special-focus workshops......................           17           416
In-court seminars............................           15           199
                                              --------------------------
    TOTAL....................................           53         2,105
------------------------------------------------------------------------

    The Center also held six programs for 1,107 Federal defenders and 
staff and one program for 43 circuit mediators.
    Continuing education programs in 2006 included these national 
workshops:
  --Three for district judges on judicial ethics and the Code of 
        Conduct for U.S. Judges, recent developments in Federal 
        jurisdiction, a review of pertinent decisions from the 2005-
        2006 Supreme Court term, prosecution of terrorists in Federal 
        courts, 42 U.S.C.  1983 qualified immunity, management and 
        trial of patent cases, information technology for judges, 
        sentencing post-Booker, complex criminal case management, the 
        science of drug addiction, an update on the Federal Rules of 
        Evidence, and an update on employment discrimination law;
  --two for bankruptcy judges that discussed the Code of Conduct; model 
        rules and practice under the Bankruptcy Abuse Prevention and 
        Consumer Protection Act of 2005 (BAPCPA), judicial security, 
        issues involving U.S. trustees under the new BAPCPA, judicial 
        independence and accountability, recent developments in Chapter 
        7, 11, and 13 cases, U.S. Judicial Conference privacy policy, 
        the dynamics of small business Chapter 11, Chapter 15 issues;
  --two for magistrate judges on judicial ethics and the Code of 
        Conduct, electronic discovery, legal and management issues in 
        patent cases, media and the law, IT issues, cell site 
        information and electronic surveillance law, electronic filing, 
        privacy and protective orders, the science of drug addiction, 
        and updates on the Federal Rules of Evidence, habeas corpus 
        issues, Social Security law issues, and 42 U.S.C.  1983 case 
        law.
    Seminars for small groups of judges on particular topics covered 
case management, intellectual property, international law and 
litigation, employment law, emerging issues in neuroscience, law and 
terrorism, advanced mediation strategy, law and genetics, managing 
capital construction projects, environmental law, immigration law, law 
and society, and law and science. We conduct many of these programs in 
collaboration with law schools or other educational institutions, which 
helps us leverage our funds.
    Our conferences for chief district judges and chief bankruptcy 
judges focused on the roles and responsibilities of the chief judge in 
financial management and strategic resource planning, judicial 
security, the courtroom usage study, public attitudes towards the 
courts, and a program for new chief judges. We conducted both 
conferences in cooperation with the Administrative Office.
    Programs for defender personnel included a national seminar and an 
appellate writing workshop for Federal defenders, a seminar for Federal 
defender investigators and paralegals, and a law and technology 
workshop for Federal defender staff.
    The Federal Judicial Television Network (FJTN) is a satellite 
broadcast network that reaches over 300 court locations. In 2006, we 
produced:
  --Supreme Court: The Term in Review (2005-2006), which analyzed cases 
        likely to affect Federal court dockets;
  --Implementing the Bankruptcy Abuse Prevention and Consumer 
        Protection Act of 2005: Early Experience;
  --A New Mandate: Use of Conflicts Screening Software;
  --The Sentencing Guidelines Statement of Reasons Form (with the U.S. 
        Sentencing Commission);
  --reviews of key bankruptcy decisions in 2005 in the Fourth, Eighth, 
        and Ninth Circuits;
  --The Fundamentals of Criminal Pretrial Practice in the Federal 
        Courts; and
  --an orientation series for new law clerks, including a program on 
        the basics of employment discrimination law.
    Web-based resource pages are available to judges on a variety of 
topics, such as:
  --Managing habeas corpus review of capital convictions, including 
        case-law summaries, case-management procedures, and sample 
        case-management plans, orders, and forms (a similar resource 
        page on federal death penalty cases has been available for 
        several years);
  --electronic discovery and evidence, including materials from Center 
        workshops, relevant local rules and sample orders, and a 
        bibliography of case law and articles;
  --courtroom technology, including our manual on Effective Use of 
        Courtroom Technology, and our research on videoconferencing in 
        criminal proceedings and animation, simulations, and immersive 
        virtual environmental technology;
  --safeguarding personal information in electronic transcripts;
  --selected appellate decisions on sentencing post-Booker;
  --the Bankruptcy Abuse Prevention and Consumer Protection Act of 
        2005, with materials and streaming video and audio formats of 
        our television broadcasts and audio conferences on the act;
  --non-prisoner civil pro se litigation, a collection of information 
        from district courts regarding their practices with pro se 
        litigants; and
  --streaming videos of recent FJTN broadcasts.
    We also have a Web-based resource page of materials to help law 
clerks learn about their duties and the ethical responsibilities of 
their position. This includes a new e-learning tutorial.
    We released or had in production the following judicial and legal 
education publications in 2006: The Bail Reform Act of 1984, Third 
Edition; Copyright Law, Second Edition; The Elements of Case 
Management: A Pocket Guide for Judges, Second Edition; Managing 
Discovery of Electronic Information: A Pocket Guide for Judges; 
Mediation & Conference Programs in the Federal Courts of Appeals: A 
Sourcebook for Judges and Lawyers, Second Edition; Patent Law and 
Practice, Fifth Edition; Post-Booker Sentencing--Selected Issues from 
Appellate Case Law (online only); and The Use of Visiting Judges in the 
Federal District Courts: A Guide for Judges and Court Personnel 
(updated 2006)(on line only).

             EDUCATION PROGRAMS FOR JUDGES AND COURT STAFF

    In 2006 we offered several programs that judges and court staff 
attend together, including:
  --A policy institute for district judges, probation and pretrial 
        services officers, and prosecutors and defenders, held in 
        cooperation with the Judicial Conference's Criminal Law 
        Committee, the Sentencing Commission, and the Administrative 
        Office, which included discussions on sentencing policies with 
        representatives of the legislative, executive, and judicial 
        branches;
  --our Program for Consultations in Dispute Resolution, which provides 
        on-site assistance to courts that wish to begin or revise 
        alternative dispute resolution programs;
  --a 2-day executive team-building program for new chief judges and 
        their clerks of court in conjunction with the Center's national 
        conferences for chief district and bankruptcy judges;
  --four strategic planning workshops to help courts develop policy and 
        operational plans specific to their courts;
  --an executive leadership seminar for chief judges and their court 
        unit executives;
  --a workshop produced in collaboration with the Administrative Office 
        and the General Services Administration to help court teams 
        plan for capital construction projects; and
  --at the request of a circuit court, Using Technology to Serve the 
        Appellate Process, an in-court program developed with the 
        Administrative Office, for judges, court unit executives and 
        their staff, Federal defenders, and members of the bar.
 
           EDUCATION PROGRAMS AND MATERIALS FOR COURT STAFF

    The table below summarizes our programs for the staff of the 
courts.

EDUCATION AND TRAINING PROGRAMS FOR COURT STAFF, JANUARY 1-DECEMBERR 31,
                                  2006
------------------------------------------------------------------------
                                                Number of     Number of
                                                 Programs   Participants
------------------------------------------------------------------------
Seminars and Workshops (national and
 regional):
    Clerks of court, clerk's office                      7           893
     personnel, circuit executives,
     bankruptcy administrators, senior staff
     attorneys, court librarians.............
    Probation and pretrial services officers            11           508
     and personnel...........................
    Personnel in several categories \1\......           15           598
                                              --------------------------
        TOTAL................................           33         1,999
                                              ==========================
In-Court Programs (programs using curriculum
 packages, training guides, and computer-
 assisted instructional programs):
    Clerks of court, clerk's office                     76         1,876
     personnel, circuit executives,
     bankruptcy administrators, senior staff
     attorneys, court librarians.............
    Probation and pretrial services officers           100         2,967
     and personnel...........................
    Personnel in several categories..........           90         1,205
                                              --------------------------
        TOTAL................................          266         6,048
                                              ==========================
Technology-based Programs (videoconferences,
 audio conferences, online conferences, but
 not including FJTN broadcasts):
    Clerks of court, clerk's office                      6         1,881
     personnel, circuit executives,
     bankruptcy administrators, senior staff
     attorneys, court librarians.............
    Probation and pretrial services officers.            8           186
    Personnel in several categories..........            1            33
                                              --------------------------
        TOTAL................................           15         2,100
                                              --------------------------
        GRAND TOTAL..........................          314        10,147
------------------------------------------------------------------------
\1\ Includes team management workshops for judges and court unit
  executives.

    2006 programs for clerks of court and their staffs included:
  --A biennial National Conference for District Court Clerks and Chief 
        Deputy Clerks, which emphasized strategic planning, succession 
        planning, implementing new Judicial Conference policies, 
        management issues, and electronic case filing;
  --two management training workshops for supervisors and managers in 
        appellate, district, and bankruptcy courts--a program for those 
        new to the position discussed such topics as performance 
        management, while the program for those with 3 or more years of 
        experience examined staff development and leadership during a 
        crisis;
  --several programs with the Administrative Office on Case Management/
        Electronic Case Filing were facilitated with our staff: three 
        forums--one for district court staff and two for bankruptcy 
        court staff--as well as two web-audio conferences and two audio 
        conferences for bankruptcy courts; and
  --an online conference conducted over several months for jury 
        administrators on customer communications and a web-audio 
        conference on best practices.
    Conferences and workshops for probation and pretrial services 
offices included:
  --A biennial National Conference for Chief Probation and Pretrial 
        Services Officers on succession planning, management issues, 
        optimizing efficiency through technology, offender supervision 
        methods, and coping with limited budgets;
  --an executive team workshop for chief probation and pretrial 
        services officers and their chief deputies that helps leaders 
        analyze district operations and create a strategic plan;
  --five regional symposia for experienced supervising officers that 
        dealt with supervision skills, staff motivation, change 
        management and other topics; and
  --two in-person workshops for new supervising officers participating 
        in a 2-year supervisors development program that also comprises 
        completion of a 40-hour self-study course and attendance at 
        several web-audio conferences.
    New FJTN programs in 2006 for officers included Cyber Crime 
Investigation and Supervision and Substance Abuse: Methamphetamine, the 
fourteenth program in a series. The cyber crime program and a 
rebroadcast of our Financial Investigation series were supplemented 
with five web-audio conferences.
    The Center offers extensive leadership and management education 
through its Professional Education Institute (PEI). PEI includes 
courses, programs, web-based resources, and self-development tools to 
aid leaders and managers at all levels.
    The Center has a variety of curriculum packages that Center-trained 
court staff or staff with training experience use to conduct training 
in local courthouses. Recent packages for managers in all court units 
include Planning for Fiscal Management, Planning for Strategic 
Workforce Management, and Developing a Strategic Court Web Site. A new 
training guide, Mentoring in the Courts, was published electronically 
on the Center's intranet site.
    New FJTN programs for all court personnel included a program on 
challenges and possibilities facing the courts, an orientation video on 
the Center's Federal Court Leadership Program, and a program on 
mentoring relationships. Four editions of the Court to Court video 
magazine spotlighting innovative court practices aired in 2006.

                                RESEARCH

    The Center conducts empirical and evaluative research on Federal 
judicial administration and case management, mostly at the request of 
committees of the Judicial Conference. The results of most of our 
research are available in print, on our web sites, or in both formats. 
In 2006, we completed 10 major research projects and continued work on 
33 others. This research included:
  --Developing and implementing a research design and training 
        protocols for a major study of courtroom use in the district 
        courts as requested by a committee of the Judicial Conference 
        in response to a request from the chair of the Subcommittee on 
        Economic Development, Public Buildings and Emergency Management 
        of the House Committee on Transportation and Infrastructure. 
        This extensive study of how Federal courtrooms are scheduled 
        and actually used is scheduled to be completed in June 2008. 
        The study focuses on courtroom use in a random sample of 24 
        districts during two 3-month time periods in 2007. Three 
        additional districts are included in the study because they 
        face unusual circumstances involving their courtrooms;
  --producing a handbook to assist judges in managing class actions 
        under the Class Action Fairness Act of 2005 (CAFA). Managing 
        Class Action Litigation: A Pocket Guide for Judges concisely 
        describes the most important and relevant practices for 
        managing class action litigation as set out in the Center's 
        Manual for Complex Litigation, Fourth. The handbook is a 
        product of the Center's multi-year study of the impact of CAFA 
        on Federal judiciary resources as requested by the Advisory 
        Committee on Civil Rules;
  --examining a sample of class action activity, including appeals, 
        before and after CAFA went into effect, with the goal of 
        measuring its impact on various stages of litigation, including 
        remand, ruling on pretrial motions, ruling on class 
        certification, trial, settlement, and appeals;
  --conducting research and interviews with Federal judges who have 
        recently been assigned terrorism cases in order to develop 
        educational materials to for judges related to managing 
        terrorism cases;
  --assisting the Advisory Committee on Civil Rules as it considers a 
        number of possible amendments to the rules of civil procedure;
  --conducting a survey of a sample of district court judges and 
        attorneys involved with recently terminated patent cases to 
        identify the case management techniques that judges employed to 
        strengthen the claim construction process;
  --following up on research to our 2003 study of eleven courts' 
        experiences as pilots in providing remote public access to 
        electronic criminal case records. The follow-up research 
        included an assessment of remote public access to criminal, 
        civil, and bankruptcy electronic records in the district 
        courts. The research focused on related issues such as 
        redacting prohibited information in documents that are filed in 
        the federal courts;
  --examining a sample of over 700 capital habeas appeals of State 
        convictions in response to perceived delay and backlog issues 
        in the processing of these cases;
  --developing and publishing a pocket guide to help Federal judges 
        manage the discovery of electronically stored information: 
        Managing Discovery of Electronic Information: A Pocket Guide 
        for Judges;
  --conducting on-going research to support the Judicial Conference's 
        use of the recently developed statistical case weights for the 
        district courts to assess judgeship needs, including major 
        research to develop new statistical case weights for the 
        bankruptcy courts; and
  --supporting the Judicial Conduct and Disability Act Study Committee, 
        appointed by Chief Justice Rehnquist and chaired by Justice 
        Breyer, as it prepared its final report. Earlier work for the 
        committee included reviewing a stratified national sample of 
        complaints filed under 28 U.S.C.  351.
    We also responded to more than 50 informational requests for 
research-related assistance from the courts, Judicial Conference 
committees, State and Federal agencies, individuals from academic 
institutions and associations, and others.

                PROGRAMS FOR FOREIGN JUDICIAL OFFICIALS

    In 1992, the Center's implementing legislation was amended to 
include a mandate to support the U.S. Government's efforts with 
promoting the rule of law abroad by providing information about 
judicial administration and education to the courts of other countries 
and also to obtain information from foreign judiciaries that might 
assist U.S. judges manage transnational litigation. To that end, in 
2006, the Center conducted 43 briefings for more than 226 foreign 
judges, court officials, scholars, and students from over 68 different 
countries; hosted visiting foreign judicial fellows from Brazil and 
Russia, who studied case management, intellectual property and treaty 
law, and judicial independence; and provided technical assistance 
abroad, including conference presentations, in Argentina, Jordan, 
Kazakhstan, Kosovo, Russia, and Serbia.
    No funding for these projects came from the Center's appropriation; 
they were supported with funds from U.S. Government agencies and host 
countries (or organizations within them). The Center's two-person 
International Judicial Relations Office coordinates this activity. The 
Center also held a conference on international law and litigation for 
U.S. judges, in collaboration with the American Society of 
International Law.

                        FEDERAL JUDICIAL HISTORY

    Congress has told us to conduct, coordinate, and encourage programs 
related to the history of the Federal judicial branch. Our 3-person 
Federal judicial history office does so by making available the results 
of our own historical research, helping judges and the courts with 
court history projects, and encouraging research and education projects 
about the judiciary. We have completed six units in our project to 
develop web-based curriculum materials to help educators teach about 
the history of the Federal courts, and we have conducted summer 
institutes that bring together teachers, judges, and scholars to study 
judicial history. We continue to update and expand the widely used 
History of the Federal Judiciary website, including the Federal Judges 
Biographical Directory.

                              PUBLICATIONS

    Most Center publications are available in print and electronically. 
In addition to the judicial and legal education publications listed 
above, the Center also released the following research reports: The 
Impact of the Class Action Fairness Act of 2005: Second Interim Report 
to the Judicial Conference Advisory Committee on Civil Rules (on line 
only); Interim Progress Report on Class Action Fairness Act Study (on 
line only); Research on Appeals of Attorney-Fee and Merits Decisions 
(Fed. R. Civ. P. 58(c)(2)) As Presented to the Advisory Committee on 
Civil Rules in May 2006 (on line only); and Roundtable on the Use of 
Technology to Facilitate Appearances in Bankruptcy Proceedings.

                  FEDERAL JUDICIAL TELEVISION NETWORK

    The Center operates the Federal Judicial Television Network (FJTN), 
a satellite broadcast network with viewing sites in more than 300 
Federal court locations, making it the second largest nonmilitary 
television network in the Federal Government. It transmits Center 
educational programs as well as those of the Administrative Office and 
the U.S. Sentencing Commission. In 2006, the FJTN broadcast 98 
programs, including 8 live programs. The Center produced 62 of these 
programs, 4 of which were live. The online FJTN Bulletin is a bimonthly 
program guide with broadcast schedules, program descriptions, and other 
news about the network. The Center is also streaming videos to enable 
judges and court staff to easily access information on their computers.

                             MEDIA LIBRARY

    The Center's media library contains some 4,000 audio and video 
programs, including Center programs and almost 800 commercially 
produced video programs. In 2006, the media library loaned more than 
600 programs to Federal judges and judicial branch personnel and sent 
some 2,000 media programs directly to the courts for them to keep and 
use in local education and training programs.

                          INFORMATION SERVICES

    The Center serves as a national clearinghouse for information on 
Federal judicial administration. In 2006, Information Services Office 
staff answered hundreds of requests for information from judges and 
court staff, congressional staff, other government agencies, academics, 
researchers, the media, and the public.

                   FEDERAL JUDICIAL CENTER FOUNDATION

    Congress created the Foundation to receive gifts to support Center 
work in certain specialized areas. Its 7-person board is appointed by 
the Chief Justice, the President Pro Tempore of the Senate, and the 
Speaker of the House of Representatives. In 2006, Foundation funds 
helped support our project on alternative dispute resolution and 
programs for judges on advanced mediation strategy, environmental and 
natural resources law, emerging issues in neuroscience, law and 
science, and humanities and science.

                               CONCLUSION

    Again, I appreciate the opportunity to submit this statement and 
stand ready to answer any questions you may have.
                                 ______
                                 
     Prepared Statement of the United States Sentencing Commission

    Chairman Durbin, Ranking Member Brownback, members of the 
subcommittee, the United States Sentencing Commission thanks you for 
the opportunity to submit this statement in support of the Commission's 
appropriation request for fiscal year 2008.
    For the past 3 fiscal years, the Commission has detailed for its 
appropriators the significant impact the Supreme Court's decisions in 
Blakely v. Washington \1\ and United States v. Booker \2\ have had not 
only on the Commission but the entire criminal justice community. 
Despite changes in case law governing federal sentencing policy, the 
Commission has continued to fulfill its statutory mission as set forth 
in the Sentencing Reform Act of 1984. Full funding of its fiscal year 
2008 request will ensure that the Commission can continue to fulfill 
its statutory responsibilities.
---------------------------------------------------------------------------
    \1\ 542 U.S. 296 (2004).
    \2\ 543 U.S. 220 (2005).
---------------------------------------------------------------------------
                          resources requested
    The Commission is requesting $15,477,000 for fiscal year 2008, 
representing a 6 percent increase over allotted funding for fiscal year 
2007. The Commission recognizes that Congress sent a strong message in 
passing the fiscal year 2007 continuing funding resolution that 
agencies should use allotted resources carefully. The Commission 
accordingly has tailored its request for funding to reflect the 
Commission's intent to be fiscally conservative while maintaining the 
resources it needs to meet its statutory mission.

        JUSTIFICATION FOR THE COMMISSION'S APPROPRIATION REQUEST

    The statutory duties of the Commission include, but are not limited 
to: developing appropriate guideline penalties for new and existing 
crimes; collecting, analyzing, and reporting federal sentencing 
statistics and trends; conducting research on sentencing issues in its 
capacity as the clearinghouse of federal sentencing data; and providing 
training on sentencing issues to federal judges, probation officers, 
law clerks, staff attorneys, defense attorneys, prosecutors, and others 
in the criminal justice community.
    The Supreme Court's decisions in Blakely and Booker did not alter 
these core missions. In fact, the Supreme Court in Booker reaffirmed 
these statutory obligations by explaining that the Commission's post-
Booker mission remained ``writing guidelines, collecting information 
about district court sentencing decisions, undertaking research, and 
revising the guidelines accordingly.'' \3\ The Supreme Court explained 
further that the ``Commission will continue to collect and study 
appellate court decisionmaking. It will continue to modify its 
guidelines in light of what it learns, thereby encouraging what it 
finds to be better sentencing practices.'' \4\
---------------------------------------------------------------------------
    \3\ 543 U.S. at 264.
    \4\ 543 U.S. at 263.
---------------------------------------------------------------------------
    Over the past 3 fiscal years, the Commission has worked diligently 
to maximize resources overall and appreciates the funding and support 
it has received from Congress. The Commission, therefore, has tailored 
its fiscal year 2008 funding request to reflect its continued 
commitment to efficiently yet effectively meet its core mission.

        SENTENCING POLICY DEVELOPMENT AND GUIDELINE PROMULGATION

    The Commission promulgated a number of amendments to the guidelines 
in several substantive areas of criminal law, including immigration, 
steroids, terrorism, firearms, and intellectual property, that became 
effective in 2006. For the amendment cycle ending on May 1, 2007, the 
Commission also is considering a number of guideline amendments, 
including recommendations for penalty modifications for transportation, 
sex, terrorism, and drug offenses, and the fraudulent acquisition or 
unauthorized disclosure of phone records. These proposed amendments 
reflect the Commission's response to the USA Patriot Improvement and 
Reauthorization Act of 2005, the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users, the Adam Walsh Child 
Protection and Safety Act of 2006, the Stop Counterfeiting in 
Manufactured Goods Act, the Telephone Records and Privacy Protection 
Act of 2006, and a number of directives and changes to the criminal law 
made by the 109th Congress, as well as input received from the criminal 
justice community, the resolution of circuit conflicts on sentencing 
application issues, and other policy priorities of the Commission.
    Consistent with the requirements of the Sentencing Reform Act of 
1984, the Commission's process for sentencing policy development and 
guideline promulgation continues to include significant outreach to, 
and input from, criminal justice stakeholders, as well as the review of 
pertinent literature, data, and case law. The following examples of the 
Commission's work during the current amendment cycle illustrate this 
process.
    As part of its ongoing study of the criminal history guidelines and 
its consideration of how the guidelines might be simplified overall, 
the Commission held 2 days of meetings to discuss these topics with 
over 40 individuals, including federal judges, probation officers, 
defense attorneys, Department of Justice personnel, and academics. In 
addition, as part of its review of the guidelines with respect to 
cocaine offenses, the Commission held a day-long hearing to elicit 
testimony from representatives of the criminal justice community, 
including law enforcement, medical and treatment experts, academics, 
and community groups among others. The hearing provided a record for 
the criminal justice community to use as it debates the future of 
federal cocaine sentencing policy. The Commission also invited 
representatives of the Department of Justice, the defense bar, and 
industry groups to provide input on topics such as immigration 
penalties, sex offenses, and intellectual property offenses during a 
public meeting of the Commission.
    As the foregoing examples illustrate, the federal sentencing 
guidelines are a product of a collaborative and comprehensive process 
as required by the Sentencing Reform Act of 1984, including 
consideration of factors set forth in 18 U.S.C.  3553(a). Full funding 
of its fiscal year 2008 request will ensure that the Commission can 
continue to meet requirements of the Sentencing Reform Act of 1984 with 
respect to sentencing policy development and guideline promulgation.

          COLLECTING, ANALYZING AND REPORTING SENTENCING DATA

    The Supreme Court's recent jurisprudence has had a significant 
impact on the Commission's data collection, analysis, and reporting 
efforts. For over 70,000 federal felony and Class A misdemeanor 
criminal cases annually, the Commission extracts information from five 
documents that the courts are required to send to the Commission 
pursuant to 28 U.S.C.  994(w).\5\
---------------------------------------------------------------------------
    \5\ Section 994(w) of title 28, United States Code, requires the 
chief judge of each district court, within 30 days of entry of 
judgment, to provide the Commission with: The charging document; the 
written plea agreement (if any); the Presentence Report; the judgment 
and commitment order; and the statement of reasons form.
---------------------------------------------------------------------------
    Immediately after the 2004 Blakely decision, the Commission 
recognized that one of the most critical functions it could perform was 
reporting the most timely and accurate sentencing data available. The 
Commission therefore began to refine its efforts in this area so that 
it could produce data beyond its statutorily required annual reports. 
By the time the Supreme Court issued its Booker decision in January 
2005, the Commission had revised its data collection and reporting 
process so that it could provide ``real-time'' data about the effects 
of the Booker decision on national sentencing practices.
    The Commission further refined its data collection, analysis and 
reporting efforts throughout fiscal year 2006 to maximize the 
information it provides to the criminal justice community. It now 
provides detailed quarterly national sentencing data similar to the 
format and types of data produced in the Commission's year-end annual 
reports. Moreover, in February 2007, the Commission published on its 
website its Fiscal Year 2006 Annual Report and Sourcebook. These 
materials reflect the Commission's analysis of over 72,000 cases. This 
represents approximately 24,000 more cases than the Commission 
processed in fiscal year 1997, showing a 50-percent increase in 
caseload over a 10-year period. The Commission's fiscal year 2008 
funding request is designed to maintain personnel and other resources 
in the key areas of data collection, data analysis, and research. This 
funding also will ensure that the Commission can keep pace with 
increased demands made of its data collection and analysis efforts.
Information Technology Issues Associated with Data Collection, 
        Analysis, and Reporting
    The Commission has developed and implemented an electronic document 
submission system that enables sentencing courts to submit 
electronically the five statutorily required sentencing documents 
directly to the Commission. This has greatly alleviated the need to 
spend court resources on copying, bundling, and mailing hard copies. 
Currently, 80 of the 94 judicial districts are using the system, with 
another 11 slated to come on-line within the coming months. The 
Commission is hopeful that all 94 districts will be using the system by 
the end of fiscal year 2007.
    The electronic document submission system has enabled the 
Commission to take significant steps toward automating data collection 
and analysis. Increased automation contributes significantly to the 
success of the Commission's statutory missions and offers significant 
benefits to the entire criminal justice community. Automation better 
allows the Commission to provide the independent and objective analysis 
and reporting of federal sentencing practices contemplated by the 
Sentencing Reform Act. Automated data collection and analysis enable 
the Commission to provide even more detailed and accurate data on 
national sentencing trends to the criminal justice community. An 
automated system allows the Commission to work closely with other 
entities in the criminal justice community in creating an unparalleled 
system of document receipt and data reporting that promotes best 
practices throughout the system. By increasing internal efficiencies, 
the Commission is able to dedicate more resources to research-oriented 
tasks.
    The Commission is pleased that Congress has funded its efforts to 
become fully automated. During fiscal year 2008, the Commission intends 
to evaluate the technological base it has built and, working with other 
entities in the criminal justice community, determine the next steps 
for moving forward technologically. Full funding of its fiscal year 
2008 request will ensure that the Commission's automation systems work 
efficiently and effectively and allow the Commission to further develop 
its automation resources.
Increased Demands for Commission Work Product from Congress
    In addition to the new demands for national data placed on the 
Commission by the Supreme Court's recent decisions, the Commission also 
continues to experience increased demand for its work product from 
Congress. In addition to providing its quarterly and annual data 
reports on national sentencing practices, the Commission is required to 
assist Congress in assessing the impact proposed criminal legislation 
will have on the federal prison population. These assessments often are 
complex, time-sensitive, and require highly specialized Commission 
resources. Throughout the past 3 fiscal years, the Commission also has 
experienced an increase in more general requests for information from 
Congress on issues such as drugs, gangs, immigration, and sex offenses. 
The Commission anticipates an even higher volume of such requests 
throughout fiscal year 2008 and looks forward to fulfilling these 
requests in a timely and thorough manner.

                          CONDUCTING RESEARCH

    Research is a critical component of the Commission's overall 
mission. Congress directed the Commission to establish a research 
agenda as part of its role as the clearinghouse on federal sentencing 
statistics and policy. As such, the Commission has undertaken a number 
of important research projects. In response to the recent Supreme Court 
decisions and as a result of the Commission's success with increasing 
its data collection and analysis efficiencies, the Commission has 
accelerated its research agenda. In fiscal years 2006 and 2007, the 
Commission undertook a number of internal and external reports that 
provide detailed examinations of key policy areas such as immigration, 
drugs, and firearms offenses. Also in fiscal year 2006, the Commission 
released a comprehensive report on the impact of Booker on federal 
sentencing.
    In fiscal year 2007, the Commission also anticipates reviewing and 
releasing reports on federal cocaine policy and various components of 
offender criminal history, along with review of other reports drafted 
to support the Commission's guideline amendment work. These reports are 
crucial to the Commission's overall objective of promulgating reasoned 
and well-informed guideline and policy statement amendments.
    In fiscal year 2008, the Commission expects that its research 
agenda will include additional reports associated with its policy work 
and the continuation of its comprehensive review of criminal history, 
including more reports based on its nationally recognized recidivism 
database. The Commission also anticipates undertaking several research 
and data analysis projects of interest to the criminal justice 
community. Full funding of its fiscal year 2008 request will allow the 
Commission to pursue its commitments to providing the criminal justice 
community with the most comprehensive and thorough reports on federal 
sentencing practices.

                         TRAINING AND OUTREACH

    The Commission is dedicated to providing specialized guideline 
training and technical assistance to federal judges, probation 
officers, law clerks, staff attorneys, prosecutors, and defense 
attorneys by providing educational programs throughout the year. The 
Commission continues to expand its training and outreach programs to 
ensure the criminal justice community has the tools necessary to 
operate in a post-Booker sentencing world. Throughout the remainder of 
fiscal year 2007, the Commission anticipates holding training programs 
in all 12 circuits and a majority of the judicial districts. The 
Commission will co-host an annual training program for several hundred 
participants in May 2007 in Salt Lake City, Utah, and in May 2008 in 
Florida. Full funding of its fiscal year 2008 request will allow the 
Commission to continue its expanded training program in all 12 circuits 
and its attendance at numerous academic and judicial programs and 
symposia on federal sentencing.

                                SUMMARY

    The Commission is uniquely positioned to assist all three branches 
of government in ensuring sound and just federal sentencing policy. An 
independent agency housed in the Judicial branch, the Commission is an 
expert bipartisan body of federal judges, individuals with varied 
experience in the federal criminal justice system, and ex-officio 
representatives of the Executive Branch whose work on sentencing policy 
must be reviewed by Congress. In short, the Commission is at the 
crossroads of where the three branches of government intersect to 
determine federal sentencing policy.
    The Commission has worked hard and performed well with the 
resources available, and it appreciates the funding it has received 
from Congress to meet its increasing needs. Full funding of the 
Commission's fiscal year 2008 request will ensure that the Commission 
continues to fulfill its statutory missions to develop appropriate 
guideline penalties, collect, analyze, and report federal sentencing 
statistics and trends, conduct research on sentencing issues, and 
provide training to the federal criminal justice community. The 
Commission respectfully requests that Congress support fully the 
Commission's fiscal year 2008 appropriation request of $15,477,000 so 
that it can continue its role as a leader in federal sentencing policy.

    Senator Durbin. Mr. Duff.

STATEMENT OF JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE 
            OFFICE OF THE U.S. COURTS
    Mr. Duff. Good afternoon, Chairman Durbin and Senator 
Allard. I'm very pleased to present the budget request for the 
Administrative Office of the U.S. Courts today.

                        FISCAL YEAR 2007 FUNDING

    I'd like to join Judge Gibbons in thanking you for the 
additional funding for 2007 that you gave to the judiciary 
above a hard freeze. We certainly appreciate the priority shown 
to the judiciary.
    This funding will support current onboard staffing levels 
and base operating requirements, and also allow some staffing 
increases in courts where workload is heavily impacted by 
immigration and other law enforcement initiatives.
    Although I have appeared at several budget hearings before, 
when I was administrative assistant to Chief Justice Rehnquist, 
this is the first time I've been permitted to speak at one of 
these hearings, and I hope you don't conclude that there was a 
good reason for that.
    I'm honored to be here on behalf of the Administrative 
Office of the U.S. Courts and the court system. I did work 
closely with this subcommittee's predecessor, the Commerce, 
Justice, State, Judiciary Subcommittee, and I look forward to 
working with you in the newly formed Financial Services and 
General Government Subcommittee.

                   ROLE OF THE ADMINISTRATIVE OFFICE

    This past July, Chief Justice Roberts appointed me to be 
the seventh Director of the Administrative Office of the U.S. 
Courts. The AO was created by Congress in 1939, and its mission 
is to assist Federal courts in fulfilling the mission to 
provide equal justice under the law.
    The AO is a unique entity in the Federal Government. It's 
not the sole headquarters for the courts. The Federal courts 
are, to some degree, decentralized. But the AO does provide 
administrative, legal, financial management, program, security, 
information technology, and other support services, to all 
Federal courts. It also provides support and staff counsel to 
the Judicial Conference of the United States and its 25 
committees. And it helps implement Judicial Conference 
policies, as well as applicable Federal statutes and 
regulations.
    The AO has matured over the years to meet the changing 
needs of the judicial branch, but service to the courts has 
been, and remains, our basic mission at the AO.
    This year being a transition year at the AO, it's a natural 
time to ensure that the structure and services provided by the 
Administrative Office are cost effective and that they address 
the needs of the courts. But even if this period of transition 
were not a convenient time to take a look at our services and 
our structure, it's likely that budget constraints would have 
required us to do so.
    I am assembling a small advisory group of judges and 
leaders from court personnel and within the AO to assist me in 
an internal review of the Administrative Office of the Courts 
to ensure that we are structured properly and efficiently to 
meet the needs of the courts and to determine if any internal 
adjustments are needed to become more efficient.

                            COST CONTAINMENT

    Cost containment within the AO is also an important 
priority. And when I came onboard last July, one of the things 
we did was to put in place a hiring freeze within the AO which 
continues. We have not sought to replace vacancies from outside 
the organization. We've tried to backfill within the 
organization, and, I think, have obtained substantial savings 
as a result of that effort. There have been exceptions to it, 
but they are the exception and not the rule.

           RELATIONSHIP WITH GENERAL SERVICES ADMINISTRATION

    On another front--Senator Allard, you referred to this--I 
think it's fair to say that relations between the courts and 
the GSA have been strained over the past few years. I'm very 
pleased to report some progress with GSA. We've had a number of 
meetings and discussions with the new Administrator at GSA. We 
are getting to the bottom of these rent overcharges that have 
occurred. What I'm most pleased about is that the nature of the 
dialogue and the tone of the dialogue have improved. We're 
sitting across the table from each other and working through 
some of these problems. We've exposed a number of the rent 
overcharges and have been given credit for them. The total 
amount of these is over $50 million.
    Another thing we're doing with GSA is trying to devise a 
new formula for going forward on our rent. The current basis 
for determining rent is based on a fair market value, and 
there's been a lot of room for play in that. And that's where 
we have identified some of these overcharges.
    We're working with them on a new formula for making rent 
calculations, going forward, more attuned to a return-on-
investment formula, which gives us some predictability, which 
is great for us, with regard to planning--budget planning, and, 
as I say, takes some of the play out of the rent calculations 
that have been troublesome to us.
    The goal, frankly, is to come to you in the future with a 
solution to these problems, rather than to put into your lap a 
significant problem that requires your intervention for a 
solution. We're very grateful, however, having said that, for 
your intervention and the pressure you've helped bring to bear 
on a very significant problem within the judiciary. It's been 
extremely helpful and we appreciate it, Senator Allard.

                        FISCAL YEAR 2008 REQUEST

    My written testimony, which I ask be included in the 
hearing record, provides several examples of the wide array of 
services and support that the AO provides to the Federal 
judiciary. I'm going to limit the remainder of my remarks this 
afternoon to the specific budget request, the fiscal year 2008 
budget request for the AO.
    The fiscal year 2008 appropriations request for the 
Administrative Office of the U.S. Courts is $78,536,000. This 
is an increase of $6.2 million over the 2007 enacted level. 
And, while the increase we're seeking may appear to be 
significant, it actually represents a no-growth current-
services budget. Mr. Chairman, the AO's appropriation comprises 
less than 2 percent of the judiciary's total budget.
    In addition to the appropriation provided by this 
subcommittee, the AO receives nonappropriated funds from fee 
collections and carryover balances, as well as reimbursements 
from other judiciary accounts for information technology 
development and support services that are in direct support of 
the courts, and the court security and defender services 
programs. The principal reason for the increase in appropriated 
funds requested for the AO is to replace nonappropriated funds 
that were used to finance the fiscal year 2007 financial plan, 
but which are expected to decline in fiscal year 2008. And 
mostly, there, we're talking about reductions in bankruptcy 
filings. The filing fees from bankruptcy filings funded 
significantly our nonappropriated funds in the past. And, 
because of the anticipated drop off in those nonappropriated 
funds, we are seeking more in the way of appropriated funds.
    I would emphasize that we are requesting no program 
increases in our budget request. I would also emphasize that of 
course we're going to keep you apprised and work closely with 
your staff if our projections of fee collections and carryover 
estimates change. If we experience and obtain additional fee 
collections from those which we've projected, we'll certainly 
inform you right away of that fact, so adjustments to the AO's 
budget request can be made accordingly.

                           PREPARED STATEMENT

    Chairman Durbin and members of the subcommittee, I 
recognize that fiscal year 2008 will be another difficult year 
for you and your colleagues as you struggle to meet the funding 
needs of agencies and programs that are under your review. I 
pledge to you that we will work very closely with you, and we 
treat, as seriously as you do, cost-containment efforts and 
initiatives. And we look forward to working with you and your 
staff.
    Thank you very much.
    [The statement follows:]

                  Prepared Statement of James C. Duff

                              INTRODUCTION

    Chairman Durbin, Senator Brownback, and members of the 
subcommittee, I am pleased to appear before you this afternoon to 
present the fiscal year 2008 budget request for the Administrative 
Office of the United States Courts (AO) and to support the overall 
request for the entire Judicial Branch.
    Before I begin, I would like to join Judge Gibbons in thanking you 
and your committee for the support you provided the Judiciary in H.J. 
Res. 20, the final 2007 Continuing Resolution. We deeply appreciate the 
additional funding above a hard freeze provided the Judiciary. It will 
support current on-board staffing levels and base operating 
requirements, and allow some staffing increases in courts whose 
workload has been heavily impacted by immigration and other law 
enforcement initiatives.
    While this is my first official appearance before Congress, from 
1996 to 2000 I served Chief Justice Rehnquist as his administrative 
assistant and chief of staff and supported Justices Souter and Kennedy 
in their appearances before then-Chairman Gregg and the Commerce, 
Justice, State, and the Judiciary Appropriations Subcommittee. I look 
forward to working with you under the newly formed Financial Services 
and General Government Appropriations Subcommittee, to answer any 
questions you might have, and to represent as clearly as I can the 
important needs of the Federal Judiciary.

                   ROLE OF THE ADMINISTRATIVE OFFICE

    In July 2006, I accepted the appointment of Chief Justice Roberts 
to become the 7th Director of the Administrative Office of the U.S. 
Courts. Created by Congress in 1939 to assist the Federal courts in 
fulfilling their mission to provide equal justice under law, the AO is 
a unique entity in government. Neither the Executive Branch nor the 
Legislative Branch has any one comparable organization that provides 
the broad range of services and functions that the AO does for the 
Judicial Branch.
    Unlike most Executive Branch agencies in Washington, the AO is not 
the sole headquarters for the courts. The Federal court system is 
decentralized, although the AO provides administrative, legal, 
financial, management, program, security, information technology and 
other support services to all Federal courts. It provides support and 
staff counsel to the Judicial Conference of the United States and its 
25 committees, and it helps implement Judicial Conference policies as 
well as applicable Federal statutes and regulations. The AO also 
coordinates Judiciary-wide efforts to improve communications, 
information technology, program leadership, and administration of the 
courts. Our administrators, accountants, systems engineers, analysts, 
architects, lawyers, statisticians, and other staff provide 
professional services to meet the needs of judges and staff working in 
the Federal courts nationwide. The AO staff also responds to 
congressional inquiries, provides information on pending legislation, 
and prepares congressionally mandated reports.
    The AO has evolved and matured over the years to meet the changing 
needs of the judicial branch. Service to the courts, however, has been 
and remains our basic mission. As its new director, I want to ensure 
that the structure and services provided by the AO are appropriate and 
cost-effective and that they address the needs of the courts. I am 
assembling a small advisory group of judges and leaders from court 
personnel to assist me and our new deputy director--Jill Sayenga--in a 
review of our structure. Ms. Sayenga brings with her 18 years of 
experience in the Federal court system and will be a great asset to the 
AO. We are currently engaged in an examination of our core mission as 
defined by statutes and directives from the Judicial Conference to 
determine if internal adjustments are needed within the AO to improve 
efficiency and responsiveness to the courts.

               WORKING WITH OUR EXECUTIVE BRANCH PARTNERS

    Relations between the General Services Administration (GSA) and the 
AO in recent years have been strained. During the past 8 months I have 
served as director, I have met many times with Ms. Lurita Doan, the new 
GSA administrator, and the new commissioner of the Public Buildings 
Service, David Winstead, to work on solutions to the issues confronting 
our organizations and identify our mutual goals and responsibilities. I 
am pleased to report significant progress in the relationship between 
the AO and GSA. We are working together on our extensive nationwide 
effort to validate GSA space assignment and classification records, and 
to reconcile them with actual rent bills. In addition, we are currently 
working on significant changes in how GSA determines or calculates 
courthouse rents. We both recognize the important responsibility our 
agencies have in being good stewards of limited federal funds. Our 
negotiations reflect the partnership that is being forged and my firm 
belief that developing cooperative relationships and maintaining open 
lines of communication with our Executive Branch partners is crucial to 
our ability to solve problems as they arise. It is our mutual goal to 
present solutions to Congress to the issues facing us, and not 
delivering problems to you.
Judicial Security
    Another important Executive Branch partnership we have is with the 
United States Marshals Service (USMS). By statute, and under a 
Memorandum of Agreement with the Attorney General, the Congress 
appropriates funds to the Judiciary to provide security inside Federal 
courthouses, and these funds are administered by the USMS for the 
Judiciary through its judicial security program. A close working 
relationship between the AO and the USMS is essential to ensure the 
protection of the judicial process, including litigants, judges, and 
the public. In addition, it is critical that the administration 
support, and Congress provide, the resources necessary for the USMS to 
fulfill adequately its statutory mission.
    John Clark, a career U.S. Marshal, and relatively new director of 
the USMS, has been very accessible to the AO and we are building a 
stronger working relationship with the USMS. Director Clark has 
attended each of the meetings of the Judicial Conference's Judicial 
Security Committee since it was created in January 2006 and has 
encouraged his senior staff to meet regularly with AO staff to discuss 
issues and implement policies regarding judicial security. This 
improved relationship with the USMS will enhance the security of the 
Judiciary.
    Following the murders of two members of U.S. District Court Judge 
Joan Lefkow's family in their Chicago home, the Administrative Office 
worked with Director Clark and the Appropriations Committees--
especially you Chairman Durbin--to obtain supplemental funding for the 
USMS to enhance the off-site security of Federal judges. Part of the 
supplemental funding was used by the USMS to establish a home-intrusion 
detection systems program for all Federal judges. The AO and the USMS 
worked together to develop a program to provide home alarm systems to 
Federal judges who wanted one. To date, nearly 1,600 systems have been 
installed or are scheduled for installation in judges( homes by a USMS 
national security vendor.

           THE ADMINISTRATIVE OFFICE--IN SERVICE AND SUPPORT

    Each day, as judges and court employees across the country work to 
provide citizens with due consideration and equal justice under the 
law, the Administrative Office supports that commitment by designing 
and carrying out programs and initiatives in a manner that reflects 
good stewardship of public funds. From the implementation of cost-
containment initiatives to carrying out congressional mandates, AO 
staff collaborate with the courts to design and implement smart 
business practices. I would like to highlight just a few.
Judiciary Internal Oversight and Review
    The Administrative Office plays a vital role in the Judiciary's 
system of oversight and review to promote the stewardship of resources, 
effective program management, and the integrity of operations within 
the Third Branch. The AO has been conducting financial audits since 
Congress first authorized this function in 1975.
    The AO's comprehensive audit program complies with generally 
accepted government audit standards. In 2006, the AO conducted 105 
financial and administrative audits of Judiciary funds, financial 
activities, operations and systems. Financial audits covering all court 
units are conducted by an independent certified public accounting firm 
under contract with and the direction of the Office of Audit on a 4-
year cycle for most courts, and on a 2\1/2\ year cycle for larger 
courts. Other audits cover funds such as the Court Registry Investment 
System, Judiciary Retirement Trust Funds, Chapter 7 trustees, Criminal 
Justice Act (CJA) grantees, contracts and financial systems, and 
special audits such as when there is a change of court unit executive.
    In addition, on-site programmatic reviews are conducted in the 
courts. These specific reviews may focus on things such as program 
operations and management, human resources management, procurement, 
information technology operations, security, continuity of operations 
planning and disaster preparedness, as well as jury management and 
court reporting in district courts. During fiscal year 2006, on-site 
reviews covering program and technical operations were conducted in 
three appellate courts, seven district courts, four bankruptcy courts, 
14 Federal defender organizations, and 12 probation and pretrial 
services offices.
    The AO provides investigatory services for addressing allegations 
of waste, fraud, or abuse. This program was approved by the Judicial 
Conference in 1988, and the Judicial Conference's Committee on the AO 
oversees the AO's performance of this function. In addition, the AO has 
a liaison with the Department of Justice's Criminal Division, the 
Government Accountability Office's FraudNet operation, and others for 
the referral and appropriate resolution of allegations of impropriety.
Ethics Compliance
    The Judiciary also has mechanisms in place to address allegations 
of judicial misconduct or disability. Like Congress, the Judiciary 
addresses conduct and ethical matters with self-regulating policies and 
through committees of Federal judges. Accountability is a core value of 
the Judiciary, and the Judiciary's self-imposed standards of conduct 
are stringent.
    Last September, the Judicial Conference adopted two policies to aid 
judges in complying with established ethical obligations. The first 
requires all Federal courts to use conflict-checking software to assist 
judges in identifying cases in which they could have a financial 
conflict of interest and should therefore recuse themselves. While 
automated screening is not foolproof, it is an efficient and effective 
supplement to a judicial officer's individualized review. The second 
outlines new disclosure requirements for those who provide privately-
funded educational programs for judges and the judges who attend such 
programs. The policy requires seminar sponsors to disclose sources of 
funding, topics, and names of speakers. Judges are barred from 
accepting reimbursements unless the program providers have made the 
required disclosures. Judges must report their attendance within 30 
days after the program. Disclosures already are available on the 
Internet. The Administrative Office is actively engaged in the 
implementation of these policies. Working closely with the relevant 
Judicial Conference committees, AO staff drafted guidelines, developed 
training programs, and created automated reporting systems to support 
these new Conference policy initiatives.
Remote Access for Officers Working in the Community
    Through its Office of Probation and Pretrial Services, the AO 
continues to provide probation and pretrial services officers with 
various wireless technologies to enhance their productivity while in 
the community interacting with defendants and offenders. Officers now 
have all critical information about persons under their supervision at 
their fingertips via ``smart phones'' and wireless hand-held devices 
and laptops. Not only do officers working in the community have access 
to all of the information that is available in their offices, they also 
are able to transmit information from remote locations back to the 
office. These technologies save travel time and expenses and make it 
possible for officers to spend more time in the community supervising 
offenders. Using remote technology was imperative to our success in 
tracking offenders in the aftermath of the Gulf Coast hurricanes.
Case Budgeting
    Recently issued Judiciary guidelines encourage courts to utilize 
case budgeting for high-cost Criminal Justice Act (CJA) panel attorney 
representations. These high-cost representations total less than 3 
percent of the caseload but account for about one-third of the panel 
attorney expenses. To assist in this effort the Second, Sixth, and 
Ninth circuits were selected to participate in a pilot project and each 
will receive one position to support the case-budgeting process in 
courts within these circuits for up to 3 years. The AO has contracted 
with two expert litigators who have substantial case-budgeting 
experience to assist judges in assessing whether Criminal Justice Act 
case budget estimates are reasonable. The Defender Services 
appropriation is one of the fastest growing accounts within the 
Judiciary and we are hopeful that case budgeting will be helpful in 
controlling expenditures in high-cost--usually capital case-
representations.
Report on the Impact of the Supreme Court Booker Case on the 
        Judiciary's Workload
    The Supreme Court, in Blakely v. Washington, 542 U.S. 296 (2004) 
(Blakely), invalidated a sentence imposed by a State court under the 
State's sentencing guidelines system. In doing so, it raised questions 
about the constitutionality of the Federal sentencing guidelines 
system. The Supreme Court decision in United States v. Booker 543 U.S. 
220 (2005) (Booker), issued a year later, rendered the Federal 
sentencing guidelines advisory in nature, rather than mandatory.
    In a June 2006 report requested by the House and Senate 
Appropriations Committees, the AO documented that the Supreme Court 
decisions in Blakely and Booker, had significantly impacted the 
workload of the Federal courts, as thousands of convicted defendants 
filed appeals or habeas corpus petitions contesting the legality of 
their sentences and thousands of cases already on appeal were remanded 
back to the trial courts for resentencing. This detailed analysis of 
the impact the Blakely/Booker decisions have had on the workload of the 
appeals and district courts, Federal defenders, and probation officers 
has been extremely helpful in determining resource needs and the 
allocation of appropriated funds.
Increased Productivity Through Information Technology Systems
    Another key AO responsibility is to lead and manage the 
development, implementation, and support of new information technology 
systems that will enhance the management and processing of information 
and the performance of court business functions. By the end of 2006, 
the Federal courts' Case Management Electronic Case Files (CM/ECF) 
system was operating in all bankruptcy courts, and 92 of 94 district 
courts, as well as the Federal Court of Claims and the U.S. Court of 
International Trade. The appellate courts' new case management system 
is scheduled to be fully deployed in nearly all regional courts of 
appeals by the end of this year.
    The prototype system for what is now CM/ECF was launched in 1995 
when a team from the AO helped the U.S. District Court in the Northern 
District of Ohio manage more than 5,000 document-intensive maritime 
asbestos cases. That court faced up to 10,000 new pleadings a week--a 
workload that quickly became unmanageable. Together, the team developed 
a system that allowed attorneys to file and retrieve documents and 
receive official notices electronically. A year later, the Bankruptcy 
Court in the Southern District of New York began live operations with a 
similar system that the AO had tailored for bankruptcy court needs. 
That court faced some of the early mega-bankruptcies, and was inundated 
with paper. Those early prototype efforts led to the system that now 
provides information on 28 million Federal court cases and serves 
hundreds of thousands of attorneys and litigants nationwide. Through 
the Judiciary's Public Access to Court Electronic Records (PACER) 
program most, if not all, appellate, district, and bankruptcy courts' 
websites contained the material now required by the E-Government Act of 
2002 long before its enactment.
    The implementation of CM/ECF is the largest system development and 
implementation effort ever undertaken in the Judiciary and is clearly 
one of our greatest success stories. More than 415,000 attorneys have 
registered and been trained in CM/ECF and on average, nearly 200,000 
docket entries are made each workday. However, during one extraordinary 
period--the first weeks of October 2005--that volume more than doubled. 
And through the PACER system, CM/ECF answers more than 1,000,000 
queries per workday. The system provides lawyers, the media, and any 
interested party with access to important case documents from anywhere, 
at any time, and replaces what had previously been a burdensome, labor- 
and paper-intensive responsibility. Attorneys have praised the systems, 
noting that they are easy to use, reduce their service and copying 
expenses, and provide quick notice of actions. It is clear that a 
robust information technology program makes the Federal Judiciary more 
accessible and efficient.
Veterans' Court of Appeals
    Recognizing the success of the Judiciary's Case Management/
Electronic Case Filing System and looking for the cost efficiency of 
adapting our new appeals court system to one that could serve their 
needs, the U.S. Court of Appeals for Veterans Claims approached the AO 
for assistance. After ensuring that our system could be adapted for 
their use without compromising our own security, and with the approval 
of the Judicial Conference, the AO entered into a Memorandum of 
Understanding to train and support the court in its examination and 
implementation of the product. The Military Construction Appropriations 
Subcommittees and the Veterans Affairs Committees in the House and 
Senate were very supportive of this agreement and the savings this 
partnership can bring to the Federal Government.
IT Cost Containment Initiatives
    During 2006, the AO also continued its efforts to assist the 
Judicial Conference Committees in developing and implementing cost 
containment strategies that will hold down costs while maintaining the 
quality of judicial services. Our efforts in the area of Information 
Technology are one example where we have been focusing on ways to 
leverage limited funds to deliver useful technologies while reducing 
operating costs.
    The Information Technology Committee was asked by the Executive 
Committee of the Judicial Conference to examine how we deploy computer 
servers for running and backing up national applications--such as our 
accounting, probation case management, electronic case filing, e-mail, 
and jury management systems. Our model had been to put servers in each 
court headquarters for each of those national applications. From a 
technical standpoint, such a server deployment model was not always 
necessary.
    So, under the direction of the IT Committee, the AO undertook a 
comprehensive study--working together with many program offices, a 
group of court unit executives, IT professionals and a judge--to 
determine how best to consolidate and share the thousands of servers 
deployed throughout our court system. The AO is now in the process of 
implementing some of their recommendations.
    In the probation/pretrial services area, we are in the process of 
consolidating 95 servers into two locations, which is projected to save 
$2 to $3 million over 4 years in equipment, staff support, and 
maintenance costs. In jury management, the working group recommended 
eliminating separate servers for each court by consolidating jury 
management onto the courts' CM/ECF servers. This is projected to save 
about $4 million over 5 years. We have also saved significant dollars 
in the courts by obtaining enterprise-wide licenses for such software 
as Adobe Acrobat Professional, instead of each court purchasing its 
own.

                 ADMINISTRATIVE OFFICE COST CONTAINMENT

    Cost containment is also an important priority within the 
Administrative Office. When I became director in July, in an effort to 
control staffing costs, I restricted recruitment actions for filling 
vacant positions to internal AO sources. Any exceptions for external 
recruitment are scrutinized carefully by an executive review committee 
and require my approval. And, as part of the larger comprehensive 
review of the AO now ongoing, we will also be looking at AO spending, 
staffing, and operations to ensure that the agency is carrying out the 
business of the Judiciary in the most efficient and effective manner.
    In addition to tight staffing restrictions, during 2006 the AO 
implemented a number of other internal cost-containment initiatives 
such as: Shifting many publications to electronic format whenever 
possible; reducing library materials in favor of electronic resources; 
and replacing desktop automation equipment based on necessity rather 
than on a cyclical basis.

                  ADMINISTRATIVE OFFICE BUDGET REQUEST

    The fiscal year 2008 appropriations request for the Administrative 
Office of the U.S. Courts is $78,536,000, representing an increase of 
$6,159,000, or 8.5 percent, over fiscal year 2007 available 
appropriations. While the percentage increase in appropriations we are 
seeking may appear significant, overall it represents a no-growth, 
current services budget request.
    The AO's appropriation comprises less than 2 percent of the 
Judiciary's total budget. In addition to the appropriation provided by 
this committee, the AO receives non-appropriated funds from sources 
such as fee collections and carryover balances to offset appropriation 
requirements. The AO also receives reimbursements from other Judiciary 
accounts for information technology development and support services 
that are in direct support of the courts, the court security programs, 
and defender services.
    The principal reason for the large increase in appropriated funds 
requested for the AO in fiscal year 2008 is to replace non-appropriated 
funds (fee/carryover) that were used to finance the fiscal year 2007 
financial plan, but which are expected to decline in fiscal year 2008 
mostly because of reductions in bankruptcy filings. Specifically, the 
AO requires $6.2 million in base adjustments to maintain current 
services. This includes inflationary adjustments and increased costs 
for recurring requirements, such as communications, service agreements, 
and supplies. The AO requests no program increases, and during fiscal 
year 2007, I expect our hiring freeze will result in the reduction of 
10 FTE's below fiscal year 2006 staffing. We will keep you apprised of 
actual fee collections and carryover estimates as the year progresses. 
If collections surpass our estimates, the amount we are requesting 
could be reduced. However, if declining fee and carryover projections 
materialize, and they are not replaced with direct appropriated funds, 
we will be forced to reduce current on-board staffing. These staffing 
losses would come on top of the 10 FTE's reduced in the hiring freeze 
this year. This would, in turn, adversely affect our ability to carry 
out the AO's statutory responsibilities and serve the courts.

                               CONCLUSION

    Chairman Durbin, Senator Brownback, members of the subcommittee, in 
the interest of time, I have shared with you only a few examples of the 
wide array of services and support the Administrative Office provides 
the Federal Judiciary, but I hope you will understand more about the 
function and responsibilities of our agency during the coming months. 
In addition to our service to the courts, the AO works closely with the 
Congress, in particular, the Appropriations Committee and its staff, to 
provide accurate and responsive information about the Federal 
Judiciary. I recognize that fiscal year 2008 will be another difficult 
year for you and your colleagues as you struggle to meet the funding 
needs of the agencies and programs under your purview. I urge you, 
however, to consider the significant role the AO plays in supporting 
the courts and the mission of the Judiciary. Our budget request is one 
that does not seek new resources for additional staff or programs. I 
hope you will support it.
    Thank you again for the opportunity to be here today.
    I would be pleased to answer your questions.

    Senator Durbin. Mr. Duff, thank you very much. And, Judge 
Gibbons, thank you for joining us.
    I've got a host of topics here, and I'll have 5 minutes, so 
I'll start with them, and then Senator Allard will have an 
opportunity, and then I'll come back.

                  FEDERAL PROTECTIVE SERVICE SECURITY

    The first thing I want to talk about is the Federal 
Protective Service. I really didn't know this was the situation 
until I prepared for this hearing. We kind of joke, around 
Washington, about the fact that, when it comes to food safety, 
we have an agency responsible for cheese pizza and another 
agency responsible for pepperoni pizza. And I'm not kidding. 
But this comes as a surprise to me, that the perimeter of your 
buildings is under the jurisdiction of the Federal Protective 
Service, an agency within the Department of Homeland Security. 
The Federal Protective Service money comes through the 
appropriation to the Department of Homeland Security, and, of 
course, the U.S. Marshals Service through your appropriation 
directly to them. And that is kind of curious, in and of 
itself. And then I read that the Federal Protective Service has 
had a series of problems and difficulties here. This doesn't 
appear to be a new problem; this appears to be a recurring 
problem. Would you like to comment on just how bad this is?
    Judge Gibbons. Well, obviously it's of sufficient concern 
to us that it was included in my written testimony. The 
language we used is straightforward. It's important enough that 
the Judicial Conference felt compelled to take a position on it 
and to seek a change in our situation with respect to 
responsibility for our exterior perimeter security. So, it is 
an important issue to us.
    Obviously, we all have much more heightened awareness today 
than we did a number of years ago of the need for such 
security, and we are reluctant to let these things go once we 
find out about them and realize that we are not having 
difficulties that are of an isolated nature.
    Senator Durbin. I take this very seriously. We had a 
situation in Chicago, a few years back, involving a judge whom 
I appointed to the bench, a tragedy that befell her family 
because of lack of security.
    Judge Gibbons. Of course, that touched all of us very much.
    Senator Durbin. And I've really tried to work with Senator 
Obama to not only address our situation in Illinois, but 
nationally, as well.
    Here's what I'd like to propose. I'm going to ask that the 
Federal Protective Service, or if it's the Department of 
Homeland Security, whatever, that some representative of that 
agency meet with me, as well as with the U.S. Marshals Service, 
and Mr. Duff, if you're available----
    Mr. Duff. Yes, sir.
    Senator Durbin [continuing]. I'm going to invite Senator 
Byrd, who is chair of that Subcommittee on Homeland Security, 
and the ranking members of this committee and that, as well, to 
come to my office and have a conversation about the situation. 
I am inclined, at this point, to try to devise a way to 
transfer the money out of the Federal Protective Service into 
the Marshals Service and be done with it, but I want to hear 
their side of the story and see if there is something which can 
be done or something in transition which makes sense.

                           SECURITY OF JUDGES

    If I could ask one other question on security, one of the 
things we've tried to do is make the homes of the members of 
the judiciary safer as a result of our continued concerns. Can 
either of you comment on whether or not that effort has shown 
any results?
    Judge Gibbons. Over 1,400 security systems have been 
installed in judges' homes and there are 200 security systems 
left to be installed. Money is available to continue to monitor 
those systems and to install systems for new judges who are 
appointed. The remainder of the judges, either for one reason 
or another, did not want systems, or many of them, doubtless, 
had previously purchased their own.
    Senator Durbin. There was also a concern about financial 
disclosure statements.
    Mr. Duff. Yes.
    Senator Durbin. About information that judges were required 
to disclose which may compromise their safety.
    Mr. Duff. Yes, sir.
    Senator Durbin. And we have been in the midst of that 
battle. And I don't think it's been resolved in Congress, as it 
should have been, as of today. Could you comment on that?
    Mr. Duff. Yes, Mr. Chairman. And first let me thank you 
personally for your leadership on these security issues. It's 
very much appreciated, and we're grateful for the support 
you've given.
    On the financial disclosure redaction authority, the 
authority to redact information on financial disclosure reports 
had a life cycle, if you will, and it expired. And so, we need 
an extension of that authority from Congress, which, frankly, 
we had hoped would have been done in the last Congress, but did 
not get completed. And so, we're working very hard with both 
the Senate and the House to----
    Senator Durbin. I promise you, we'll return to that. That's 
something that should have been done, there shouldn't have been 
a question.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    We had--I want to follow up on your security question a 
little bit. A USA Today article--and it's a recent article--
reported about a U.S. Marshals Service official who allegedly 
misspent $4.3 million meant for courthouse security and witness 
protection, to pay for fitness centers and firing ranges at 
Federal buildings. My question is, were these funds that had 
been appropriated to the judiciary through the court security 
appropriation and transferred to the Marshals Service?
    Judge Gibbons. Our information is that they were not funds 
appropriated to the judiciary.
    Senator Allard. I see.
    Judge Gibbons. The funding in question was appropriated 
directly to the Department of Justice.

                  FEDERAL PROTECTIVE SERVICE SECURITY

    Senator Allard Okay. And, on the FPS issue, the chairman 
suggested moving those duties over to the Marshals Service. I 
hope that you would also look at the possibility of privatizing 
this. Private security firms already guard a vast majority of 
Federal buildings and--to improve efficiency without 
sacrificing security--and I'd like to hear some of your 
thoughts on privatizing security of the Federal courthouses.
    Judge Gibbons. Well, statutorily, the Marshals Service, has 
responsibility for the security at Federal courthouses. They do 
contract, to a limited extent, for the services of court 
security officers. And I don't know what firm is currently 
being used, but there is a private firm being used.
    The court security officers perform functions where it's 
deemed appropriate for a lesser degree of security. Many of 
them are retired law enforcement. They man the equipment at the 
doors of the Federal buildings. They patrol the interior 
hallways. They provide in-courtroom security when the case is 
considered low security enough not to require the services of a 
marshal. The marshals do continue to handle all of the 
transporting of prisoners and defendants being held in custody. 
The Marshals Service also contracts for the housing of the 
prisoners, in some cases, in private facilities.
    Senator Allard. But, no matter what--I mean, if we were to 
change the agency or decide to do more privatization, there's 
going to be--have to require a change in the law, is that it?
    Judge Gibbons. Well, I think--you know, I----
    Senator Allard. Potentially. We just have to look at that. 
You can put it that way.
    Judge Gibbons. We'd have to look at it. I think so, but I 
did not look at the statute in preparation for this hearing.
    Senator Allard. Okay. Well, we might have a little 
different perspective on that. But at least I think we need to 
look at all options on that.
    [The information follows:]

    The Administrative Office of the U.S. Courts believes that a 
statutory change would be the best course of action in order for the 
U.S. Marshals Service to assume security functions at court facilities 
that are currently being performed by the Federal Protective Service.

            WORKING WITH THE GENERAL SERVICES ADMINISTRATION

    Senator Allard. Also, in your testimony, I was pleased to 
hear that you're working together with the GSA. And there's 
some questions. Has this affected judges to the point where 
there's--you had to cut staff and resources with this issue 
because they were taking so much for rent?
    Judge Gibbons. From time to time we have had real concerns 
about maintaining staff to pay the rent. And at times we have 
had to cut staff because we did have to pay the rent and other 
must pay expenses. That particularly happened to us in fiscal 
year 2004, largely as a result of an across-the-board cut. 
Since that time, we have worked really hard on containing our 
rent costs, and we have a lot going on in that area. We are 
very hopeful that we will not have to compromise staffing again 
to pay the rent.
    Senator Allard. And a follow-up, there's--I assume it's had 
some impact on whether you construct new Federal courthouses.
    Judge Gibbons. Well, yes. The Judicial Conference adopted a 
cap on rent of an average of 4.9 percent increase per year, and 
the effect that that has on the building of Federal courthouses 
is that we now must take into account the fact that we're going 
to have to pay rent for these facilities in the future. So, 
that is a much greater part of our planning process than it was 
previously.
    Senator Allard. So, how's your dollars going to go further? 
I mean, some agencies saying that it's better to rent, contract 
out, some say it's better to just go build your own facility. 
So, from what point of view are you looking at this, or are you 
looking at sort of a mixed view?
    Judge Gibbons. I think a mixed view. Jim may want to 
address that further.
    Mr. Duff. It is a mixed view. But I would emphasize--re-
emphasize that the judiciary is taking very seriously cost 
containment and projections of rent, going forward. And 
imposing these rent caps on ourselves internally, on our own, 
is, we hope, a demonstration of our good-faith efforts to hold 
down, as best we can, our rent costs. And that does have an 
impact on courthouse construction. It keeps us on a reasonable 
pace for rent increases.
    I, frankly, had a hard time understanding the whole concept 
of rent when I became Director of the AO. It just seemed very 
odd to me that we would be paying rent for our own buildings. 
But I think that is--it's a reality that we work with GSA on. 
And we have a long way to go with GSA, but, as I said earlier, 
I'm very pleased with the tone of the dialogue, and we're going 
to work hard together to try to come up with solutions to these 
problems, rather than throwing the problems in your lap.
    Senator Allard. That's good news.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator.

                      PANEL ATTORNEY RATE INCREASE

    Let me address this issue about the pay increases for panel 
attorneys. The recommendation, as I understand it, for 
noncapital cases, is to increase the rate to $113 per hour for 
the next fiscal year. And I've read a little bit here in your 
testimony, and a little bit of history here, that indicates 
that part of this has to do with the fact that--we're familiar 
with this, as Members of Congress--part of it has to do with 
the fact that there were years where there were no increases; 
and so, there was no effort for--or there was, in effect, no 
cost-of-living adjustment for the rate that was paid. And now, 
the suggested increase would move, I think, from $94 to $113, 
which, by my quick calculations in my head, is somewhere a 
little over 20 percent increase.
    First, let me ask you about these attorneys, these panel 
attorneys in noncapital cases. What kind of requirements are 
there for these attorneys to serve on those panels?
    Judge Gibbons. Well, districts set their own requirements, 
but generally the requirements are geared to making sure that 
attorneys who are members of the panel are competent to 
represent defendants in the sort of cases we have in Federal 
court. So, for example, a court might decide not to put a 
brand-new attorney on the panel until the attorney has gained 
some experience, perhaps being mentored by another attorney, or 
if an attorney fails to perform well, is not conscientious 
about representing the client, then the court might not want to 
appoint that attorney anymore. So, there's no standardized set 
of qualifications, but courts do take steps to make sure these 
are people who have the skills and experience to effectively 
represent defendants in Federal court.
    Senator Durbin. And one of the things that you refer to in 
your testimony is a statistical survey of attorneys. And can 
you tell me what your conclusions were from that survey?
    Judge Gibbons. Well, the surveys showed us that over 50 
percent of judges thought that their courts were having 
difficulties in recruiting attorneys at the then-hourly rate of 
$90. Thirty-eight percent of the attorneys surveyed said they 
had declined a case because of the low rate of compensation; 70 
percent of the attorneys said an increase would be required for 
them to accept more cases; and then, most importantly, we 
learned that, after overhead deductions, the attorneys are 
actually making about $26 an hour. These same attorneys, if 
billing to a private-paying client, would be charging an 
average of $212 an hour. This was in early 2005, when the 
surveys were done. And so, then, after deduction of overhead, 
the effective rate for the attorney would be $148 an hour. 
Those are the primary results of the survey. I've been told by 
the helpful staff behind me that panel attorneys, on average, 
have at least 5 years experience.
    Senator Durbin. Now, let me ask you about the universe of 
those who were surveyed. Are they those who had previously 
served on panels?
    Judge Gibbons. Yes, they were serving on the panel at the 
time the survey was done.
    Senator Durbin. And do you know how this $113-an-hour rate 
was arrived at?
    Judge Gibbons. Well, yes.
    It's one of those judgment calls. We believe----
    Senator Durbin. Since you're a judge, that makes sense.
    Judge Gibbons. That seems appropriate. There's a 
methodology under which we believe calculating inflationary 
increases that actually we would be entitled to--we could make 
a case, we thought, for asking up to, I believe it's $133 an 
hour for fiscal year 2008. However, we felt that, given current 
budgetary constraints, and given the fact that we were asking 
for a fairly large jump at one time, we felt that $113 was an 
appropriate rate to request.
    Senator Durbin. Is the current rate inadequate to attract 
qualified panel attorneys?
    Judge Gibbons. In some cases, yes.
    Senator Durbin. Thank you.
    Senator Allard.

                        FISCAL YEAR 2008 REQUEST

    Senator Allard. Thank you, Mr. Chairman.
    In the fiscal year 2007 appropriations, they were not 
enacted until February 15, but you'd been working on your 2008 
budget long before that. So, I'm curious, in developing that 
2008 request, what funding levels did the judiciary assume for 
2007?
    Judge Gibbons. In formulating the 2008 request, we assumed 
that we would receive the midpoint of the House-passed and 
Senate-reported bills, less 1 percent for an across-the-board 
rescission. What we actually got was $44 million less than 
that.
    Senator Allard. I see. Okay. And what impact did the 2007 
enacted level have on the judiciary's 2008 request?
    Judge Gibbons. Well, we made adjustments to our fiscal year 
2008 request based on 2007 enacted levels. In the normal course 
of things, we would be providing a formal budget re-estimate to 
you in May. We have gone ahead and revised the 2008 request 
downward by $80 million. And what's changed since its original 
submission is $37 million in reduced rental costs as a result 
of the rent validation efforts. Some judgeship vacancies were 
not filled that we had assumed would be filled. That reduced 
our 2008 request by $23 million. The $20 million we got in 2007 
for additional staff for our immigration and law enforcement 
workload, actually enabled us to take out of the 2008 request 
the $21 million we requested for new staff. And the reason for 
that is the $20 million translates to about 200 employees, and, 
because of the nature of the employees we're hiring, we can't 
bring that many employees onboard that quickly. So, we asked 
for no new staffing for 2008, and plan to revisit our staffing 
needs, as far as any upward adjustment, in 2009.

GENERAL SERVICES ADMINISTRATION CONSTRUCTION PROJECTS FOR THE JUDICIARY

    Senator Allard. Well, thank you, I appreciate your answer 
on that.
    GSA recently sent us a list of projects, including 
courthouses that it proposes to fund in 2007. Does this list 
represent the judiciary's priorities?
    Judge Gibbons. Yes, it reflects our 5-year construction 
plan.
    Senator Allard. And I'm curious, could you explain the 
process for scoring and ranking a project and determining the 
cost?
    Judge Gibbons. Well, the court--the projects that are 
listed on the 5-year plan are scored in priority order on the 
basis of criteria that are weighted, in terms of importance. 
Security concerns count for 30 percent; length of time a 
building has been filled to capacity, 30 percent; operational 
problems of existing facilities, 25 percent; number of current 
and projected judges needing a courtroom, 15 percent. As far as 
costs are concerned, we use estimates. When we have an estimate 
from GSA, we use that. Until we have an estimate from GSA, we 
use our own estimates. And I think that, in very broad terms, 
describes the process.
    Senator Allard. Now, sometimes these changes that occur, I 
understand from--there are some changes that occur from year to 
year. Why does that happen?
    Judge Gibbons. Well, delays cost money.
    Senator Allard. I see.
    Judge Gibbons. Sometimes things don't turn out quite as 
intended. I looked this morning at the 5-year plan, and 
learned, for example, there was one project where initially GSA 
intended to use federally owned property. Later, that property 
didn't become available, and so another site acquisition was 
required. All kinds of things that can come up in the course of 
a construction project.
    Senator Allard. I see.
    Mr. Chairman, my time's expired. I have--I'd like to follow 
up on this, and that would complete my questioning, if I might.
    Senator Durbin. Go ahead.

                        COLORADO DISTRICT COURT

    Senator Allard. In Colorado, we're hearing about the need 
for two district courts. I mean, we've got--one district court 
covers the whole State. We look at Arkansas. They have two 
districts in that State, and they don't have a mountain range 
that runs up and down and divides the State into two distinct 
geographic areas with problems in transportation, particularly 
when we've had a winter like we've had this winter. And we also 
have two population centers. The population center in El Paso 
County, which is Colorado Springs, is as big as the Denver--the 
city and county of Denver now; and we have huge growth issues, 
as far as the State is concerned, 30 percent. And they're not 
listed on the priority. And I know that when you create a new 
district, you create a new courthouse. And I wondered if you 
might comment on our situation in Colorado. We've got some 
opposition, I think, from the judges that are sitting on the 
court in Denver, because they like it there, it's a nice, big 
metropolitan area. In Colorado Springs, we--from law 
enforcement, we hear a lot of concerns because of having to 
move prisoners, when there's traffic concerns and problems and 
security issues, and then, over the mountain, obviously, the 
truck goes on the pass, gets turned sideways on the road in 
some way, that creates a problem.
    Judge Gibbons. You know, unless Jim feels that he has 
enough information to speak to Colorado directly, if we may, I 
would prefer that we get back to you about that.
    Senator Allard. I would appreciate that.
    Judge Gibbons. I, obviously, in order to advocate the 
judiciary's budget, have to know something about construction 
and how those are processed, but the primary committee within 
the judiciary that deals with those issues is our Space and 
Facilities Committee. A representative from that committee, 
either in talking with you directly or in providing a 
supplemental answer to the question, would be able to tell you 
in much more detail how this would be approached, whether 
anything is actually going on with respect to the Colorado 
situation, at this time----
    Senator Allard. I'd appreciate that. Thank you very much.
    And thank you, Mr. Chairman, for your indulgence.
    Senator Durbin. Thank you, Senator.
    [The information follows:]

    The Judicial Conference does not take a position on the 
creation of a new judicial district unless legislation has been 
introduced in Congress. The Judiciary is not aware of any 
legislation that has been introduced in the current or previous 
Congresses to create a second judicial district in Colorado. 
When legislation is introduced that creates a new district or a 
new division within an existing district, the Judicial 
Conference sends the legislation to the chief judge(s) of the 
affected district(s) and circuit(s) to evaluate the merits of 
the legislative proposal based on caseload, judicial 
administration, geographical, and community-convenience 
factors. During this evaluation, the views of the affected U.S. 
Attorney(s) are also considered. Only when the legislative 
proposal has been approved by both the affected district 
court(s) and the appropriate circuit judicial council(s) does 
the Judicial Conference's Committee on Court Administration and 
Case Management review the proposal and recommend action to the 
Judicial Conference.
    Since legislation has not been introduced, the Judicial 
Conference has not taken a position on splitting the District 
of Colorado, although the district court in Colorado does not 
believe that splitting the district would be cost effective. 
Doing so would require a new courthouse, clerk of court, 
bankruptcy court, and probation and pretrial services office. A 
new district would also significantly impact the U.S. Marshals 
Service. The federal court caseload in Colorado Springs does 
not support either a second district for Colorado or the 
creation of a separate division within the current district. 
From fiscal year 2004 to fiscal year 2006 criminal felony 
filings for Colorado Springs/Pueblo declined 29 percent from 95 
to 67 filings. Criminal misdemeanor filings handled by a 
magistrate judge declined by 46 percent, from 307 filings in 
fiscal year 2004 to 167 filings in fiscal year 2006. Also, the 
district's probation office is currently reducing its officers 
in Colorado Springs due to declining caseload.
    Colorado Springs, county seat for El Paso County is 
approximately 65 miles from Denver on Interstate 25, a 
significant part of which is now three lanes each way. El Paso 
County is served weekly by a magistrate judge to handle petty 
offense and misdemeanor matters generated at the numerous 
military installations in the area (Public Law 108-482, enacted 
on Dec. 23, 2004, amended Section 85 of title 28, to include 
Colorado Springs as a place of holding court). The district 
recognizes and is addressing the need for enhanced magistrate 
judges presence in Colorado Springs to address civil matters 
there.
    The district court in Colorado is not supportive of a 
separate district or division based upon the above cost-versus-
need considerations. The district's long-range plan approved by 
the circuit council is now complete with the construction of 
the Alfred A. Arraj U.S. Courthouse and the Byron Rogers 
Federal Building and U.S. Courthouse in Denver.

                          THE COURTS' CASELOAD

    Senator Allard. I'd like to address this caseload issue, if 
I might. And the statistics which you have referred to when it 
comes to staffing indicates a pretty substantial increase in 
aggregate caseload--195 percent, in fact--between 1984 fiscal 
year and fiscal year 2006. And yet, in all of the categories of 
anticipated filings in this fiscal year, with perhaps one 
exception--appellate filings, civil filings, criminal filings, 
and bankruptcy filings--you are anticipating a decline in 
caseload, the exception being the Southwest area, where 
caseloads have gone up dramatically on immigration questions. I 
can see the case you're making for an increased caseload up to 
2006, while staffing resources have barely increased. Tell me, 
as you look forward to 2007, if the argument can't be made that 
things are starting to level off, in terms of caseload.
    Judge Gibbons. Well, maybe. The reason we included, in the 
written testimony, the historical chart that goes back to 1984 
was to give an illustration of how, although caseload 
fluctuates, maybe goes up and down in the short term, over time 
it has trended upward. And that's really just to give you a 
context within which to consider the current rather modest 
declines.
    Another thing to keep in mind is, these are projections, 
and so we're always a little bit careful about how we use them. 
I asked, yesterday, ``How do we project what our filings are?'' 
Well, the answer is, ``We take our actual filings for 1 year, 
and we run them through various statistical forecasting models 
and get, you know, a 3-year projection.'' I said, ``How 
accurate are they?'' And they said, ``Well, first year, pretty 
good; second year, a little less so; third year, a little less 
so.''
    So, we don't really know what to make of these modest 
declines in appellate and district court caseload. We also 
don't quite know yet exactly what to make of the situation in 
bankruptcy. It's obvious there's a real drastic decline in 
cases, but that may not translate into a drastic decline in 
workload, given the requirements of the new law. And then, of 
course, we have upward trends in workload, still, in probation 
and pretrial. So, maybe it's the beginning of some overall 
trend, but maybe not. I think we'd be hesitant to attach too 
much future importance to it.

                    PROBATION AND PRETRIAL SERVICES

    Senator Durbin. And I want to go to the one point you just 
made. I think the case you make on probation and pretrial 
services is very compelling, the nature of the work that's 
being done there, and the importance. It appears that the rate 
of incarceration has dramatically increased for those who are 
being served by that part of our system. And, of course, their 
success can reduce recidivism, which is an added cost to 
society, first; and taxpayers, second. So, when it comes to the 
allocation of staff, let's say, for the probation services, 
where's that decision made?
    Judge Gibbons. Well, we have various work measurement 
formulas which are our ways of measuring the work. And those 
are the--those, plus some adjustments for--for example, we done 
a 2-percent productivity assumption--but those are--figure in 
to what our budget request is. Then, after we receive our 
request, we have the ability to make some ad hoc adjustments, 
depending on, you know, if we've had, say, since the time of 
the submission of the request, or since the time of our last 
re-estimate, we've had substantial increases in an area, we'll 
take that into account and make adjustments in the financial 
plan, which comes back to you for approval and review, and then 
in the allotments to the courts.
    [The information follows:]

    The Judiciary has work measurement formulas that it uses to 
measure the courts' work in order to determine staffing needs. 
The allocation of staff and the associated funding is based on 
each court units' workload as well as resources available for 
the courts on a national level. Once Congress provides an 
appropriation, the Judiciary makes a determination on how best 
to utilize the funding to cover rent costs, information 
technology investments, judge and chamber needs, and staffing 
needs in clerks and probation offices nationwide. The bulk of 
the Judiciary's costs are for must-pay items over which it has 
little control. The remaining funds are used for court staffing 
and operating costs. Workload in a specific court or probation 
office is the primary cost driver of how staffing allocations 
are made to each court unit, although funding constraints 
necessitate that funding for staff be reduced well below the 
staffing levels indicated as necessary by the staffing 
formulas.

               ADAM WALSH CHILD PROTECTION AND SAFETY ACT

    Senator Durbin. And you make a point here in your testimony 
about recent legislation, the Adam Walsh Child Protection and 
Safety Act of 2006, which will increase, significantly, the 
number of sex offenders coming into the Federal probation and 
pretrial system for supervision; and monitoring their behavior, 
you say, is very challenging, requires intense supervision. I 
will say, and I'm sure it comes as no surprise, that I'm not 
sure that any Member of Congress even paused to think about 
that part of the law. We were--obviously felt that we were 
answering a need to keep our streets safer and our children 
safer, but never stopping to think what that meant in terms of 
additional people working in this area. And for those who 
believe that you can just consistently cut back in the number 
of people who are working in the Federal Government, they have 
to understand that sometimes we pay a price that we don't want 
to pay. Having people who are effective in this area could 
protect a lot of children and a lot of families.
    Judge Gibbons. I looked at that statute yesterday, and was 
really quite surprised at the very specific kinds of ways in 
which it's going to affect probation and pretrial: Longer 
periods of supervised release, notification requirements, 
searches of homes of offenders, required electronic monitoring, 
in some cases, for pretrial releasees, more stringent Bail 
Reform Act requirements resulting in more detainees--I mean, 
it's broad and has an impact in many different ways.
    Senator Durbin. And each and every aspect of it is 
defensible and laudable, and yet, from a practical standpoint, 
it puts a greater burden on the courts, and one that is more 
costly to the taxpayers. It is something which we should be 
more honest about when we talk about these things here in 
Washington.

                    REPORTING ON IMPACTS AND RESULTS

    The judiciary routinely reports statistical information, 
but doesn't necessarily take it to the next level by providing 
the impact or results of the data. For example, Congress 
mandated, in 1988, that district courts make alternative 
dispute resolution available to litigants, but there hasn't 
been a report of accomplishment about which methods of 
alternative dispute resolution are more likely to settle cases 
and avoid a trial. Would you consider reporting on the impact 
of the way the judiciary does its work, beyond simple 
statistical reporting?
    Judge Gibbons. I gather you're asking for a report, beyond 
an answer to your question today.
    Senator Durbin. Yes.
    Judge Gibbons. We will report on whatever Congress asks us 
to report on, Mr. Chairman.
    Senator Durbin. Thank you.
    Well, this is one of those congressional mandates which we 
think is a very compelling thing and is usually ignored by many 
agencies. So, I hope that you'll take a second look at it and 
see if you might report to Congress on which methods are most 
successful.
    Judge Gibbons. I will just make one very general comment. I 
was a district judge for 19 years before becoming an appellate 
judge, and had a number of experiences with a number of 
different kinds of alternative dispute resolution in the 
district court. And there are a number of them that are very 
effective. And most courts are quite enthusiastic about 
implementing them.
    [The information follows:]

    Staff at the Administrative Office of the U.S. Courts will have 
further discussions with Subcommittee staff regarding a report on which 
methods of alternative dispute resolution are most effective.

    Senator Durbin. Thank you very much.
    I want to apologize to you and to Mr. Duff, and to all 
present, for coming in late. That's something that I think is 
disrespectful, and feel very badly about that. But I thank you 
for your patience, and especially for your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    And we will leave the record open for those who might 
submit additional questions for you to consider.
    I appreciate the benefit of hearing from you about your 
funding needs for the judiciary. I think we have further 
insights into your operations, and they'll help us in our 
deliberations.
    As I have mentioned, the hearing record will remain open 
for a period of 1 week, until Wednesday, March 28, at noon, for 
subcommittee members to submit statements and/or questions for 
the record.
    [The following questions were not asked at the hearing, but 
were submitted to the judiciary for response subsequent to the 
hearing:]
            Questions Submitted by Senator Richard J. Durbin
    Question. The Judiciary received an additional $20 million in the 
fiscal year 2007 continuing resolution to address critically 
understaffed workload associated with immigration and other law 
enforcement needs. The funding was provided because the caseload at the 
Southwest Border courts has reached critical levels, in part, due to 
forced staffing reductions a few years ago. How do you plan to use 
these resources?
    Answer. The $20 million will enable courts that are critically 
understaffed to hire about 200 staff to address increased workload 
needs resulting from immigration and law enforcement initiatives as 
well as other workload drivers.
    The Judiciary's fiscal year 2007 financial plan allots a net 
additional $5.7 million in salary funding based on the workload needs 
of the courts as determined by the staffing formulas. Of this amount, 
$3.3 million (58 percent) was allotted to the five Southwest Border 
courts to address workload needs. This $3.3 million equates to 
approximately 65 FTE. The remaining $2.4 million (42 percent) was 
provided to the remaining appellate and district courts and probation 
and pretrial services offices to address workload needs.
    Since the Judiciary was operating under a continuing resolution 
until February 15, 2007, courts were instructed to operate at fiscal 
year 2006 funding levels and to restrict discretionary spending. This 
meant that only courts that had attrition during the continuing 
resolution were allowed to hire. Some courts conducted preliminary 
recruitment activities during this time and are ready to fill vacancies 
quickly, while other units have delayed the entire hiring process until 
final 2007 funding levels were known.
    Given the lead time it takes to recruit and hire, all $20 million 
cannot be obligated during fiscal year 2007. We have therefore set 
aside in reserve the remaining $14.3 million (the $20 million less $5.7 
million for new staff in the 2007 plan) so that funding will be 
available in fiscal year 2008 for courts to continue to fill these 
positions.
    Question. The Judiciary's revised fiscal year 2008 budget request 
this year calls for a 7.6 percent increase, an amount likely to be more 
than the Subcommittee will be able to provide. What are you doing to 
make yourself more efficient in order to accommodate lower resource 
levels?
    Answer. While the Judiciary requires a 7.6 percent overall increase 
to fund fully its request, it requires a 6.5 percent increase just to 
maintain a current services level of operations.
Actions That Reduced Fiscal Year 2008 Appropriations Requirements
    The Judiciary has taken several actions to become more efficient 
and to limit fiscal year 2008 appropriations requirements in the 
Salaries and Expenses account. These actions reduced the fiscal year 
2008 appropriation requirements for the Salaries and Expenses account 
by $80 million. These actions include:
  --Applying a productivity factor to the staffing formulas to reflect 
        the enhanced productivity achieved through the use of improved 
        business processes and the use of technology (-$15 million, 
        -199 FTE).
  --Implementing cost containment initiatives in probation and pretrial 
        services offices (-$28 million, -322 FTE).
  --Reviewing and validating GSA rent bills to ensure that GSA is 
        applying its space pricing policies accurately ($37 million).
Space Initiatives
    The Judicial Conference continues to build on its cost-containment 
strategy that was adopted in September 2004. The Judiciary is 
establishing budget caps in selected program areas in the form of 
maximum percentage increases for annual program growth. For our space 
and facilities program, the Judicial Conference approved in September 
2006 a cap of 4.9 percent on the average annual rate of growth for GSA 
rent requirements for fiscal years 2009 through 2016. By comparison, 
the increase in GSA rent in our fiscal year 2005 budget request was 6.6 
percent. This cap will produce a GSA rent cost avoidance by limiting 
the annual amount of funding available for space rental costs, and 
courts will have to further prioritize space needs and deny some 
requests for additional space.
    An interim budget check process on all pending space requests was 
implemented in order to slow space growth. The budget check ensures 
that circuit judicial councils, together with the Administrative 
Office, consider alternative space, future rent implications, and the 
affordability of any request by the Judiciary. This approach is helping 
to control the growth in costs associated with space rent for new 
courthouses and major renovations.
    The Judiciary completed a comprehensive review of the U.S. Courts 
Design Guide. In March 2006, the Judicial Conference endorsed revisions 
to the U.S. Courts Design Guide that lower the future rental costs of 
chambers space by reducing the size of the judge's office in non-
residential chambers and chambers' conference rooms, and reducing the 
number of book shelving ranges and chambers' closets. The standards of 
the revised Design Guide will apply to the design and construction of 
new buildings and annexes, all new leased space, and repair and 
alteration projects where new space, including courtrooms and chambers, 
is being configured for an entire court unit.
    The Judiciary's rent validation project has achieved significant 
savings. This initiative originated in our New York courts where staff 
spent months scrutinizing GSA rent bills and found rent overcharges. 
The cumulative effect of this discovery was savings and cost avoidance 
over three fiscal years totaling $30 million. The Administrative Office 
expanded this effort nationwide by training all circuit executive 
offices to research and detect errors in GSA rent billings. Although it 
is quite time consuming, detailed reviews of GSA rent billings are now 
a standard business practice throughout the courts. Through the rent 
validation effort the Judiciary recently identified additional 
overcharges totaling $22.5 million in savings and cost avoidance over 
three years. GSA has been very responsive to correcting billing errors 
that we bring to their attention. By identifying and correcting space 
rent overcharges we are able to re-direct these savings to other 
Judiciary requirements, thereby reducing our request for appropriated 
funds.
Information Technology Initiatives
    The Judiciary is at the forefront of the federal government's 
efforts to leverage the use of information technology to automate 
business processes and maximize efficiency. For example, the 
Judiciary's Case Management/Electronic Case Filing (CM/ECF) project 
automates the paper intensive case filing process. The Judiciary's CM/
ECF system is operational in all bankruptcy courts, 92 district courts, 
one appellate court, the Court of International Trade and the Court of 
Federal Claims. Implementation is underway in all remaining courts. The 
Judiciary anticipates long-term efficiencies will be achieved as a 
result of the CM/ECF implementation. This benefits not only the 
Judiciary, but also the bar and public who will have greater access to 
court information.
    At least 80 percent of all bankruptcy cases are being filed 
electronically by attorneys in about 80 percent of the bankruptcy 
courts, and in many bankruptcy courts nearly all of the cases are being 
filed electronically. In addition, the courts have been enhancing 
efficiency through a combination of local management initiatives and 
court-developed automation innovations. For years, the bankruptcy 
clerks have been adopting new management techniques, developing and 
sharing best practices, and using the flexibility provided under the 
Judiciary's budget decentralization program to invest in automation 
solutions that save resources as well as improve quality and 
performance.
    In our probation and pretrial services program, the Probation 
Automated Case Tracking System (PACTS) electronic case management 
system makes probation and pretrial services officers more efficient by 
enabling them to access from their workstations a wide range of case-
related information. In fiscal year 2007, the Judiciary will complete 
consolidation of PACTS servers from all 94 districts into two 
contractor-owned and operated facilities. The consolidation will help 
the Judiciary avoid $3 million in costs over the next five years, with 
no degradation in service. Further, consolidating servers provides two 
levels of fail-over capabilities, a feature that did not exist in the 
old decentralized system of district-based servers, thereby providing 
extraordinary value in terms of continuity of operations planning. 
Probation and pretrial services offices continue to automate segments 
of their business processes to improve service to the court, other law 
enforcement and criminal justice agencies, and the community. 
Enhancements to the PACTS will continue in fiscal year 2008 to help 
offices manage cases more efficiently.
    Question. The fiscal year 2008 request for Defenders represents an 
$84 million or 11 percent increase over last year and the fiscal year 
2007 appropriation level helped address the needs of Defenders. Why is 
this level of increase still needed?
    Answer. In fiscal year 2008, the requested $83.6 million increase 
in appropriations consists of the following categories:

----------------------------------------------------------------------------------------------------------------
                                                                     Amount of        Percent       Percent of
                                                                  Total Increase     Increase     Total Increase
----------------------------------------------------------------------------------------------------------------
Pay/benefit adjustments and standard inflationary increases.....     $29,685,000             3.8            35.5
Additional 8,200 representations................................      21,960,000             2.8            26.3
Replace fiscal year 2006 carryforward...........................       9,509,000             1.2            11.4
                                                                 -----------------------------------------------
      Subtotal, Adjustments to Base.............................      61,154,000             7.9            73.2
                                                                 ===============================================
Increase in panel attorney rates from $96 to $113 per hour......      21,797,000             2.8            26.1
Establishment of two new FDOs...................................         600,000             0.1             0.7
                                                                 -----------------------------------------------
      Subtotal, Program Increases...............................      22,397,000             2.9            26.8
                                                                 ===============================================
      Total Increase............................................      83,551,000            10.8           100.0
----------------------------------------------------------------------------------------------------------------

    Although the Defender Services' fiscal year 2008 request of $859.8 
million represents an $83.6 million (10.8 percent) increase in 
appropriations, a $61.2 million (7.9 percent) increase is required in 
this account just to maintain current services which includes funding 
for standard pay and non-pay inflationary increases and funding for 
8,200 additional Criminal Justice Act representations projected for 
fiscal year 2008. The remaining $22.4 million (2.9 percent) is 
requested for program increases to (1) increase the non-capital panel 
attorney rate from $96 to $113 per hour ($21.8 million)--substantially 
less than the $133 hourly rate panel attorneys would receive had COLAs 
been funded every year since 1986; and (2) establish two new federal 
defender organizations ($0.6 million).
    Question. The Judiciary has commented in recent years on the 
inadequacy of court staffing levels, given the courts' workload growth 
over the last several years. In applying budget balancing reductions 
each year, what priority does the Judiciary give to funding court staff 
salaries versus other program priorities (information technology, space 
rent, operating costs, etc.)?
    Answer. The Salaries and Expenses (S&E) financial plan is divided 
into four main categories: (1) mandatory, (2) historically fully 
funded, (3) short-term uncontrollable, and (4) controllable. The first 
three spending categories are funded fully in the development of the 
financial plan. For formulation and long-range planning purposes, all 
funding categories are subject to scrutiny and cost-containment 
initiatives.
    The first three categories include funding for judges and chambers 
staff salaries and benefits, court staff benefits, funding for law 
enforcement activities and contracts including drug testing and 
treatment, mental health treatment and electronic monitoring, law 
books, GSA space rental, background investigations, law enforcement 
training, and long distance telephone charges.
    All budget balancing reductions are applied to the fourth spending 
category, the controllable portion of the budget which includes items 
such as court staff salaries, court operating expenses, information 
technology, and national training programs. Budget balancing-reductions 
reflect the views, input, and in some instances, specific 
recommendations from various Judicial Conference committees and court 
advisory groups. Once funds are allotted to the courts, funding 
priorities are determined at the local level in accordance with the 
Judiciary's budget decentralization policies.
    Court salaries comprise about 32 percent of the Salaries and 
Expenses total budget and over 80 percent of the controllable spending 
category. The formulas used to calculate staffing and salary needs are 
scientifically-derived and incorporate the functions and work 
requirements of the different court programs. Of the controllable 
items, court staff salaries receive the highest priority.
    To balance requirements with available resources, the Judiciary has 
traditionally applied a lower percentage reduction to court salary 
allotments. In years in which the Judiciary has received severe funding 
reductions, the percent reduction applied to the non-salary accounts 
has been up to three times the reduction applied to court salaries. The 
fiscal year 2007 financial plan reflects a 5.9 percent reduction to 
court salary allotments, and a 12 percent reduction to court operating 
expenses from full requirements.
    Question. In studying how you formulate your budget, the National 
Academy of Public Administration (NAPA) recently recommended that you 
work with Executive Branch agencies such as Justice and Homeland 
Security more closely to determine the impact of their operations on 
the Judiciary. This would appear to be a good idea and might have 
helped you last year when the Administration did not include needs for 
the Judiciary in its Southwest Border Initiative package for 
consideration in the fiscal year 2006 Supplemental Appropriations bill 
last year. What is your opinion on this recommendation?
    Answer. The Judiciary has received a draft copy of the study and is 
in the process of preparing agency comments. Comments will be provided 
to NAPA for its consideration in finalizing the report.
    Page 37 of the draft NAPA report states the following:

    ``A strategic, comprehensive approach to budgeting is further 
hampered by the constitutional separation of powers between the 
judicial and executive branches. The absence of communication or 
integrated deliberations about budgets for all parts of the justice 
system make it more likely that budgets for the executive and judicial 
branches will not address reciprocal workload implications. Such 
disconnects can reduce the overall effectiveness of the justice system 
and can, in extreme cases, produce bottlenecks or disruptions that 
threaten the fair and full administration of justice. The Panel 
realizes that this is something over which the Judiciary has no 
control. It is not a practice within OMB or among congressional 
appropriations committees to ensure that actions in one part of the 
federal budget do not have an impact on another. Assembling and 
considering a federal budget is complex and can consume those involved 
with broad issues and program details; it is enough to deal with their 
portion of it. However, as the entity at the final end of the `decision 
continuum,' the Judiciary may have the most incentive to urge the 
branches to consider better ways to assess the impact of the proposed 
policies and spending decisions.''

    As the excerpt above notes, the Judiciary is at the tail end of the 
``decision continuum.'' Although the draft report indicates the 
Judiciary may have the most to gain in urging the three branches to 
work cooperatively to assess the impact of polices and spending 
decisions on the other, the Judiciary is powerless to effect change 
unilaterally. The Judiciary welcomes opportunities to work more closely 
with Executive Branch agencies on policies and initiatives that impact 
the federal courts.
    Question. Strategic planning has become a valuable tool to 
Executive Branch agencies as they plan for the future. Why doesn't the 
Judiciary use strategic planning?
    Answer. The Judicial Branch has engaged in strategic planning for 
many years. The Judiciary's role in our constitutional system and its 
unique governance structure necessitate different planning approaches 
than used in the Executive Branch, but its planning efforts are 
nonetheless serious and meaningful. Indeed, the Judiciary has 
successfully incorporated strategic planning into the fabric of its 
policy-making processes.
    The Judiciary developed two strategic planning documents in the 
1990's that remain valid. They are supplemented, as described below, 
with ongoing long-range planning activities that identify and address 
emerging strategic issues. The plans followed an extensive process that 
involved reaching out within the Judiciary and to other branches of 
government, the bar, and the public. Chief Justice William H. Rehnquist 
appointed a Long-Range Planning Committee of the Judicial Conference to 
coordinate this activity. The resulting Long-Range Plan for the Federal 
Courts identified the Judiciary's mission, core values and strategic 
concerns. It articulated a vision to guide the federal courts in 
fulfilling the role the Constitution and Congress assign to them, and 
it was intended to be relevant for the foreseeable future and serve as 
the underlying framework for planning, policy-making, and 
administrative decisions. That plan was closely followed with The 
Administration of Justice: A Strategic Business Plan for the Federal 
Courts, which articulated broad goals and objectives.
    The Judiciary's national policy-making body is the Judicial 
Conference of the United States. The Judicial Conference's strategic 
planning process is coordinated by its Executive Committee and involves 
committees of the Judicial Conference and the Administrative Office of 
the U.S. Courts. Through its planning process the Judiciary identifies 
strategic issues and ensures long-term implications are considered in 
assessing Judiciary operations and programs; analyzing trends and 
developments; identifying ways to improve efficiency, effectiveness, 
and economy; and developing policies. The strategic planning process 
has enabled the Judicial Branch to anticipate, react and adapt to 
events and changes in a manner that conserves and enhances its core 
values.
    The Judicial Conference's Executive Committee coordinates long-
range planning efforts across committees, including the identification 
of crosscutting strategic issues. The Executive Committee meets with 
the chairs of committees twice each year to discuss Judiciary planning 
matters. One member of the Executive Committee serves as long-range 
planning coordinator. The process is supported by the Administrative 
Office's long-range planning office, in existence since 1991.
    The long-range planning meetings of committee chairs provide an 
effective forum to discuss Judiciary-wide planning issues such as long-
range projections of caseload and resources, funding constraints, 
workforce trends, changes in programs and operations, and the impact of 
technology. The various committees also engage in strategic planning 
within their areas of responsibility. They identify strategic issues, 
analyze trends, undertake studies, seek input, and consider alternative 
approaches before making policy recommendations to the Judicial 
Conference.
    This active planning process enables the Judiciary to identify and 
address matters of strategic importance. For example, the consideration 
of workload and budget projections, in conjunction with anticipated 
funding constraints, highlighted the need for a long-term strategy to 
control the rates of growth in the Judiciary's future costs. An 
intensive effort was launched to assess the situation, and it resulted 
in the development of a cost-containment strategy for the Federal 
Judiciary.
    The committees' planning efforts have been conducted in a manner 
best suited to their areas of responsibility. For example, 
administrative aspects of the Judiciary's business are more conducive 
to the development of specific plans of action, such as determining 
what technology projects will be pursued. The Committee on Information 
Technology produces a Long Range Plan for Information Technology in the 
Federal Judiciary, which is provided to Congress.
    Question. The Judiciary does not regularly publish stated goals 
that you are then held to. Why not? How do you expect us to be informed 
of how accurately you use your resources without such information?
    Answer. The goals of the Judiciary reflect the responsibilities 
that the Constitution and the Congress have assigned to the Third 
Branch. Based on the mission and core values set forth in the Long 
Range Plan for the Federal Courts, six fundamental goals are defined in 
The Administration of Justice: A Strategic Business Plan for the 
Federal Judiciary: to safeguard the rule of law; to guarantee equal 
justice; to preserve judicial independence; to sustain our system of 
federalism with national courts of limited jurisdiction; to maintain 
excellence; and to ensure accountability.
    These goals do not change from year to year. The Judiciary's role 
is to handle the cases that come before the courts in a manner that is 
consistent with the fundamental values expressed in these goals. The 
Constitution vests the federal courts with the Judicial Power of the 
United States and the federal courts' business is defined by others. 
Congress determines the scope of federal jurisdiction, the structure of 
the Judiciary, places of holding court, and the number of judgeships. 
Litigants bring cases to the courts, and the Executive Branch is a 
primary litigant in the federal courts. Simply stated, the courts 
render decisions on matters that are brought to them; they do not 
determine what those matters will be, when they will come, how many 
will come, or who will bring them.
    The Judiciary's resource needs are linked to the courts' caseload, 
the number of judicial districts and places of holding court, and 
related workload measures. Initiatives of importance undertaken by the 
Judiciary are reported to Congress in the Judiciary's budget as well as 
through annual reports and reports of the proceedings of the Judicial 
Conference.
    Funding is provided to the courts through established national 
formulas based on workload factors, and the Judiciary reports 
extensively on its work. Many reports are produced, but of particular 
importance are reports on Judicial Business of the United States Courts 
and Federal Court Management Statistics, published annually by the 
Director of the Administrative Office of the U.S. Courts. These 
comprehensive reports contain details on national and court-specific 
statistics and comparative indicators. They cover cases filed, 
terminated, and pending; disposition actions; actions per judgeship; 
median time to (case) disposition; activities and actions on cases; 
probation and pretrial services work; defender services work, and many 
other facts. Semi-annual reports prepared pursuant to the Civil Justice 
Reform Act of 1990 provide data on motions pending for more than six 
months, bench trials submitted for more than six months, bankruptcy 
appeals and social security appeal cases pending more than six months, 
and civil cases pending more than three years. Juror utilization data 
are published each year. The United States Sentencing Commission 
collects records on each criminal sentence and reports on the courts' 
sentencing actions. Also, specialized reports on particular topics are 
frequently produced by the Judiciary, including reports requested by 
Congress.
    In summary, accountability is a core value of the Judiciary. Its 
proceedings and records are open to the public, and an array of reports 
provides a broad and deep accounting of the work performed by the 
Judiciary with the resources provided.
    Question. The new bankruptcy legislation took effect in October 
2005, and it appears that filings have not yet rebounded. What filing 
patterns do you expect will emerge over the longer term?
    Answer. Over 600,000 petitions were filed in October 2005, most of 
them just prior to the implementation date, October 17, 2005, of the 
Bankruptcy Abuse Prevention and Consumer Protection Act of 2005 
(BAPCPA). Immediately following October 17, the number of new petitions 
plummeted--14,000 cases were filed in November 2005. Monthly filings 
have since been rising.
    Historically, bankruptcy filings have exhibited strong seasonal 
patterns--with filings increasing during the early spring and declining 
during the late fall and early winter. Following October 17, 2005, the 
normal seasonal patterns were disrupted. Recent data, however, 
indicates that the seasonal patterns are reasserting themselves, 
evidenced by the 74,000 bankruptcy filings recorded for March 2007, a 
new post-BAPCPA high. This may suggest a return to historical filing 
patterns.
    No consensus exists regarding the long-term effect of BAPCPA on 
overall filings. Some bankruptcy experts believe that the long-term 
effect will be minimal; others substantial. Most agree that the more 
work intensive chapter 13 filings will become more prominent.
    Question. What has been the impact on the courts' workload as a 
result of the Booker/Fanfan Supreme Court decisions? Have all of the 
cases that came into the system been dispensed with?
    Answer. The Supreme Court's decisions in Blakely v. Washington, 542 
U.S. 296 (2004) (Blakely) and United States v. Booker, 543 U.S. 220 
(2005) (Booker), affected filings in the appeals and district courts as 
the Judiciary reported in a June 2006 report requested by the House and 
Senate Appropriations Committees. This impact began when Blakely was 
decided in June 2004. Since then, in the courts of appeals, over 13,700 
appeals resulting from Blakely and Booker were filed. During the same 
time, in the district courts, over 6,000 Booker-related habeas corpus 
petitions were filed by prisoners sentenced in the federal courts, 
about the number of such motions district courts receive each year. By 
the one-year anniversary of Booker in January 2006, all habeas corpus 
motions by prisoners who were eligible to file when Booker was decided 
had been filed. By September 2006, the numbers for the filings of these 
motions had returned to their levels prior to Booker. To date, appeals 
and district courts have processed large numbers of such motions. 
However, their pending caseload remains high so all of the cases that 
came into the system have not been dispensed with.
    Since January 2006, fewer criminal appeals have been filed than 
during the first year after Booker. However, the current numbers 
continue to be at levels 29 percent above what they had been before 
Booker. This leads the Judiciary to conclude that the criminal appeals 
caseload after Booker will remain at a level higher than it was before 
Booker, just as the criminal appeals caseload rose permanently to a new 
level after the U.S. Sentencing Guidelines were created.
    In addition, Booker-related filings in the appeals and district 
courts are taking longer to resolve. This has increased the median 
disposition times for criminal appeals by two months, and for appellate 
prisoner petitions and district court criminal cases by one month. This 
explains why the Booker-related pending caseload remains high despite 
the increase in the number of such cases resolved.
    Question. Please provide a brief summary of the Judiciary's cost-
containment efforts.
    Answer. In fiscal year 2004, the Judiciary received a significant 
reduction to its budget request, primarily due to across-the-board cuts 
applied during final conference on our appropriations bill. This 
funding shortfall resulted in staff reductions of 1,350 employees, 
equal to 6 percent of the courts' on-board workforce. Of that number, 
328 employees were fired, 358 employees accepted buyouts or early 
retirements, and 664 employees left through normal attrition and were 
not replaced.
    The 2004 situation made clear that the Judicial Conference had to 
take steps to contain costs in a way that would protect the judicial 
process and ensure that budget cuts would not harm the administration 
of justice. In March 2004, the late Chief Justice William H. Rehnquist 
charged the Judicial Conference's Executive Committee with leading a 
review of the policies, practices, operating procedures, and customs 
that have the greatest impact on the Judiciary's costs, and with 
developing an integrated strategy for controlling costs. After a 
rigorous six-month review by the Judicial Conference's various program 
committees, the Executive Committee prepared, and the Judicial 
Conference endorsed, a cost-containment strategy. The strategy focused 
on the primary cost drivers of the Judiciary's budget, which included 
an examination of the number of staff working in the courts, the amount 
they are paid, and the rent paid to the General Services Administration 
for courthouses and leased office space. Pursuing the implementation of 
cost containment initiatives is a top priority of the Judicial 
Conference.
    Question. Does the fiscal year 2008 request reflect any reductions 
associated with cost-containment?
    Answer. The Judiciary has taken several actions to become more 
efficient and to limit fiscal year 2008 appropriations requirements in 
the Salaries and Expenses account. These actions reduced the fiscal 
year 2008 appropriation requirements for the Salaries and Expenses 
account by $80 million. These actions include: (1) applying a 
productivity factor to the staffing formulas to reflect the enhanced 
productivity achieved through the use of improved business processes 
and the use of technology (-$15 million, -199 FTE), (2) implementing 
cost containment initiatives in probation and pretrial services offices 
(-$28 million, -322 FTE), and (3) reviewing and validating GSA rent 
bills to ensure that GSA is applying its space pricing policies 
accurately (-$37 million).
    Question. What future savings/reductions does the Judiciary 
anticipate?
    Answer. Pursuing the implementation of cost containment initiatives 
is a top priority of the Judicial Conference. The Judiciary has 
implemented cost containment initiatives that have already yielded 
significant savings. Future savings are expected to be achieved through 
continuing to control space costs; aggregating information technology 
servers in contrast to the current decentralized deployment scheme; 
shaping a more focused, cost efficient court support staff through 
process redesign; evaluating compensation policies with an emphasis on 
cost containment, and sharing administrative functions in the courts to 
create efficiencies and reduce operating costs.
    Question. As a cost-containment measure the Judicial Conference 
authorized a two-year moratorium on courthouse construction projects 
and major renovation projects while the Judiciary re-examined its long-
range space planning and design standards. Please summarize the results 
of your re-examination.
    Answer. In March 2006, the Judicial Conference approved, in 
concept, a new long-range planning methodology for the Judiciary called 
``Asset Management Planning.'' The major features of asset management 
planning include: developing a more comprehensive assessment and 
documentation of the requested new courthouse and how it would meet the 
operation needs of the court; identifying space alternatives and 
strategies, including minor and major renovation projects as opposed to 
constructing a new courthouse to meet current deficiencies and future 
growth needs; the development of a preliminary estimate of the costs to 
the Judiciary for the project, including additional rent; and 
developing a cost-benefit analysis to help identify the plan that best 
meets the short- and long-term needs of the Judiciary.
    In addition, over the last two years the Judicial Conference has 
endorsed multiple amendments to the U.S. Courts Design Guide, that sets 
forth the space standards for new courthouse and renovation projects. 
These changes included decreases in the size of chambers suites for all 
types of judges, public space, atriums and staff offices, and technical 
amendments to save money.
    Question. The Judiciary's rental payments to GSA have increased 
from $133 million in fiscal year 1986 to more than $1 billion in fiscal 
year 2008, equal to one-fifth of the courts' spending for salaries and 
expenses. What is the cause for this increase and what is the Judiciary 
doing to control these costs?
    Answer. The increase in rental costs is caused partially by growth 
in the amount of space occupied by the Judiciary, but also by growth in 
the rental rates assessed by GSA. According to GSA, since 1985, the 
Judiciary has undergone growth of 166 percent in terms of the amount of 
space occupied, but the growth in court rental costs over the same time 
period has been 585 percent or 3.5 times the rate of increase in the 
amount of space. The biggest cost driver, then, has been the growth in 
rental rates--a consequence of GSA's ``market'' pricing approach.
    The Judicial Conference has approved a cap of 4.9 percent on the 
average annual rate of growth for GSA rent requirements for fiscal 
years 2009 through 2016. By comparison, the increase in GSA rent in the 
fiscal year 2005 budget request was 6.6 percent. This cap will produce 
a GSA rent cost avoidance by limiting the annual amount of funding 
available for space rental costs, and courts will have to further 
prioritize space needs and deny some requests for additional space.
    An interim budget check process on all pending space requests was 
implemented in order to slow space growth. The budget check ensures 
that circuit judicial councils, together with the Administrative 
Office, consider alternative space, future rent implications, and the 
affordability of any request by the Judiciary. This approach is helping 
to control the growth in costs associated with space rent for new 
courthouses and major renovations.
    The Judiciary completed a comprehensive review of the U.S. Courts 
Design Guide. In March 2006, the Judicial Conference endorsed revisions 
to the U.S. Courts Design Guide that lower the future rental costs of 
chambers space by reducing the size of the judge's office in non-
residential chambers and chambers' conference rooms, and reducing the 
number of book shelving ranges and chambers' closets. The standards of 
the revised Design Guide will apply to the design and construction of 
new buildings and annexes, all new leased space, and repair and 
alteration projects where new space, including courtrooms and chambers, 
is being configured for an entire court unit.
    The Judiciary's rent validation project has achieved significant 
savings. This initiative originated in the New York courts where staff 
spent months scrutinizing GSA rent bills and found rent overcharges. 
The cumulative effect of this discovery was savings and cost avoidance 
over three fiscal years totaling $30 million. The Administrative Office 
expanded this effort nationwide by training all circuit executive 
offices to research and detect errors in GSA rent billings. Although it 
is quite time consuming, detailed reviews of GSA rent billings are now 
a standard business practice throughout the courts. Through the rent 
validation effort the Judiciary recently identified additional 
overcharges totaling $22.5 million in savings and cost avoidance over 
three years. GSA has been very responsive to correcting billing errors 
that are brought to their attention. By identifying and correcting 
space rent overcharges the Judiciary is able to re-direct these savings 
to other Judiciary requirements, thereby reducing the request for 
appropriated funds.
    Question. Enactment of bankruptcy legislation and the subsequent 
decline in filings have reduced fee revenues that the various parties 
in the bankruptcy system rely on to fund operations. Would you please 
comment on the impact this decline has had on the Judiciary, as well as 
the proposals of the case trustees and U.S. Trustees to generate 
additional fee revenue?
    Answer.
Impact on the Judiciary
    Filing fee revenue has historically comprised 5 percent of total 
financing for the Salaries and Expenses financial plan, with 75 percent 
of all fee collections coming from bankruptcy filing fees. In contrast, 
filing fee revenue in fiscal year 2007 comprises 3 percent of total 
financing, with 60 percent of all fee collections coming from 
bankruptcy filing fees. The table below displays bankruptcy filing fees 
from fiscal year 2004 to fiscal year 2008. A significant drop-off in 
fee revenue is evident beginning in fiscal year 2006 (the bankruptcy 
reform legislation went into effect at the beginning of fiscal year 
2006, on October 17, 2005. The impact of declining fee revenue is that 
the Judiciary is forced to request additional appropriations from 
Congress in order to fund current services requirements.

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal Year--
                                                        --------------------------------------------------------
                                                            2004       2005       2006        2007        2008
                                                           Actual     Actual     Actual     Projected  Projected
----------------------------------------------------------------------------------------------------------------
Bankruptcy Fees........................................    220,759    236,537    168,287      85,532      91,522
Yr-Yr. Change..........................................  .........     15,778    (68,250)    (82,755)      5,990
----------------------------------------------------------------------------------------------------------------

    In addition to the reduced number of bankruptcy filings, the change 
in case mix between Chapter 7 filings and Chapter 13 filings may also 
be a cause of reduced fee revenue. Prior to the bankruptcy reform 
legislation, bankruptcy filings were comprised of 70 percent Chapter 7 
filings and 30 percent Chapter 13 filings. The current mix is 
approximately 55 percent Chapter 7 and 45 percent Chapter 13s. The 
change in case mix will likely result in a reduction in fee collections 
over the short-term, since various motion-related fees under Chapter 13 
may be collected over a period of up to 5 years, versus 90 days for 
Chapter 7 filings.
Department of Justice Proposals to Increase U.S. Trustee Fees
    In its fiscal year 2008 Budget Request, the Department of Justice 
included two proposals relating to the United States Trustee program. 
The first would amend Section 589(a) of title 28, United States Code, 
to designate the deposit of fines collected from bankruptcy petition 
preparers pursuant to BAPCPA. This provision would have no impact on 
the Judiciary.
    The second proposal, amending Section 1930(a) of Title 28, would 
increase the quarterly fees collected by the U.S. Trustee in Chapter 11 
cases. These fees are paid by debtors directly to the United States 
Trustee program, based upon the debtor's quarterly disbursements. This 
proposal would affect the Judiciary in that parallel Chapter 11 
quarterly fees are also collected in the six bankruptcy administrator 
districts in Alabama and North Carolina. The Judiciary would most 
likely increase quarterly fees in those districts, parallel to the 
increases proposed by the Department of Justice to the U.S. trustee 
quarterly Chapter 11 fee increases, to maintain national parity between 
the two programs. Such fees are deposited as offsetting receipts to the 
fund established under section 1931 of title 28, United States Code. 
Aside from a parallel increase in the Chapter 11 quarterly fee in the 
bankruptcy administrator districts, this proposal would not affect the 
Judiciary.
Chapter 7 Case Trustee Compensation
    For several years, the National Association of Bankruptcy Trustees 
(NABT) has sought increased compensation for Chapter 7 case trustees. 
Chapter 7 case trustees are paid $60 per case from a portion of the 
debtors' filing fee. The Chapter 7 case trustee's compensation is paid 
over to the trustee by the court if the debtor pays the full filing 
fee. The Judiciary merely acts as a pass-through for the fees paid by 
the debtor to the Chapter 7 trustee. The Judiciary has no 
responsibility to pay the Chapter 7 trustee's fees if the debtor does 
not pay a filing fee. Additionally, Chapter 7 trustees receive a 
percentage of distributions made in asset-Chapter 7 cases. Asset 
Chapter 7 case distributions made by the case trustee are reviewed and 
approved by the bankruptcy court.
    Under the provisions of bankruptcy reform legislation, if a Chapter 
7 debtor is granted in forma pauperis status, the debtor does not pay a 
filing fee. In this circumstance, none of the entities that usually 
receive a portion of the filing fee (Judiciary, case trustee, U.S. 
trustee fund and U.S. Treasury) receive any funds.
    One NABT proposal is to increase the case trustees' statutory per 
case compensation from $60 to $100. The case trustees are also seeking 
a way to receive payments in in forma pauperis cases. The Judicial 
Conference and the Judiciary have no position on the amount of money 
Congress determines the case trustees should be paid by the debtors. 
The only concern of the Judiciary is that the proposals should not 
impact the amount of fee revenue the Judiciary receives.
    Based upon the efforts of NABT, this proposal was included in the 
House version of the Financial Netting Improvements Act of 2006 
(``Contracts Netting Act''). However, it was stripped from the bill in 
the Senate before the ultimate enactment of the legislation as Public 
Law 109-390. The case trustee fee increase included in the House 
version of the Contracts Netting Act would also have streamlined the 
collection of fees for processing of payments to case trustees, thus 
reducing an administrative burden in bankruptcy clerks' offices.
    NABT continues to pursue various proposals to enhance Chapter 7 
bankruptcy trustees' compensation.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. Judge Gibbons, in your experience, do current judicial 
pay levels pose a threat to the independence and success of the federal 
judiciary?
    Answer. I believe Chief Justice Roberts was correct when he stated 
in his 2006 Year-End Report on the Judiciary that judicial pay levels 
pose a threat to the independence of the federal judiciary.
    In the past, a federal judgeship was viewed as a capstone to a 
legal career. As the Chief Justice noted, judges have been leaving the 
federal bench in increasing numbers. In the past six years 38 judges 
have left the federal bench, including 17 in the last two years. While 
this may not represent a mass exodus, it reflects a disturbing trend 
nonetheless. To the extent that judges are leaving the bench for more 
lucrative paying jobs then, yes, pay levels do pose a threat to 
retaining talented, experienced judges. Low pay levels also discourage 
some well-qualified candidates from seeking and accepting appointment 
to the federal bench. The strength of our Judiciary is largely 
determined by the quality of our judicial officers, so the 
unattractiveness of federal judicial pay is a concern.
    Pay erosion is also affecting diversity on the bench. If only the 
extremely wealthy can afford to accept an appointment, or only those 
who are appointed from within government service, we will lose 
diversity on the federal bench.
    The Framers of our Constitution saw judicial independence as linked 
to life tenure. Time has verified their wisdom. Federal judges have 
historically been scrupulous about adhering to the rule of law and 
excluding extraneous and inappropriate factors from their decision-
making. Chronically low pay levels threaten to create a Judiciary in 
which judges worry about what their next job will be and whether 
litigants will be in a position to affect their future careers, which 
would jeopardize judicial independence and public confidence in an 
independent Judiciary. This would be a Judiciary far different from 
that envisioned by the Framers and one with fewer institutional 
protections against inappropriate influences. I do not believe that it 
is desirable to test our constitutional system by paying judges 
inadequately.
    Question. In its 1995 Long Range Plan for the Federal Courts, the 
Judicial Conference recommended giving credit toward retirement 
benefits for years served as bankruptcy and magistrate judges when such 
judges are elevated to the Article III bench. Do you believe that 
bankruptcy and magistrate judges' current inability to receive 
retirement credits is a disincentive for qualified, experienced 
bankruptcy and magistrate judges to seek promotion to the District 
Court?
    Answer. It could possibly be a disincentive for bankruptcy judges 
and magistrate judges to seek Article III judgeships because the years 
they served in those positions would not be credited towards meeting 
Article III retirement eligibility. Article III judges must satisfy the 
``rule of 80,'' that is, pursuant to 28 U.S.C.  371(a), (b) and (c), 
an Article III judge may not retire from office or take senior status 
until the judge reaches age 65 with a minimum of 15 years of Article 
III service.
    Bankruptcy judges and magistrate judges are not required to satisfy 
the ``rule of 80'' provision. Therefore, depending on the age of the 
bankruptcy judge or magistrate judge, he/she may be able to retire 
earlier if he/she remains in that capacity. Under the Judicial 
Retirement System (JRS), a bankruptcy or magistrate judge can retire on 
an annuity after eight years of service, payable at age 65. For 
example, a bankruptcy judge or magistrate judge appointed at age 50 
will have vested in a JRS annuity at age 58 equal to 8/14 (57 percent) 
of the salary of the office (payable at age 65); and that same judge 
would receive a full salary JRS retirement at 65. If that same judge 
were elevated to an Article III judgeship at age 58, he or she would 
not be entitled to an Article III ``rule of 80'' retirement until age 
69 when the age and years of service total at least 80. If that judge 
were allowed to receive credit for his or her 8 years of bankruptcy 
judge or magistrate judge service, that judge would be entitled to 
``rule of 80'' retirement at age 65 instead of 69.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

    Question. Your revised fiscal year 2008 budget submission does not 
request resources for additional staff. Do you feel that you currently 
have the appropriate number of staff to address your workload?
    Answer. No, the Judiciary does not have the appropriate number of 
staff to address current workload. The steady workload growth in recent 
years has not been matched with the staffing resources needed to keep 
up with that workload. Between fiscal years 2001 and 2006 the courts' 
aggregate caseload increased by 23 percent while staffing resources 
increased by only 1 percent.
    The Judiciary's staffing formulas indicate that an additional 2,000 
staff are required in order for clerks and probation offices to be 
staffed fully. However, because of the late enactment of appropriations 
and uncertainty about whether funding will be available in the 
subsequent year to pay newly hired staff, court managers have been 
reluctant to hire. This also contributes to the widening gap between 
workload and staffing resources. The Judiciary has sought to narrow the 
gap between staffing levels and workload through the implementation of 
automation and technology initiatives, improved business practices, and 
cost-containment efforts, but has not been able to close it entirely.
    The $20 million provided in fiscal year 2007 will enable the courts 
to hire about 200 new staff to meet workload demands. However, because 
full-year fiscal year 2007 funding was not made available to the courts 
until six months into the fiscal year, and given the lead time it takes 
to recruit and hire, all $20 million cannot be obligated during fiscal 
year 2007. We have therefore set aside in reserve the remaining $14.3 
million (the $20 million less $5.7 million for new staff in the 2007 
plan) so that funding will be available in fiscal year 2008 for courts 
to continue to fill these positions.
    The fact that the courts' workload has begun to stabilize provides 
the Judiciary an opportunity to use this funding to partially close the 
gap between current staffing levels and workload.
    Question. Given the reduced bankruptcy filing levels over the past 
18 months, why does the 2008 Budget Request not reflect a staffing 
reduction in bankruptcy courts?
    Answer.
Workload Per Case Is Increasing
    Although bankruptcy filings are down, by virtue of the law's 
design, case management under Bankruptcy Abuse Prevention and Consumer 
Protection Act (BAPCPA) of 2005 is more complex and time consuming. 
Court staff are needed to ensure that new requirements mandated by the 
law to weed out fraudulent debtors and improve the bankruptcy process 
are being met. Preliminary data from a sampling of courts indicates 
that per-case work has increased significantly under the new law. Such 
work not only reflects case management activity related to new 
requirements, such as means testing for Chapter 7 eligibility, but also 
to an increased number of motions, orders, and noticing requirements.
    Despite the drop in filings, bankruptcy court staff continue to 
make more than one million docket entries per month and provide quality 
control checks for one million additional entries generated 
electronically by attorneys. These figures reflect the results of an 
initial court sampling of data regarding workload. That data indicates 
that, under BAPCPA, the number of motions filed per case has increased 
by 59 percent; more specifically, motions for relief from stay has 
increased by 73 percent; court orders, by 35 percent, and Chapter 13 
cases, the most work intensive cases, by 50 percent.
    Pending more definitive information, regarding both filing 
projections as well as workload analyses, the Judiciary must proceed 
cautiously to ensure that it protects the needs of the bench, bar, and 
public. Downsizing of the magnitude that could be required in the 
bankruptcy clerks' offices could be expensive to conduct as well as 
disruptive to court services. Once separated, those staff (and their 
highly specialized electronic case management skills) would not be 
easily replaced to meet any future upturn in filings. The Judiciary 
would not only lose its personnel training investment, it would also 
incur huge severance pay requirements. In the mean time, the courts 
would not be in a position to address an upswing in filings, especially 
given the extra work required to carry out the mandates of the law.
Future Filing Trends Still Uncertain
    Eighteen months after implementation of the BAPCPA of 2005, experts 
still cannot agree on its future impact. Bankruptcy filings for March 
2007 were 74,000, the highest since the bankruptcy reform legislation 
went into effect in October 2005 although based on historical trends 
March is typically a high filing month.
    The Judiciary also recognizes that the root causes of bankruptcy--
job loss, business failure, medical bills, credit problems, and 
divorce--were not affected by the law and are expected to continue to 
be the primary drivers of caseload. Moreover, economic reports continue 
to advise that leading indicators of bankruptcy, such as personal debt, 
late credit card payments, and mortgage foreclosures, are on the rise.
    Question. What actions are you taking to align resources more 
closely with workload?
    Answer.
Work Measurement Begins Summer 2007
    To quantify workload changes under Bankruptcy Abuse Prevention and 
Consumer Protection Act of 2005 and align resources accordingly, the 
Judiciary will be conducting an extensive new work measurement process 
for the bankruptcy courts this summer. That measurement will be used to 
develop a new staffing formula for allocating bankruptcy resources in 
fiscal year 2009.
    Until that time, the situation will be monitored carefully and 
contingency plans developed for implementation beginning in fiscal year 
2008 if filings do not show a distinct upward trend by summer 2007.
Transition Planning In Progress
    For each of the past five years, the bankruptcy clerks program has 
been downsizing to reflect its increased reliance on electronic filing 
as well as budget realities. In the process, the program has shed 
nearly 900 full-time equivalent, on-board employees, about 17 percent 
of the workforce.
    From June through September 2007, various Judicial Conference 
committees will be considering proposals to continue the gradual 
reduction in the bankruptcy courts as warranted by filings and (pending 
the work measurement study) the Judiciary's best professional judgment 
as to workload. The process must be managed in a way so as to minimize 
impacts on bankruptcy court operations and staff.
    Question. We recently received a draft copy of the NAPA study that 
was directed in the fiscal year 2006 appropriations bill.
    What is the Judiciary's reaction to the findings and conclusions?
    Answer. The Administrative Office has also received a draft copy of 
the study and is in the process of preparing agency comments. These 
comments will be provided to NAPA for its consideration in finalizing 
the report.
    The Administrative Office is pleased with the report's finding that 
the Judiciary's budget formulation and execution activities reflect 
sound stewardship of federal funds and its recognition of improvements 
in the space area, including our relationship with GSA.
    Some of the areas addressed in the report (program based budgeting 
and long-range planning) are issues that the Judiciary has given 
considerable thought to in the past and the Judiciary welcomes the 
opportunity to have discussions about them again, taking into account 
the insights presented in the NAPA report.
    Question. What actions do you plan to take in the future in 
response to the study?
    Answer. Once we receive a final report, the Judicial Conference 
Committees will consider the recommendations specific to their areas of 
jurisdiction. Depending on when the report is received, this could take 
place either at the summer 2007 meetings or the following winter 
meetings. We expect a final report in June 2007. Ultimately the 
Judicial Conference will determine if and how the recommendations are 
adopted.
    Question. Please discuss your post-conviction supervision program.
    How do you determine the services and support supervisees require 
and receive, including education, job training, and treatment?
    Answer. In most cases, an offender's needs have been identified 
well before supervision begins, either at the pretrial or presentence 
stage of the Federal criminal justice system. The presentence report 
and the resulting sentencing document identify treatment, educational, 
employment, and other needs that will most likely have associated 
special conditions of the supervision term.
    Following an offender's placement on probation or release from an 
institution, the probation officer works with the offender to assess 
the offender's risks, needs and strengths to prepare an individualized 
comprehensive supervision plan. Not all offenders require the same 
level of supervision to reach this goal. It is the officer's job to 
distinguish among them and to implement supervision strategies that are 
appropriately matched with the offender's risks, needs and strengths.
    If substance abuse or mental health treatment conditions are 
ordered, the officer will either conduct an informed assessment or 
direct the person to undergo a clinical assessment performed by a 
professional treatment provider. If treatment is necessary, the officer 
refers the offender to a treatment program tailored to his needs. 
Treatment is part of the overall supervision objectives and strategies 
for the case. The officer monitors the offender's progress in treatment 
and collaborates with the treatment provider to further the offender's 
chances for success on supervision.
    If the offender is unemployed, the officer determines factors 
contributing to the situation. Often, officers will assist offenders in 
finding employment or vocational training programs. Officers maintain 
contact with employers and educators as necessary to support the 
offender in meeting his supervision objectives. Many districts have 
implemented formal employment programs in cooperation with other 
agencies, such as the Department of Labor, Bureau of Prisons, local 
one-stop centers, state employment agencies, and local social service 
agencies to assist offenders in securing and maintaining meaningful 
employment. Many probation offices hold job fairs in their communities 
especially geared toward ex-offenders.
    If, during the period of supervision, an officer identifies 
educational, vocational or treatment needs for which there is no court-
ordered special condition requiring the offender participation in the 
program(s), the officer will petition the court to modify the release 
conditions accordingly. A court-ordered special condition allows the 
officer to leverage sanctions if the offender does not comply with the 
condition. In many cases, the backing of the court will induce the 
offender to achieve the necessary skills and/or treatment necessary to 
succeed on supervision and beyond. All of the above interventions, in 
addition to individualized professional care and concern, contribute 
toward the goal of increasing the likelihood of success on supervision.
    Question. Do you have any data on education levels of people under 
supervision and do you ensure that supervisees receive a GED if needed?
    Answer. If education is identified as a need for an offender who 
never completed high school, the officer may identify obtainment of a 
GED as a supervision objective. If so, the officer assists the offender 
in enrolling in a local educational program. The officer continually 
monitors the offender's progress in this type of program, as well as in 
many others, intended to enhance the offender's success on supervision 
and beyond.
    The table below provides data on education levels of people under 
supervision. It reflects cases received for post-conviction supervision 
in fiscal year 2006, with education level reported.

------------------------------------------------------------------------
                   Education Level                     Number    Percent
------------------------------------------------------------------------
No Education........................................       478         1
Elementary..........................................     3,014         6
Some High School....................................    12,726        27
GED.................................................     7,004        15
High School Diploma.................................    10,843        23
Vocational Degree...................................       487         1
Some College........................................     9,471        20
College Graduate....................................     3,183        70
Post-Graduate.......................................       775         2
                                                     -------------------
      Total.........................................    47,981       100
------------------------------------------------------------------------
Source: National PACTS Reporting Database.

    Question. The Judiciary's fiscal year 2007 financial plan and 
updated 2008 request both include rent reductions.
    What additional actions is the Judiciary taking to reduce rent?
    Answer. The Judiciary has achieved significant rent savings through 
its rent validation project. This initiative originated in our New York 
courts where staff spent months scrutinizing GSA rent bills and found 
rent overcharges. The cumulative effect of this discovery was savings 
and cost avoidance over three fiscal years totaling $30 million. The 
Administrative Office expanded this effort nationwide by training all 
circuit executive offices to research and detect errors in GSA rent 
billings. Although it is quite time consuming, detailed reviews of GSA 
rent billings are now a standard business practice throughout the 
courts. Through the rent validation effort we recently identified 
additional overcharges totaling $22.5 million in savings and cost 
avoidance over three years. Total savings have been $52.5 million. GSA 
has been very responsive to correcting billing errors that we bring to 
their attention. By identifying and correcting space rent overcharges 
we are able to re-direct these savings to other Judiciary requirements, 
thereby reducing our request for appropriated funds.
    Question. In particular, a GAO report issued last year identified 
several opportunities for the Judiciary to reduce its space usage and 
therefore its rent costs. What has the Judiciary done in response to 
that report?
    Answer.
GAO Recommendation #1
    Work with GSA to track rent and square footage trend data on an 
annual basis for the following factors: (1) rent component (shell rent, 
operations, tenant improvements, and other costs) and security (paid to 
the Department of Homeland Security); (2) judicial function (district, 
appeals, and bankruptcy); (3) rentable square footage; and (4) 
geographic location (circuit and district levels). This data will allow 
the judiciary to create a better national understanding of the effect 
that local space management decisions have on rent and to identify any 
mistakes in GSA data.
            Actions Taken By the Judiciary
    The Judiciary is continuing its efforts to obtain from GSA more 
specific information with regard to its rent bills that will aid the 
judiciary in assigning costs to its various components. This effort has 
been quite time consuming as it requires GSA to remeasure its space and 
reclassify the information in GSA's database according to its type, 
e.g., district court courtrooms and chambers, clerk's office space, 
libraries, etc.
    The Judiciary is also continuing its national rent validation 
initiative to identify mistakes in GSA data. This program has two 
phases that are moving forward on separate but parallel tracks. Thus 
far, the Judiciary has received $52.5 million in rent credits and cost 
avoidance for both current and prior fiscal years.
GAO Recommendation #2
    Create incentives for districts/circuits to manage space more 
efficiently. These incentives could take several forms, such as a pilot 
project that charges rent to the circuits and/or districts to encourage 
more efficient space usage.
            Actions Taken By the Judiciary
    On March 14, 2006, the Judicial Conference approved, in concept, 
the establishment of an annual budget cap for space rental costs. The 
budget cap will require that local decision-makers balance competing 
space requests at the circuit level, so that circuit judicial councils 
may prioritize their space planning.
    Until the implementation methodology for the rent budget cap is 
established (which is anticipated to be approved by the Judicial 
Conference in September 2007), the Judiciary has a budget check process 
in place that applies to any prospectus or non-prospectus space request 
that has the potential to affect rent. Every such project must be 
approved by the Judicial Conference of the United States before it can 
proceed.
GAO Recommendation #3
    Revise the Design Guide to: (1) establish criteria for the number 
of appeals courtrooms and chambers; (2) establish criteria for space 
allocated for senior district judges; and (3) make additional 
improvements to space allocation standards related to technological 
advancements (e.g., libraries, court reporter spaces, staff efficiency 
due to technology) and decrease requirements where appropriate.
            Actions Taken By the Judiciary
    Over the last two years, the Judicial Conference of the United 
States approved multiple reductions to the space standards set forth in 
the U.S. Courts Design Guide that have reduced staff office sizes and 
chambers space for senior, district, appellate, bankruptcy and 
magistrate judges. In addition, the Committee on Space and Facilities 
plans to consider the criteria for the number of appeals courtrooms. 
Finally, the Judicial Conference approved technical amendments 
including reductions in atrium, lighting, and HVAC systems that will 
result in cost savings.
    As to the impact of electronic filing on court space, the judiciary 
has reduced Design Guide requirements for some of the clerk's office 
space, including intake areas and records storage, due to the impact of 
the electronic case filing/case management system and has reduced the 
library space by 13 percent due to reductions in lawbook collections.

                          SUBCOMMITTEE RECESS

    Senator Durbin. I thank you for your attendance today. And 
the subcommittee hearing is recessed.
    [Whereupon, at 4:15 p.m., Wednesday, March 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
